<html>
<title> - CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 108-863]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-863
 
 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2004

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

24-122 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  




















                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  


















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Current and Future Worldwide Threats to the National Security of the 
                             United States

                             march 9, 2004

                                                                   Page

Tenet, Hon. George J., Director of Central Intelligence..........     7
Jacoby, VADM Lowell E., USN, Director, Defense Intelligence 
  Agency.........................................................    28

                                 (iii)


 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Sessions, Chambliss, Dole, Cornyn, Levin, 
Kennedy, Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
Brian R. Green, professional staff member; Lynn F. Rusten, 
professional staff member; and Diana G. Tabler, professional 
staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Bridget W. Higgins, research assistant; Maren R. Leed, 
professional staff member; Michael J. McCord, professional 
staff member; and William G.P. Monahan, minority counsel.
    Staff assistants present: Michael N. Berger, Nicholas W. 
West, and Pendred K. Wilson.
    Committee members' assistants present: Darren Dick, 
assistant to Senator Roberts; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Meredith Moseley, assistant to Senator 
Graham; Christine O. Hill, assistant to Senator Dole; Russell 
J. Thomasson, assistant to Senator Cornyn; Sharon L. Waxman and 
Mieke Y. Eoyang, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi and Richard 
Kessler, assistants to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; William Todd Houchins, assistant to Senator 
Dayton; Todd Rosenblum, assistant to Senator Bayh; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. The Senate Armed Services 
Committee meets today to receive the annual--we do this at 
least once a year--testimony from the Director of Central 
Intelligence (DCI), George Tenet, and the Director of the 
Defense Intelligence Agency (DIA), Vice Admiral Jacoby. We 
receive from them their forecast of the worldwide threats 
directed towards our Nation here at home and abroad.
    So I join with the committee in welcoming the witnesses 
back before the committee, and I personally commend each of you 
for your leadership.
    There are few, if any, precedents for the challenges you 
face in your positions in this post-September 11 world. In my 
view, our country is more secure because of the vigilance and 
efforts of the hardworking civilian and military professionals 
who comprise the Intelligence Community which you proudly lead.
    The circumstances of this hearing are compelling. In the 
aftermath of September 11, our military forces, working hand-
in-hand with the Intelligence Community and coalition partners, 
have successfully defeated brutally repressive regimes and 
forces of terror in Iraq and in Afghanistan. This magnificent 
military force, active, Reserve, National Guard, and civilian, 
continues to prosecute an all-out global war to defeat 
terrorism.
    They depend--and I repeat, depend--on the intelligence that 
you collectively and individually provide them. While there has 
been much discussion in recent weeks about certain intelligence 
failures, I think in fairness we should point out the many 
intelligence successes. As a result of this Intelligence 
Community, we have caught or killed 45 of the 55 most wanted in 
Iraq, we have captured Saddam Hussein, and we continue to find 
and eliminate key al Qaeda operatives. We have witnessed recent 
revelations about nuclear proliferation in Libya and Iran, as 
well as clandestine networks selling nuclear secrets 
indiscriminately.
    The U.S. Intelligence Community was key to these 
revelations. Clearly, as a result our Nation, in my judgment, 
is a safer country as we confront and stop these proliferation 
activities, activities which could put weapons of mass 
destruction (WMD) in the hands of terrorists. However, 
dangerous threats remain. Much remains to be done to defeat the 
forces of terrorism and tyranny in the world.
    The successes we have witnessed over the past year would 
not have been possible without the tireless, hardworking 
commitment of our Intelligence Community. A number of planned 
terrorist attacks have been deterred, disrupted, or defeated 
because of sound intelligence work. The witnesses before us 
today do not speak of those very often, as they should not. It 
is in the best interests of continuing that strong intelligence 
detection that not much be said. Such is the nature of the 
intelligence business.
    Best estimates and judgments are drawn from available and 
often incomplete information. We ask intelligence analysts to 
make hard calls. They do it with total commitment to freedom. I 
am not suggesting we ignore the errors that are occasionally 
made, but we must always keep in mind that we have an 
extraordinarily capable intelligence system, the best in the 
world, the envy of the world, and it is lead by dedicated, 
hardworking public servants. We must not lose sight of it in 
the current debate. Our forward-deployed forces and our 
intelligence system that supports them are and will remain our 
first line of defense.
    In this same hearing last year, I directed a question to 
Director Tenet, as I did to all of the witnesses that came 
before this committee, and I asked what would the likelihood be 
of finding caches of WMD in Iraq following the major military 
operations. The Director's response was very straightforward, 
based on the facts as he understood them at that time. The 
Director said: ``I believe we will. I believe we will find 
research and development (R&D). We will find stockpiles of 
things he, Saddam, has not declared and weapons he has not 
declared.''
    In my view, this response was entirely consistent with the 
intelligence we have been receiving in this country for over a 
decade, that came from the many agencies of the U.S. 
Intelligence Community, entirely consistent with the 
intelligence of other nations, and entirely consistent with the 
findings of the United Nations (U.N.). I see no evidence of 
exaggeration or manipulation, Mr. Director, in your response. 
Yours was a judgment based on many years of irrefutable facts, 
including Iraq's possession and use of chemical and biological 
weapons. This was confirmed by U.N. inspectors, confirmed by 
the actual use of those weapons by Saddam Hussein in Iran and 
against the Kurds, and confirmed by Iraq's development of 
ballistic missiles that violated international agreement, and 
confirmed by intelligence that suggested continued Iraqi 
deployment and production of chemical and biological weapons.
    Without the benefit of hindsight, members of this 
committee, Members of the Senate, as well as past and present 
administrations, reached the same conclusion: Saddam Hussein 
possessed WMD. The Senate unanimously agreed in the Iraq 
Liberation Act of 1998 that Saddam Hussein's continued 
possession of WMD was a threat, a threat so dangerous that U.S. 
policy would be a policy of regime change in Iraq.
    This act, Public Law 105, stated: ``It should be the policy 
of the United States to support efforts to remove the regime 
headed by Saddam Hussein from power in Iraq and to promote the 
emergence of a democratic government to replace that regime.'' 
Those steps have been taken and yesterday we witnessed the 
dramatic signing of the transitional administrative document 
that will serve Iraq for the indefinite future.
    It is true that we have not found some of the stockpiles 
which our best estimates indicated would be present in Iraq. 
However, I point out that the work of the Iraq Survey Group 
(ISG) is ongoing, and we look forward to General Dayton's and 
Dr. Duelfer's interim report at the end of this month.
    What we have found in the aftermath of the liberation of 
Iraq is as follows: evidence of Saddam Hussein's intent to 
pursue WMD programs on a large scale; actual ongoing chemical 
and biological research programs; an active program to use the 
deadly chemical ricin as a weapon, a program that was 
interrupted only by the start of the military action in March; 
operational ballistic missiles that were deployed in clear 
violation of international agreements accepted following the 
First Persian Gulf War; and evidence that Saddam Hussein was 
attempting to reconstitute his fledgling nuclear program as 
late as 2001.
    This committee took the initiative to bring Dr. Kay to this 
very room and have a public hearing because, under the 
leadership of myself and the distinguished ranking member, we 
look upon it as a function and a responsibility of our 
oversight to bring forward all the facts irrespective of how 
they may come. In testimony in January before this committee, 
Dr. Kay, former Special Adviser to Director Tenet, told us 
that, based on the intelligence available to the President, not 
only U.S. intelligence but that of the U.N. and other nations, 
the President could have reached no other conclusion: Iraq had 
caches of chemical and biological weapons, had used them in the 
past, and was likely to use them in the future.
    As Dr. Kay stated in this very room: ``It was reasonable to 
conclude that Iraq posed an imminent threat. What we learned 
during the inspection made Iraq a more dangerous place 
potentially than in fact we thought it was even before the 
war.''
    Dr. Kay also told us that he found absolutely no evidence 
of any intelligence analysts being pressured to change or 
exaggerate any intelligence conclusions. On the contrary, he 
reminded us all that intelligence on the basic possession of 
Iraq's WMD had been consistent since 1998 when U.N. inspectors 
left Iraq. Dr. Kay and many others have reminded us that 
intelligence assessments often differ from what is later 
actually found on the ground. The important thing is when they 
differ to understand why, and I am confident our two witnesses 
will bring to light their views on that subject now.
    Undoubtedly, the world is a safer place and Iraq is a 
better place because of U.S. and coalition military actions. A 
real and growing threat to the world has been eliminated. We 
did the right thing to rid Iraq of this brutal regime. In the 
weeks and months ahead, we will continue to go through a 
process of reviewing prewar intelligence, what went wrong, what 
worked well, what needs improvement, and what is being done.
    The important work of our Intelligence Community must go 
on. It is critical that we keep our Intelligence Community 
focused on current and future threats. The members of this 
committee must understand the nature of current and future 
threats in order to carry out our responsibilities to the brave 
men and women in uniform who defend this country. Even though 
we tend to focus, quite properly, on current military 
operations, we must not lose sight of the other nontraditional 
threats that abound in this uncertain, complex world--the 
proliferation of WMD and missile technologies, information 
warfare, ethnic and religious conflict, and overall global 
trends. Our security demands vigilance in these areas and our 
military forces must be prepared to confront such threats.
    We look forward to your frank assessments of the many wide-
ranging threats to our national security.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me first join 
you in welcoming our witnesses to the committee this morning.
    The confidence of the American people and the world 
community in the assessments of our Intelligence Community 
depends upon the credibility of those assessments. That 
credibility has been badly damaged by the intelligence fiasco 
relative to the presence of WMD in Iraq before the war. The 
need to examine the intelligence that guided our Nation into 
war with Iraq is essential to avoid future mistakes which could 
weaken our Nation's security. It is essential that we establish 
confidence in our intelligence agencies.
    The Intelligence Community was so wrong about Iraq's WMD 
that it understandably raises questions about what they say 
about other looming issues. For example, what are the prospects 
of a civil war in Iraq if there is no consensus within Iraq on 
the entity to which sovereignty will be transferred on July 1 
of this year? As members of the Armed Services Committee, we 
may need to make critical judgments in that event, and we will 
hopefully be soliciting the help of the Intelligence Community.
    Owning up to, critically examining, and correcting our 
failures are necessary first steps to assuring ourselves and 
our allies that our intelligence is objective, of high quality, 
and reliable.
    The Intelligence Community told the Nation and the world 
before the war that Saddam Hussein had in his possession 
stockpiles of chemical and biological weapons, that he was 
reconstituting his nuclear weapons program, that he had mobile 
trailers for producing biological agents, that he had small 
unmanned aerial vehicles (UAVs) intended to deliver biological 
weapons, and so on. The Nation and the world were told that 
Saddam was in actual possession of WMD and was producing more, 
not just that he intended to get them, not just that he had a 
program for WMD or that he was engaged in WMD-related program 
activities, and not just that Saddam had not satisfactorily 
explained what happened to the WMD that we know he had after 
the Gulf War 10 years earlier.
    No, Saddam's possession of stocks of WMD was what made the 
threat so immediately ominous. Initiating a war on the basis of 
faulty or exaggerated intelligence is a very serious matter. 
That is just as true if one supported the war or not, and that 
is just as true if Iraq ultimately turns out to be a stable 
democracy, which we all hope and pray that it does.
    Life and death decisions are based on intelligence. The 
fact that intelligence assessments before the war were so 
wildly off the mark should trouble all Americans. It will not 
do to say, well, maybe the WMD disappeared across the border. 
The 120 high- and medium-priority suspect sites of WMD are 
still there to inspect. The mobile trailers are in our 
possession. The UAVs are in our possession. We cannot and 
should not delay critical self-assessment until every 
possibility, no matter how remote, is excluded.
    In terms of its assessments that Iraq was in actual 
possession of WMD before the war, so far the Intelligence 
Community is batting zero. Moreover, some of the public 
pronouncements of the Intelligence Community before the war 
were actually inconsistent with its own underlying classified 
documents. Compare, if you will, the unclassified October 2002 
white paper on Iraq's WMD programs and the classified October 
2002 National Intelligence Estimate (NIE) on which the white 
paper's key judgments were based.
    For instance, in one paragraph in the now-declassified 
portion of the NIE, take the judgment of the Intelligence 
Community that Iraq is ``capable of quickly producing and 
weaponizing a variety of such biological weapons agents, 
including anthrax, for delivery by bombs, missiles, aerial 
sprayers, and covert operators.'' However, in the unclassified 
white paper issued at the same time the clause, ``including 
potentially against the U.S. only,'' was added at the end of 
the paragraph. That clause was not in the then-classified NIE 
on which it was presumably based.
    Another example. The then-classified NIE said, ``Baghdad 
could make enough fissile material for a nuclear weapon by 2005 
to 2007 if it obtains suitable centrifuge tubes this year and 
has all the other materials and technological expertise 
necessary to build production-scale uranium enrichment 
facilities.'' Even that cautiously worded assessment was called 
in that classified NIE a ``less likely scenario,'' and there 
was even more caution added by a reference to Iraq's, 
``inexperience in building and operating centrifuge facilities 
to produce highly enriched uranium and its challenges in 
procuring the necessary equipment and expertise.''
    But the unclassified white paper issued by the Central 
Intelligence Agency (CIA), provided to the public, sounded a 
very different and a more ominous note. It said, ``Baghdad may 
have acquired uranium enrichment capabilities that could 
shorten substantially the amount of time necessary to make a 
nuclear weapon.'' There is nothing in that public paper about 
``less likely'' or ``inexperience'' or ``challenges.''
    Exacerbating the CIA's inconsistencies between its public 
and classified statements was the existence of an intelligence 
assessment office in the Department of Defense (DOD) outside of 
the Intelligence Community. According to press reports, that 
office, called the Office of Special Plans, working for Under 
Secretary of Defense for Policy Doug Feith, found an Iraq-al 
Qaeda collaboration where the CIA did not. This office had its 
own direct access into the National Security Council (NSC) and 
the Office of the Vice President. Its analysis was reportedly 
critical of the CIA for not finding collaboration between Iraq 
and al Qaeda, and that seems to have affected what the CIA was 
avoiding saying publicly compared to what it was saying in the 
classified documents.
    In its then-classified NIE assessment, the CIA had real 
doubts that Saddam would supply WMD to terrorist surrogates. 
The CIA talked about Saddam transferring WMD to terrorist 
groups in its classified document as an ``extreme step'' which 
he might take only if ``desperate.'' Listen to that caution and 
the nuance in the CIA's then-classified assessment:
    ``Baghdad for now appears to be drawing a line short of 
conducting terrorist attacks with conventional or chemical or 
biological weapons against the United States, fearing that 
exposure of Iraqi involvement would provide Washington a 
stronger cause for making war. Iraq probably would attempt 
clandestine attacks against the U.S. homeland if Baghdad feared 
an attack that threatened the survival of the regime were 
imminent or unavoidable or possibly for revenge. Such attacks, 
more likely with biological than chemical agents, probably 
would be carried out by Iraq's special forces or intelligence 
operatives. Saddam, if sufficiently desperate, might decide 
that only an organization such as al Qaeda could perpetrate the 
type of terrorist attack that he would hope to conduct. In such 
circumstances, he might decide that the extreme step of 
assisting the Islamic terrorists in conducting a chemical or 
biological weapons attack against the United States would be 
his last chance to exact vengeance by taking a large number of 
victims with him.''
    But none of those then-classified judgments were included 
in the CIA's public white paper. The CIA's doubts about Iraq's 
collaboration with al Qaeda were buried in classification from 
the public eye on the eve of our going to war.
    How different the CIA's classified judgments sound from the 
President's very public warnings to the American people that, 
``Saddam would like nothing more than to use a terrorist 
network to attack and to kill and leave no fingerprints 
behind,'' and that, ``Each passing day could be the one on 
which the Iraqi regime gives anthrax or VX nerve gas or some 
day a nuclear weapon to a terrorist group.''
    Why was the skepticism in the then-classified NIE about the 
possibility of Saddam transferring WMD to terrorists left out 
of the public white paper of the CIA? Was it because the 
Pentagon's Office of Special Plans was putting on a full court 
press for the existence of an Iraq-al Qaeda collaboration? Was 
the administration listening to the Office of Special Plans 
rather than the Intelligence Community?
    We need to find the answers to these and many other 
questions. This committee has a special responsibility to the 
men and women of our Armed Forces to look at the prewar 
intelligence because planning for military operations is based 
on intelligence. Flawed intelligence can put our troops and our 
Nation at risk.
    Our credibility globally has taken a big hit because of 
this massive intelligence failure. As a result, there is less 
support from people and nations around the world for the United 
States and for the war on terrorism. Serious consequences can 
follow because we depend on other people and other nations to 
provide us with valuable tips and information. We need their 
cooperation fighting terrorism. When we face future 
international security crises, we will undoubtedly seek the 
support and cooperation of the international community based on 
our Intelligence Community's assessment that there is a threat. 
It will be harder to secure that cooperation if our 
intelligence is not viewed as credible and objective.
    For the sake of our future safety as a Nation, we simply 
cannot accept intelligence being as far off the mark as it was 
before the Iraq war.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Director Tenet.

    STATEMENT OF HON. GEORGE J. TENET, DIRECTOR OF CENTRAL 
                          INTELLIGENCE

    Mr. Tenet. Thank you, Mr. Chairman. I am going to proceed 
with our threat statement and then take questions.
    Mr. Chairman, last year I described a national security 
environment that was significantly more complex than at any 
time during my tenure as DCI. The world I will discuss today is 
equally, if not more, complicated and fraught with dangers for 
the United States, but one that also holds great opportunity.
    I begin with terrorism. The al Qaeda leadership structure 
we charted after September 11 is seriously damaged, but the 
group remains as committed as ever to attacking the U.S. 
homeland. But as we continue to battle against al Qaeda, we 
must overcome a movement, a global movement, infected by al 
Qaeda's radical agenda. In this battle we are moving forward in 
our knowledge of the enemy, his plans, capabilities, and 
intentions, and what we have learned today continues to 
validate my deepest concern that this enemy remains intent in 
obtaining and using catastrophic weapons.
    Military and intelligence operations by the United States 
and its allies overseas have degraded the group. Local al Qaeda 
cells are forced to make their own decisions because of the 
central leadership's disarray. Al Qaeda depends on leaders who 
not only direct terrorist attacks, but who carry out the day-
to-day tasks that support operations. Over the past 18 months 
we have killed or captured key al Qaeda leaders in every 
significant operational area--logistics, planning, finance, and 
training--and have eroded the key pillars of the organization, 
such as the leadership in Pakistani urban areas and operational 
cells in the al Qaeda heartland of Saudi Arabia and Yemen.
    The list of al Qaeda leaders and associates who will never 
again threaten the American people includes: Khalid Shaykh 
Muhammad, al Qaeda's operations chief and the mastermind of the 
September 11 attacks; Hambali, the senior operational planner 
in South Asia; Abu Zabayda, a senior logistics officer and 
plotter; and many others.
    We are creating large and growing gaps in the al Qaeda 
hierarchy and unquestionably bringing these key operators to 
ground disrupted plots that would otherwise have killed 
Americans.
    Meanwhile, al Qaeda central continues to lose operational 
safe havens and Osama bin Laden has gone deep underground. Al 
Qaeda's finances are also being squeezed, and we are receiving 
a broad array of help from our coalition partners, who have 
been central to our effort against al Qaeda. Since the May 12 
bombings, the Saudi government has shown an important 
commitment to fighting al Qaeda in the Kingdom and Saudi 
officers have paid with their lives. Elsewhere in the Arab 
world, we are valuable vital cooperation from Jordan, Morocco, 
Egypt, Algeria, the United Arab Emirates (UAE), Oman, and 
others. President Musharraf of Pakistan remains a courageous 
and indispensable ally, who has become the target of assassins 
for the help that he has provided us.
    We have made notable strides, Mr. Chairman, but do not 
misunderstand me. I am not suggesting al Qaeda is defeated. It 
is not. We are still at war. This is a leading organization 
that remains committed to attacking the United States, its 
friends and allies.
    Successive blows to al Qaeda's central leadership have 
transformed the organization into a loose collection of 
regional networks that operate more autonomously. The sites of 
their attacks span the group's broad reach from Morocco, to 
Kenya, to Turkey, to Indonesia.
    We should not take the fact that these attacks occurred 
abroad to mean that the threat to the U.S. homeland has waned 
because al Qaeda and associated groups undertook these attacks 
overseas. Detainees consistently talk about the importance the 
group still attaches to striking the main enemy, the United 
States.
    Across the operational spectrum--air, maritime, special 
weapons--we have time and again uncovered plots that are 
chilling. On aircraft plots alone, we have uncovered new plans 
to recruit pilots and to evade new security measures in 
Southeast Asia, the Middle East, and Europe. Even catastrophic 
attacks on the scale of September 11 remain within al Qaeda's 
reach.
    So far I have been talking about al Qaeda, but al Qaeda is 
not the limit of the terrorist threat worldwide. Mr. Chairman, 
what I want to say to you now may be the most important thing I 
tell you today: The steady spread of Osama bin Laden's anti-
American sentiment through the wider Sunni extremist movement 
and through the broad dissemination of al Qaeda's destructive 
expertise ensures that a serious threat will remain for the 
foreseeable future with or without al Qaeda in the picture.
    Even as al Qaeda has been weakened, other extremist groups 
within the movement have influence and have become the next 
wave of the terrorist threat. Dozens of such groups exist. One 
of the most immediate threats is from the smaller international 
Sunni extremist groups who have benefited from al Qaeda links. 
They include groups as diverse as the Zarqawi network and Ansar 
al Islam in Iraq, the Libyan Islamic Fighting Group, and the 
Islamic Movement of Uzbekistan.
    These far-flung groups increasingly set the agenda and are 
redefining the threat that we face. Beyond these groups are the 
so-called foreign jihadists, individuals ready to fight 
anywhere when they believe Muslim lands are under attack by 
those they see as infidel invaders. For the growing number of 
jihadists interested in attacking the United States, the 
spectacular attack on the U.S. homeland remains the brass ring 
that many strive for, with or without encouragement by al 
Qaeda's central leadership.
    Mr. Chairman, I have consistently talked about and warned 
about al Qaeda's interest in chemical, biological, 
radiological, and nuclear (CBRN) weapons. Acquiring these 
remains a religious obligation in bin Laden's eyes, and al 
Qaeda and more than two dozen terrorist groups are pursuing 
CBRN material. Over the last year we have also seen an increase 
in the threat of more sophisticated CBRN capability. For this 
reason, we take very seriously the threat of a CBRN attack. 
Extremists have widely disseminated assembly instructions for 
an improvised chemical weapon using common materials that could 
cause a large number of casualties in crowded enclosed areas.
    Although gaps in our understanding remain, we see al 
Qaeda's program to produce anthrax as one of the most immediate 
terrorist CBRN threats we are likely to face. Al Qaeda 
continues to pursue its strategic goal of obtaining a nuclear 
capability. It remains interested in dirty bombs. Terrorist 
documents contain accurate views of how such weapons would be 
used.
    I focused correctly on al Qaeda and related groups, but 
other terrorist organizations also threaten American interests. 
Lebanese Hezbollah cooperates with Palestinian groups in Israel 
and the West Bank and appears to be increasing its support. It 
is also working with Iran and surrogate groups in Iraq and 
would likely react to an attack against it, Syria, or Iran with 
attacks against the U.S. and Israeli targets worldwide. Iran 
and Syria continue to support terrorist groups and their links 
into Iraq have become problematic to our efforts there.
    Mr. Chairman, with regard to Iraq, we are making 
significant strides against the insurgency and terrorism, but 
former regime elements and foreign jihadists continue to pose a 
serious threat to Iraq's new institutions and to our own 
forces. We witnessed the bloodiest single day in Iraq since the 
war, which left more than 120 Iraqi civilians dead last week at 
the hands of terrorists and more than 300 others wounded.
    All 25 members of the Iraq Governing Council (IGC), at the 
same time, on a positive note, signed the Transitional 
Administrative Law on the 8th of March. Such delays, while 
unfortunate--we need to remember that what the Iraqis are 
trying to accomplish here is monumental. They are creating a 
democracy from the ground up. This process will be difficult, 
will witness delays and setbacks, and will be marked by 
violence. Sovereignty will be returned to an interim government 
by July 1, although the structure and mechanism for determining 
this remain unresolved.
    The emerging Iraqi leadership will face many pressing 
issues, among them organizing national elections, integrating 
the Sunni minority into the political mainstream, managing 
Kurdish autonomy in a Federal structure, and determining the 
role of Islam in the Iraqi state.
    Saddam is in prison and the coalition has taken care of, as 
you said, all but 10 of his 54 cronies, Mr. Chairman. But the 
violence continues. The daily average number of attacks on 
U.S.-led coalition forces has dropped from its November peak, 
but is similar to that of last August. In the past 2 weeks 
violence has been on the upswing. As we approach the transfer 
of sovereignty on July 1, terrorists may try to complicate the 
transfer and intimidate Iraqis who are working to make it 
happen.
    The insurgency consists of multiple groups with varying 
motivations, but all with the same goal: driving the United 
States and our coalition partners from Iraq. Intelligence has 
given us a good understanding of the insurgency at the local 
level and this information is behind many of the successful 
raids you may have heard about. U.S. military and Intelligence 
Community efforts to round up former regime figures have 
disrupted some insurgent plans to carry out additional attacks. 
But we know these insurgent cells are intentionally 
decentralized to avoid easy penetration and to prevent the 
rollup of whole networks. Arms, funding, and military 
experience remain readily available.
    Mr. Chairman, the situation as I have described it, both 
our victories and our challenges, indicates we have damaged but 
not yet defeated the insurgents. The security situation is 
further complicated by the involvement of terrorists, including 
Ansar al Islam and Zarqawi, and foreign jihadists coming into 
Iraq to wage jihad. Their goal is clear. They intend to inspire 
an Islamic extremist insurgency that would threaten coalition 
forces and put a halt to the long-term process of building 
democratic institutions and governance in Iraq. They hope for a 
Taliban-like enclave in Iraq's Sunni heartland that would be a 
jihadists' safe haven.
    Ansar al Islam, an Iraqi Kurdish extremist group, is waging 
a terrorist campaign against the coalition presence and 
cooperative Iraqis in a bid to inspire jihad and create an 
Islamic state. Some extremists even go further. In a recent 
letter, terrorist planner Abu Musab al-Zarqawi outlined his 
strategy to foster sectarian civil war in Iraq aimed at 
inciting the Shia. The massive lethal attacks last week against 
Shia worshippers in Baghdad and Karbala were consistent with 
the plans of Zarqawi, but we have not conclusively identified 
the perpetrators.
    Stopping the foreign extremists from turning Iraq into the 
most important jihad rests in part on preventing loosely 
connected extremists from coalescing into a cohesive terrorist 
organization. We are having some success. The coalition has 
arrested key jihadist leaders and facilitators in Iraq, 
including top leaders from Ansar al Islam, the al-Zarqawi 
network, and other al Qaeda affiliates.
    We are concerned, Mr. Chairman, that foreign jihadists and 
the former regime elements might coalesce. At this point we 
have seen few signs of such cooperation at the tactical or 
local level. Ultimately the Iraqi people themselves must 
provide the fundamental solutions. As you well know, the 
insurgents are incessantly and violently targeting Iraqi police 
and security forces, precisely because they fear the prospect 
of Iraqis securing their own interests.
    Success depends on broadening the role of local security 
forces. This goes well beyond greater numbers. It means 
continuing work already under way, fixing equipment shortages, 
providing training, ensuring adequate pay, to build a force of 
increasing quality and confidence that will support the Iraqi 
people.
    It is hard to overestimate the importance of greater 
security for Iraqis, particularly as we turn to the momentous 
political events slated for 2004. Iraqi Arabs and many Kurds 
possess a strong Iraqi identity, forged over a tumultuous 80-
year history and especially during the nearly decade-long war 
with Iran. Unfortunately, Saddam's divide-and-rule policy and 
his favored treatment of the Sunni minority aggravated tensions 
to the point where the key to governance in Iraq today is 
managing these competing sectional interests.
    The majority of Shia look forward to the end of Sunni 
control, which began with the British creation of Iraq. The 
Shia community nevertheless has internal tensions between the 
moderate majority and the radical minority. The Kurds see many 
opportunities to advance their long-term goals, returning to 
the autonomy they enjoyed over the last 12 years and expanding 
their power and territory. The minority Sunni fear Shia and 
Kurdish ambitions. Such anxieties help animate Sunni support 
for the insurgents. The Sunni community is still at a very 
early state of establishing political structures to replace the 
defeated Baath Party.
    I should qualify what I have said, Mr. Chairman. No 
society, and surely not Iraq's complex tapestry, is so simple 
as to be captured in three or four categories--Kurds, Shia, and 
Sunni. In reality, Iraqi society is filled with more cleavages 
and more connections than a simple topology can suggest. We 
seldom hear about the strong tribal alliances that have long 
existed between the Sunni and the Shia or the religious 
commonalities between the Sunni, Kurd, and Arab communities, or 
the moderate secularism that spans Iraqi groups. We tend to 
identify and stress the tensions that tear communities apart, 
but opportunities also exist for these groups to work together 
for common goals.
    If we focus on events like the attacks last week in Baghdad 
and Karbala, we should remember that the perpetrators are 
seeking to incite intercommunal violence and that the affected 
communities have instead replied by pulling together and 
refusing to demonize each other.
    The social and political interplay is further complicated 
by Iran, especially in the south where Tehran pursues its own 
interests and hopes to maximize its influence among the Shia 
after the 1st of July. Tehran also runs humanitarian and 
outreach programs that have probably enhanced its reputation 
among Iraqi Shia, but many remain suspicious.
    The most immediate political challenge for Iraqis is to 
choose the transitional government that will rule their country 
while they write their permanent constitution. The Shia cleric, 
the Grand Ayatollah Sistani, has made this selection process 
the centerpiece of his effort to ensure that Iraqis will decide 
their own future and choose the first sovereign post-Saddam 
government. Sistani favors direct elections as the way to 
produce a legitimate accountable government. His religious 
pronouncements show that above all else he wants Iraq to be 
independent of foreign powers. Moreover, his praise of free 
elections and his theology reflect in our reading a clear-cut 
opposition to an Iranian-style theocracy. Once the issues 
involved in the selection of a transitional government are 
settled, Iraq's permanent constitution will take shape.
    I want to briefly touch on the Sunnis and federalism and 
Islam, Mr. Chairman, because I think it is important. The 
Sunnis are at least a fifth of the population, inhabit the 
country's strategic heartland, and comprise a sizable share of 
Iraq's professional and middle class. The Sunnis are 
disaffected as a deposed ruling minority, but some are 
beginning to recognize that boycotting the emerging political 
process will weaken their community.
    Their political isolation may be breaking down in parts of 
the Sunni triangle as some Sunni Arabs have begun to engage the 
coalition and assume local leadership roles. In the last 3 
months we have also seen the founding of national-level Sunni 
umbrella organizations to deal with the coalition and IGC on 
questions like Sunni participation in choosing the transitional 
government. But there is a long way to go here.
    The relationship between the political center and Iraq's 
diverse ethnic and religious communities will frame the future 
constitutional debate. To make a federal government stick, 
Kurdish and Arab leaders will need to explain convincingly that 
a federal structure benefits all Iraqis and not just the Kurds. 
The Transitional Administrative Law makes Islam Iraq's official 
creed, but protects religious freedom. It also creates a legal 
system that is a mix of traditions, including Islamic law.
    Security will be very important over the next year, Mr. 
Chairman. I do not want to underestimate that. But 
reconstruction and economic vitality and employment is also 
important. Reconstruction progress and Iraq's own considerable 
assets, its natural resources and its educated populace, should 
enable the Iraqis to see important improvement in 2004 in their 
infrastructure and quality of life. The recovery of Iraqi oil 
production will help. Production is on track to approach 3 
million barrels a day by the end of this year. Iraq has not 
produced this much oil since before the Gulf War.
    But much more needs to be done. Key public services such as 
water, sewage, and transportation will have difficulty reaching 
prewar levels by July and will not meet the higher target of 
total Iraqi demand. Electric power capacity approaches prewar 
levels, but still falls short of demand. Looting and sabotage 
may make supplies unreliable.
    Finally, unemployment and underemployment, which afflict 
about half of the work force, will remain a key problem and a 
potential breeding ground for popular discontent.
    Mr. Chairman, in my proliferation section I summarize the 
facts that Libya is taking steps toward strategic disarmament, 
North Korea is trying to leverage its nuclear program into at 
least a bargaining chip and also international legitimacy and 
influence, and that Iran is exposing some programs while trying 
to preserve others. I will not go through the Libyan case, Mr. 
Chairman. This was an intelligence success in terms of our 
engagement over the last many months. Libya is now talking to 
the international organizations of the United Nations and we 
will watch carefully whether it lives up to its obligations.
    North Korea is trying to leverage its nuclear weapons 
program into international legitimacy and bargaining power, 
announcing its withdrawal from the Nonproliferation Treaty 
(NPT) and openly proclaiming that it has a nuclear deterrent. 
Since December 2002, Pyongyang has announced its withdrawal 
from the NPT and expelled International Atomic Energy Agency 
(IAEA) inspectors. Last year, Pyongyang claimed to have 
finished reprocessing the 8,000 fuel rods that had been sealed 
by the United States and North Korean technicians and stored 
under IAEA monitoring since 1994.
    The Intelligence Community judged in the mid-1990s that 
North Korea had produced one, possibly two, nuclear weapons. 
The 8,000 rods the North claims to have reprocessed into 
plutonium metal would provide enough plutonium for several more 
bombs. We also believe that Pyongyang is pursuing a production-
scale uranium enrichment program based on technology provided 
by A.Q. Khan. This would give North Korea an alternative route 
to a nuclear weapon. The North Koreans continue to deny that 
they have a highly-enriched uranium (HEU) program and say their 
offer of a nuclear freeze does not cover civilian use of 
nuclear energy.
    Iran is taking yet a different path, acknowledging work on 
a covert nuclear fuel cycle while trying to preserve its WMD 
option. The good news is that Tehran has acknowledged more than 
a decade of covert nuclear activity and agreed to open itself 
to an enhanced inspection regime. It for the first time 
acknowledged many of its nuclear fuel cycle development 
activities, including large-scale gas centrifuge uranium 
enrichment efforts.
    Iran claims its centrifuge program is designed to produce 
low enriched uranium to support Iran's civil nuclear program. 
This is permitted under the NPT. But here is the down side: The 
same technology can be used to build a military program as 
well. The difference between producing low enrichment uranium 
and weapons-capable HEU is only a matter of time and intent, 
not technology. As a result, it would be a significant 
challenge for intelligence to confidently assess whether that 
red line has been crossed.
    Mr. Chairman, I go on to talk about the A.Q. Khan network. 
You know that we have unravelled that. I want to just say for a 
moment one other area that concerns us is Russian WMD materials 
and technology remain vulnerable to theft or diversion. We are 
also concerned by the continued eagerness of Russia's cash-
strapped defense, biotechnology, chemical, aerospace, and 
nuclear industries to raise funds via exports and transfers, 
which makes Russian expertise an attractive target for 
countries and groups seeking WMD and missile-related 
assistance.
    Mr. Chairman, I think I will stop there. I talk about a lot 
of other things--internal developments in Iran, the current 
situation in Afghanistan, our understanding of the current 
situation in Colombia and other places, and other transnational 
issues. Since this is largely the same statement I issued when 
I talked to the Senate Intelligence Committee in the open 
session, I think we will go to questions and Reserve the rest 
of the time for the members.
    [The prepared statement of Mr. Tenet follows:]
               Prepared Statement by Hon. George J. Tenet
dci's worldwide threat briefing--the worldwide threat 2004: challenges 
                      in a changing global context
    Good morning, Mr. Chairman, Mr. Vice Chairman, members of the 
committee.
    Mr. Chairman, last year I described a national security environment 
that was significantly more complex than at any time during my tenure 
as Director of Central Intelligence (DCI). The world I will discuss 
today is equally, if not more, complicated and fraught with dangers for 
United States interests, but one that also holds great opportunity for 
positive change.
Terrorism
    I'll begin today on terrorism, with a stark bottom-line:

        <bullet> The al Qaeda leadership structure we charted after 
        September 11 is seriously damaged--but the group remains as 
        committed as ever to attacking the U.S. homeland.
        <bullet> But as we continue the battle against al Qaeda, we 
        must overcome a movement--a global movement infected by al 
        Qaeda's radical agenda.
        <bullet> In this battle we are moving forward in our knowledge 
        of the enemy--his plans, capabilities, and intentions.
        <bullet> What we've learned continues to validate my deepest 
        concern: that this enemy remains intent on obtaining, and 
        using, catastrophic weapons.

    Now let me tell you about the war we've waged against the al Qaeda 
organization and its leadership.

        <bullet> Military and intelligence operations by the United 
        States and its allies overseas have degraded the group. Local 
        al Qaeda cells are forced to make their own decisions because 
        of the central leadership's disarray.

    Al Qaeda depends on leaders who not only direct terrorist attacks 
but who carry out the day-to-day tasks that support operations. Over 
the past 18 months, we have killed or captured key al Qaeda leaders in 
every significant operational area--logistics, planning, finance, 
training--and have eroded the key pillars of the organization, such as 
the leadership in Pakistani urban areas and operational cells in the al 
Qaeda heartland of Saudi Arabia and Yemen.
    The list of al Qaeda leaders and associates who will never again 
threaten the American people includes:

        <bullet> Khalid Shaykh Muhammad, al Qaeda's operations chief 
        and the mastermind of the September 11 attacks.
        <bullet> Nashiri, the senior operational planner for the 
        Arabian Gulf area.
        <bullet> Abu Zubayda, a senior logistics officer and plotter.
        <bullet> Hasan Ghul, a senior facilitator who was sent to case 
        Iraq for an expanded al Qaeda presence there.
        <bullet> Harithi and al-Makki, the most senior plotters in 
        Yemen, who were involved in the bombing of the U.S.S. Cole.
        <bullet> Hambali, the senior operational planner in Southeast 
        Asia.

    We are creating large and growing gaps in the al Qaeda hierarchy.
    Unquestionably, bringing these key operators to ground disrupted 
plots that would otherwise have killed Americans.
    Meanwhile, al Qaeda central continues to lose operational 
safehavens, and bin Ladin has gone deep underground. We are hunting him 
in some of the most unfriendly regions on Earth. We follow every lead.
    Al Qaeda's finances are also being squeezed. This is due in part to 
takedowns of key moneymen in the past year, particularly the Persian 
Gulf, Southwest Asia, and even Iraq.
    We are receiving a broad array of help from our coalition partners, 
who have been central to our effort against al Qaeda.

        <bullet> Since the May 12 bombings, the Saudi government has 
        shown an important commitment to fighting al Qaeda in the 
        Kingdom, and Saudi officers have paid with their lives.
        <bullet> Elsewhere in the Arab world, we're receiving valuable 
        cooperation from Jordan, Morocco, Egypt, Algeria, the United 
        Arab Emirates (UAE), Oman, and many others.
        <bullet> President Musharraf of Pakistan remains a courageous 
        and indispensable ally who has become the target of assassins 
        for the help he's given us.
        <bullet> Partners in Southeast Asia have been instrumental in 
        the roundup of key regional associates of al Qaeda.
        <bullet> Our European partners worked closely together to 
        unravel and disrupt a continent-wide network of terrorists 
        planning chemical, biological, and conventional attacks in 
        Europe.

    So we have made notable strides. But do not misunderstand me. I am 
not suggesting al Qaeda is defeated. It is not. We are still at war. 
This is a learning organization that remains committed to attacking the 
United States, its friends, and allies.
    Successive blows to al Qaeda's central leadership have transformed 
the organization into a loose collection of regional networks that 
operate more autonomously. These regional components have demonstrated 
their operational prowess in the past year.

        <bullet> The sites of their attacks span the group's broad 
        reach--Morocco, Kenya, Turkey, Jordan, Saudi Arabia, Kuwait, 
        Afghanistan, Pakistan, Indonesia.
        <bullet> Al Qaeda seeks to influence the regional networks with 
        operational training, consultations, and money. Khalid Shaykh 
        Muhammad sent Hambali $50,000 for operations in Southeast Asia.

    You should not take the fact that these attacks occurred abroad to 
mean the threat to the U.S. homeland has waned. As al Qaeda and 
associated groups undertook these attacks overseas, detainees 
consistently talk about the importance the group still attaches to 
striking the main enemy: the United States. Across the operational 
spectrum--air, maritime, special weapons--we have time and again 
uncovered plots that are chilling.

        <bullet> On aircraft plots alone, we have uncovered new plans 
        to recruit pilots and to evade new security measures in 
        Southeast Asia, the Middle East, and Europe.
        <bullet> Even catastrophic attacks on the scale of September 11 
        remain within al Qaeda's reach. Make no mistake: these plots 
        are hatched abroad, but they target U.S. soil or that of our 
        allies.

    So far, I have been talking only about al Qaeda. But al Qaeda is 
not the limit of the terrorist threat worldwide. Al Qaeda has infected 
others with its ideology, which depicts the United States as Islam's 
greatest foe. Mr. Chairman, what I want to say to you now may be the 
most important thing I tell you today.

        The steady spread of Osama bin Ladin's anti-U.S. sentiment--
        though the wider Sunni extremist movement and through the broad 
        dissemination of al Qaeda's destructive expertise--ensures that 
        a serious threat will remain for the foreseeable future . . . 
        with or without al Qaeda in the picture.

    A decade ago, bin Ladin had a vision of rousing Islamic terrorists 
worldwide to attack the United States. He created al Qaeda to 
indoctrinate a worldwide movement in global jihad, with America as the 
enemy--an enemy to be attacked with every means at hand.

        <bullet> In the minds of bin Laden and his cohorts, September 
        11 was the shining moment, their ``shot heard `round the 
        world','' and they want to capitalize on it.

    So, even as al Qaeda has been weakened, other extremist groups 
within the movement it influenced have become the next wave of the 
terrorist threat. Dozens of such groups exist. Let me offer a few 
thoughts on how to understand this challenge.

        <bullet> One of the most immediate threats is from smaller 
        international Sunni extremist groups who have benefited from al 
        Qaeda links. They include groups as diverse as the al-Zarqawi 
        network, the Ansar al-Islam in Iraq, the Libyan Islamic 
        Fighting Group, and the Islamic Movement of Uzbekistan.
        <bullet> A second level of threat comes from small local 
        groups, with limited domestic agendas, that work with 
        international terrorist groups in their own countries. These 
        include the Salifiya Jihadia, a Moroccan network that carried 
        out the May 2003 Casablanca bombings, and similar groups 
        throughout Africa and Asia.

    These far-flung groups increasingly set the agenda, and are 
redefining the threat we face. They are not all creatures of bin Laden, 
and so their fate is not tied to his. They have autonomous leadership, 
they pick their own targets, they plan their own attacks.
    Beyond these groups are the so-called ``foreign jihadists''--
individuals ready to fight anywhere they believe Muslim lands are under 
attack by what they see as ``infidel invaders.'' They draw on broad 
support networks, have wide appeal, and enjoy a growing sense of 
support from Muslims who are not necessarily supporters of terrorism. 
The foreign jihadists see Iraq as a golden opportunity.
    Let me repeat: for the growing number of jihadists interested in 
attacking the United States, a spectacular attack on the U.S. homeland 
is the ``brass ring'' that many strive for--with or without 
encouragement by al Qaeda's central leadership.
    To detect and ultimately defeat these forces, we will continually 
need to watch hotspots, present or potential battlegrounds, places 
where these terrorist networks converge. Iraq is of course one major 
focus of concern. Southeast Asia is another. Even Western Europe is an 
area where terrorists recruit, train, and target.

        <bullet> To get the global job done, foreign governments will 
        need to improve bilateral, multilateral, and even inter-service 
        cooperation, and strengthen domestic counterterrorist 
        legislation and security practices.

    Mr. Chairman, I have consistently warned this committee of al 
Qaeda's interest in chemical, biological, radiological and nuclear 
(CBRN) weapons. Acquiring these remains a ``religious obligation'' in 
bin Laden's eyes, and al Qaeda and more than two dozen other terrorist 
groups are pursuing CBRN materials.

        <bullet> We particularly see a heightened risk of poison 
        attacks. Contemplated delivery methods to date have been simple 
        but this may change as non-al Qaeda groups share information on 
        more sophisticated methods and tactics.

    Over the last year, we've also seen an increase in the threat of 
more sophisticated CBRN weapons. For this reason we take very seriously 
the threat of a CBRN attack.

        <bullet> Extremists have widely disseminated assembly 
        instructions for an improvised chemical weapon using common 
        materials that could cause a large numbers of casualties in a 
        crowded, enclosed area.
        <bullet> Although gaps in our understanding remain, we see al 
        Qaeda's program to produce anthrax as one of the most immediate 
        terrorist CBRN threats we are likely to face.
        <bullet> Al Qaeda continues to pursue its strategic goal of 
        obtaining a nuclear capability. It remains interested in dirty 
        bombs. Terrorist documents contain accurate views of how such 
        weapons would be used.

    I've focused, and rightly so, on al Qaeda and related groups. But 
other terrorist organizations also threaten U.S. interests. Palestinian 
terrorist groups in Israel, the West Bank, and Gaza remain a formidable 
threat and continue to use terrorism to undermine prospects for peace.

        <bullet> Last year Palestinian terrorist groups conducted more 
        than 600 attacks, killing about 200 Israelis and foreigners, 
        including Americans.

    Lebanese Hizballah cooperates with these groups and appears to be 
increasing its support. It is also working with Iran and surrogate 
groups in Iraq and would likely react to an attack against it, Syria, 
or Iran with attacks against US and Israeli targets worldwide.
    Iran and Syria continue to support terrorist groups, and their 
links into Iraq have become problematic to our efforts there.
    Although Islamic extremists comprise the most pressing threat to 
U.S. interests, we cannot ignore nominally leftist groups in Latin 
America and Europe. The Revolutionary Armed Forces of Colombia (FARC) 
and the National Liberation Army (ELN), Colombia's second largest 
leftist insurgent group, have shown a willingness to attack U.S. 
targets. So has the Revolutionary People's Liberation Party/Front--a 
Turkish group that has killed two U.S. citizens and targeted U.S. 
interests in Turkey.
    Finally, cyber vulnerabilities are another of our concerns, with 
not only terrorists but foreign governments, hackers, crime groups, and 
industrial spies attempting to obtain information from our computer 
networks.
Iraq
    Mr. Chairman, we are making significant strides against the 
insurgency and terrorism, but former regime elements and foreign 
jihadists continue to pose a serious threat to Iraq's new institutions 
and to our own forces.

        <bullet> That said, we witnessed the bloodiest single day in 
        Iraq since the war, which left more than 120 Iraqi civilians 
        dead at the hands of terrorists and more that 300 others 
        wounded.
        <bullet> All 25 members of the Iraq Governing Council (IGC) 
        signed the Transitional Administrative Law on 8 March--after 
        the terrible Ashura attacks and a disagreement among Iraqis 
        held up the signing past the appointed day.

    Such delays are unfortunate, but we need to remember that what the 
Iraqis are trying to accomplish here is monumental--they are creating a 
democracy from the ground up. That process will be difficult, will 
witness delays and setbacks, and be marked by violence.

        <bullet> Sovereignty will be returned to an interim Iraqi 
        government by July 1, although the structure and mechanism for 
        determining this remain unresolved.
        <bullet> The emerging Iraqi leadership will face many pressing 
        issues, among them organizing national elections, integrating 
        the Sunni minority into the political mainstream, managing 
        Kurdish autonomy in a Federal structure, and determining the 
        role of Islam in the Iraqi state.

    Meanwhile, Mr. Chairman, the important work of the Iraqi Survey 
Group (ISG) and the hunt for Iraqi weapons of mass destruction (WMD) 
continues. We must explore every avenue in our quest to understand 
Iraq's programs out of concern for the possibility that materials, 
weapons, or expertise might fall into the hands of insurgents, foreign 
states, or terrorists. I talked about this at length last week.
    Let me update you on the overall security picture. Saddam is in 
prison, and the coalition has killed or apprehended all but 10 of his 
54 key cronies. Iraqis are taking an increasing role in their own 
defense, with many now serving in the various new police, military, and 
security forces.

        <bullet> But the violence continues. The daily average number 
        of attacks on U.S. and coalition forces has dropped from its 
        November peak but is similar to that of last August.

    In the past 2 weeks, violence has been on the upswing. As we 
approach the transfer of sovereignty to Iraqis on July 1, terrorists 
may want to complicate the transfer and intimidate Iraqis who are 
working to make it happen.
    The insurgency consists of multiple groups with varying motivations 
but all with the same goal: driving the United States and our coalition 
partners from Iraq. Saddam's capture was a psychological blow that took 
some of the less-committed Bathists out of the fight, but a hard core 
of former regime elements--Bath Party officials, military, 
intelligence, and security officers--are still organizing and carrying 
out attacks.

        <bullet> Intelligence has given us a good understanding of the 
        insurgency at the local level, and this information is behind 
        the host of successful raids you've read about in the papers.

    U.S. military and Intelligence Community efforts to round up former 
regime figures have disrupted some insurgent plans to carry out 
additional anti-coalition attacks. But we know these insurgent cells 
are intentionally decentralized to avoid easy penetration and to 
prevent the roll-up of whole networks. Arms, funding, and military 
experience remain readily available.
    Mr. Chairman, the situation as I've described it--both our 
victories and our challenges--indicates we have damaged, but not yet 
defeated, the insurgents.
    The security situation is further complicated by the involvement of 
terrorists--including Ansar al-Islam and al-Zarqawi--and foreign 
jihadists coming to Iraq to wage jihad. Their goal is clear. They 
intend to inspire an Islamic extremist insurgency that would threaten 
coalition forces and put a halt to the long-term process of building 
democratic institutions and governance in Iraq. They hope for a 
Taliban-like enclave in Iraq's Sunni heartland that could be a jihadist 
safehaven.

        <bullet> Ansar al-Islam--an Iraqi Kurdish extremist group--is 
        waging a terrorist campaign against the coalition presence and 
        cooperative Iraqis in a bid to inspire jihad and create an 
        Islamic state.

    Some extremists go even further. In a recent letter, terrorist 
planner Abu Mus'ab al-Zarqawi outlined his strategy to foster sectarian 
civil war in Iraq, aimed at inciting the Shia.

        <bullet> The massive lethal attacks last week against Shia 
        worshippers in Baghdad and Karbala were consistent with the 
        plans of al-Zarqawi and like-minded extremists--we have not, 
        however, conclusively identified the perpetrators.

    Stopping the foreign extremists from turning Iraq into their most 
important jihad yet rests in part on preventing loosely connected 
extremists from coalescing into a cohesive terrorist organization.

        <bullet> We are having some success--the coalition has arrested 
        key jihadist leaders and facilitators in Iraq, including top 
        leaders from Ansar al-Islam, the al-Zarqawi network, and other 
        al Qaeda affiliates.
        <bullet> The October detention of Ansar al-Islam deputy leader 
        set back the group's ambition to establish itself as an 
        umbrella organization for jihadists in Iraq.

    We're also concerned that foreign jihadists and former regime 
elements might coalesce. This would link local knowledge and military 
training with jihadist fervor and lethal tactics. At this point, we've 
seen a few signs of such cooperation at the tactical or local level.
    Ultimately, the Iraqi people themselves must provide the 
fundamental solutions. As you well know, the insurgents are incessantly 
and violently targeting Iraqi police and security forces precisely 
because they fear the prospect of Iraqis securing their own interests. 
Success depends on broadening the role of the local security forces.

        <bullet> This goes well beyond greater numbers. It means 
        continuing work already under way--fixing equipment shortages, 
        providing training, ensuring adequate pay--to build a force of 
        increasing quality and confidence that will have the support of 
        the Iraqi people.

    It is hard to overestimate the importance of greater security for 
Iraqis particularly as we turn to the momentous political events slated 
for 2004.

        <bullet> The real test will begin soon after the transfer of 
        sovereignty, when we'll see the extent to which the new Iraqi 
        leaders embody concepts such as pluralism, compromise, and rule 
        of law.

    Iraqi Arabs--and many Iraqi Kurds--possess a strong Iraqi identity, 
forged over a tumultuous 80 year history and especially during the 
nearly decade-long war with Iran. Unfortunately, Saddam's divide and 
rule policy and his favored treatment of the Sunni minority aggravated 
tensions to the point where the key to governance in Iraq today is 
managing these competing sectional interests.
    Here's a readout on where these groups stand:

        <bullet> The majority Shia look forward to the end of Sunni 
        control, which began with the British creation of Iraq. The 
        Shia community nevertheless has internal tensions, between the 
        moderate majority and a radical minority that wants a Shia-
        dominated theocracy.
        <bullet> The Kurds see many opportunities to advance long held 
        goals: retaining the autonomy they enjoyed over the past 12 
        years and expanding their power and territory.
        <bullet> The minority Sunni fear Shia and Kurdish ambitions. 
        Such anxieties help animate Sunni support for the insurgents. 
        The Sunni community is still at a very early state of 
        establishing political structures to replace the defeated Baath 
        party.

    I should qualify what I've just said: no society, and surely not 
Iraq's complex tapestry, is so simple as to be captured in three or 
four categories. Kurds. Shia. Sunni. In reality, Iraqi society is 
filled with more cleavages, and more connections, than a simple 
typology can suggest. We seldom hear about the strong tribal alliances 
that have long existed between Sunni and Shia, or the religious 
commonalities between the Sunni Kurd and Arab communities, or the 
moderate secularism that spans Iraqi groups.

        <bullet> We tend to identify, and stress, the tensions that 
        rend communities apart, but opportunities also exist for these 
        group to work together for common ends.
        <bullet> If we focus on the events like the attacks last week 
        in Baghdad and Karbala, we should remember that the 
        perpetrators were seeking to incite inter-communal violence--
        and that the affected communities have instead replied by 
        pulling together and refusing to demonize each other.

    The social and political interplay is further complicated by Iran, 
especially in the south, where Tehran pursues its own interests and 
hopes to maximize its influence among Iraqi Shia after July 1. 
Organizations supported by Iran--like the Supreme Council for the 
Islamic Revolution in Iraq (SCIRI) and its Badr Organization militia--
have gained positions within the Iraqi police and control media outlets 
in Basrah that tout a pro-Iran viewpoint.

        <bullet> Tehran also runs humanitarian and outreach programs 
        that have probably enhanced its reputation among Iraqi Shia, 
        but many remain suspicious.

    The most immediate political challenge for the Iraqis is to choose 
the transitional government that will rule their country while they 
write their permanent constitution. The Shia cleric Grand Ayatollah 
Muhammad Ali al-Sistani has made this selection process the centerpiece 
of his effort to ensure that Iraqis will decide their own future and 
choose the first sovereign post-Saddam government.

        <bullet> Sistani favors direct elections as the way to produce 
        a legitimate, accountable government. His religious 
        pronouncements show that, above all, he wants Iraq to be 
        independent of foreign powers. Moreover, his praise of free 
        elections and his theology reflect, in our reading, a clearcut 
        opposition to theocracy, Iran-style.

    Once the issues involving the selection of an transitional 
government are settled, Iraq's permanent constitution will begin to 
take shape. Here the Iraqi government and the framers of the 
constitution will have to address three urgent concerns: integrating 
the Sunni minority into the political mainstream, managing Kurdish 
autonomy in a Federal structure, and determining the role of Islam in 
the Iraqi state.
    The Sunni
    Sunnis are at least a fifth of the population, inhabit the 
country's strategic heartland, and comprise a sizable share of Iraq's 
professional and middle classes. The Sunni are disaffected as a deposed 
ruling minority, but some are beginning to recognize that boycotting 
the emerging political process will weaken their community. Their 
political isolation may be breaking down in parts of the Sunni 
triangle, where some Sunni Arabs have begun to engage the coalition and 
assume local leadership roles. In the past 3 months we have also seen 
the founding of national-level Sunni umbrella organizations to deal 
with the coalition and the IGC on questions like Sunni participation in 
choosing the transitional government.
    Federalism
    The status of the Transitional Administrative Law is in flux, but 
the way it deals with the relationship between the political center and 
Iraq's diverse ethnic and religious communities will frame the future 
constitutional debate. To make a Federal arrangement stick, Kurdish and 
Arab Iraq leaders will need to explain convincingly that a Federal 
structure benefits all Iraqis and not just the Kurds. Even so, a host 
of difficult issues--control over oil and security being perhaps the 
most significant--may provoke tension between Kurdish and central Iraqi 
authorities.
    Islam
    The Transitional Administrative Law makes Islam Iraq's official 
creed but protects religious freedom. It also creates an Iraqi legal 
system that is a mix of traditions, including Islamic law--but as only 
one legal element among many. This compromise is already under fire by 
Sunni Islamists who want Islam to be the sole source of law.
    I don't want to allow the important security and political stories 
to crowd out others we should also be telling, including the often 
neglected one about Iraq's sizable economic potential. It's true that 
rebuilding will go on for years--the Saddam regime left in its wake a 
devastated, antiquated, underfunded infrastructure. But reconstruction 
progress and Iraq's own considerable assets--its natural resources and 
its educated populace--should enable the Iraqis to see important 
improvement in 2004 in their infrastructure and their quality of life.

        <bullet> Over the next few years, they'll open more hospitals 
        and build more roads than anyone born under Saddam has 
        witnessed.

    The recovery of Iraqi oil production will help. Production is on 
track to approach 3.0 million barrels per day by the end of this year. 
Iraq hasn't produced this much oil since before the 1991 Gulf War. By 
next year, revenues from oil exports should cover the cost of basic 
government operations and contribute several billion dollars toward 
reconstruction. It is essential, however, that the Iraq-Turkey pipeline 
and other oil facilities be well protected from insurgent sabotage.
    Much more needs to be done. Key public services such as water, 
sewage, and transportation will have difficulty reaching prewar levels 
by July and won't meet the higher target of total Iraqi demand.

        <bullet> Electric power capacity approaches prewar levels but 
        still falls short of peak demand. Looting and sabotage may make 
        supplies unreliable.
        <bullet> Finally, unemployment and underemployment, which 
        afflicts about a half of the workforce, will remain a key 
        problem and a potential breeding ground for popular discontent.
Proliferation
    Mr. Chairman, I'll turn now to worldwide trends in proliferation. 
This picture is changing before our eyes--changing at a rate I have not 
seen since the end of the Cold War. Some of it is good news--I'll talk 
about the Libya and AQ Khan breakthroughs, for example--and some of it 
is disturbing. Some of it shows our years of work paying off, and some 
of it shows the work ahead is harder.
    We are watching countries of proliferation concern choose different 
paths as they calculate the risks versus gains of pursuing WMD.

        <bullet> Libya is taking steps toward strategic disarmament.
        <bullet> North Korea is trying to leverage its nuclear program 
        into at least a bargaining chip and also international 
        legitimacy and influence.
        <bullet> Iran is exposing some programs while trying to 
        preserve others.

    I'll start with Libya. For years Qadhafi had been chafing under 
international pariah status. In March 2003, he made a strategic 
decision and reached out through British intelligence with an offer to 
abandon his pursuit of WMD.
    That launched 9 months of delicate negotiations where we moved the 
Libyans from a stated willingness to renounce WMD to an explicit and 
public commitment to expose and dismantle their WMD programs. The 
leverage was intelligence. Our picture of Libya's WMD programs allowed 
CIA officers and their British colleagues to press the Libyans on the 
right questions, to expose inconsistencies, and to convince them that 
holding back was counterproductive. We repeatedly surprised them with 
the depth of our knowledge.

        <bullet> For example, U.S. and British intelligence officers 
        secretly traveled to Libya and asked to inspect Libya's 
        ballistic missile programs. Libyan officials at first failed to 
        declare key facilities, but our intelligence convinced them to 
        disclose several dozen facilities, including their deployed 
        Scud B sites and their secret North Korean-assisted Scud C 
        production line.
        <bullet> When we were tipped to the imminent shipment of 
        centrifuge parts to Libya in October, we arranged to have the 
        cargo seized, showing the Libyans that we had penetrated their 
        most sensitive procurement network.

    By the end of the December visit, the Libyans:

        <bullet> Admitted having a nuclear weapons program and having 
        bought uranium hexafluoride feed material for gas centrifuge 
        enrichment.
        <bullet> Admitted having nuclear weapon design documents.
        <bullet> Acknowledged having made about 25 tons of sulfur 
        mustard chemical weapons agent, aerial bombs for the mustard, 
        and small amounts of nerve agent.

    From the very outset of negotiations, Qadhafi requested the 
participation of international organizations to help certify Libyan 
compliance. Tripoli has agreed to inspections by the International 
Atomic Energy Agency (IAEA) and the Organization for the Prohibition of 
Chemical Weapons (OPCW) and to abide by the range limitations of the 
Missile Technology Control Regime (MTCR).

        <bullet> We have briefed information on Tripoli's programs to 
        various international monitoring organizations. IAEA and OPCW 
        officials have already followed up with visits to Libya.
        <bullet> Some discrepancies remain, but we will continue to 
        collect additional information and closely monitor Libya's 
        adherence to the commitments it has made.

    In contrast to Libya, North Korea is trying to leverage its nuclear 
weapons programs into international legitimacy and bargaining power, 
announcing its withdrawal from the Nonproliferation Treaty (NPT) and 
openly proclaiming that it has a nuclear deterrent.
    Since December 2002, Pyongyang has announced its withdrawal from 
the NPT and expelled IAEA inspectors. Last year Pyongyang claimed to 
have finished reprocessing the 8,000 fuel rods that had been sealed by 
U.S. and North Korean technicians and stored under IAEA monitoring 
since 1994.

        <bullet> The Intelligence Community judged in the mid-1990s 
        that North Korea had produced one, possibly two, nuclear 
        weapons. The 8000 rods the North claims to have processed into 
        plutonium metal would provide enough plutonium for several 
        more.

    We also believe Pyongyang is pursuing a production-scale uranium 
enrichment program based on technology provided by AQ Khan. This would 
give North Korea an alternative route to nuclear weapons. The North 
Koreans continue to deny they have an HEU program and say their offer 
of a nuclear freeze doesn't cover the civilian use of nuclear energy.
    Of course, we are concerned about more than just North Korea's 
nuclear program. North Korea has longstanding chemical/biological 
weapons and biological warfare capabilities and is enhancing its 
biological weapons potential as it builds its legitimate biotechnology 
infrastructure. Pyongyang is sending individuals abroad and is seeking 
dual-use expertise and technology.
    North Korea also continues to advance its missile programs. It is 
nearly self-sufficient in ballistic missiles, and has continued 
procurement of raw materials and components for its extensive ballistic 
missile programs from various foreign sources. The North also has 
demonstrated a willingness to sell complete systems and components that 
have enabled other states to acquire longer-range capabilities and a 
basis for domestic development efforts earlier than would otherwise 
have been possible.

        <bullet> North Korea has maintained a unilateral long-range 
        missile launch moratorium since 1999, but could end that with 
        little or no warning. The Taepo Dong 2--capable of reaching the 
        United States with a nuclear weapon-sized payload--may be ready 
        for flight-testing.

    Iran is taking yet a different path, acknowledging work on a covert 
nuclear fuel cycle while trying to preserve its WMD options. I'll start 
with the good news: Tehran acknowledged more than a decade of covert 
nuclear activity and agreed to open itself to an enhanced inspection 
regime. Iran for the first time acknowledged many of its nuclear fuel 
cycle development activities--including a large-scale gas centrifuge 
uranium enrichment effort. Iran claims its centrifuge program is 
designed to produce low-enriched uranium, to support Iran's civil 
nuclear power program. This is permitted under the NPT, but--and here's 
the downside--the same technology can be used to build a military 
program as well.

        <bullet> The difference between producing low-enriched uranium 
        and weapons-capable highly-enriched uranium is only a matter of 
        time and intent, not technology. As a result, it would be a 
        significant challenge for intelligence to confidently assess 
        whether that red line had been crossed.

    Finally, Iran's missile program is both a regional threat and a 
proliferation concern. Iran's ballistic missile inventory is among the 
largest in the Middle East and includes the 1300-km range Shahab-3 mid-
range ballistic missile (MRBM) as well as a few hundred short-range 
ballistic missiles (SRBMs). Iran has announced production of the 
Shahab-3 and publicly acknowledged development of follow-on versions. 
During 2003, Iran continued research and development (R&D) on its 
longer-range ballistic missile programs, and publicly reiterated its 
intention to develop space launch vehicles (SLVs)--and SLVs contain 
most of the key building blocks for an Intercontinental Ballistic 
Missile (ICBM). Iran could begin flight testing these systems in the 
mid- to latter-part of the decade.

        <bullet> Iran also appears willing to supply missile-related 
        technology to countries of concern and publicly advertises its 
        artillery rockets and related technologies, including guidance 
        instruments and missile propellants.

    Let me turn now to a different aspect of the evolving WMD threat. I 
want to focus on how countries and groups are increasingly trying to 
get the materials they need for WMD. I'll focus on two important 
stories:

        <bullet> The roll-up of AQ Khan and his network, one of the 
        most significant counter-proliferation successes in years and 
        one in which intelligence led the way.
        <bullet> The difficulty of uncovering both proliferators 
        masquerading as legitimate businessmen and possible biological 
        or chemical weapons plants appearing to be legitimate ``dual-
        use'' facilities.

    As I pointed out last year, Mr. Chairman, WMD technologies are no 
longer the sole province of nation-states. They might also come about 
as a result of business decisions made by private entrepreneurs and 
firms.
    As you now know, those comments were my way of referring to AQ Khan 
without mentioning his name in open session. Until recently, Khan, 
popularly known as the ``father of the Pakistani bomb,'' was the most 
dangerous WMD entrepreneur. For 25 years Khan directed Pakistan's 
uranium enrichment program. He built an international network of 
suppliers to support uranium enrichment efforts in Pakistan that also 
supported similar efforts in other countries.

        <bullet> Khan and his network had been unique in being able to 
        offer one-stop shopping for enrichment technology and weapons 
        design information. With such assistance, a potentially wide 
        range of countries could leapfrog the slow, incremental stages 
        of other nuclear weapons development programs.

    The actions taken against Khan's network--like the example of Libya 
I laid out earlier--were largely the result of intelligence.

        <bullet> Intelligence discovered, pieced together, tracked, and 
        penetrated Khan's worldwide hidden network.

    But every public success we enjoy can be used by people like Khan 
to adjust, adapt, and evade. Proliferators hiding among legitimate 
businesses, and countries hiding their WMD programs inside legitimate 
dual-use industries, combine to make private entrepreneurs dealing in 
lethal goods one of our most difficult intelligence challenges.
    In support of these WMD programs, new procurement strategies 
continue to hamper our ability to assess and warn on covert WMD 
programs. Acquisitions for such programs aren't the work of secret 
criminal networks that skirt international law. They're done by 
businessmen, in the open, in what seems to be legal trade in high-
technology.
    The dual-use challenge is especially applicable to countries hiding 
biological and chemical warfare programs. With dual-use technology and 
civilian industrial infrastructure, countries can develop biological 
and chemical weapon capabilities. Biotechnology is especially dual-
edged: Medical programs and technology could easily support a weapons 
program, because nearly every technology required for biological 
weapons also has a legitimate application.
    Now I'll comment briefly on some significant missile programs apart 
from those I've already discussed.
    China continues an aggressive missile modernization program that 
will improve its ability to conduct a wide range of military options 
against Taiwan supported by both cruise and ballistic missiles. 
Expected technical improvements will give Beijing a more accurate and 
lethal missile force. China is also moving on with its first generation 
of mobile strategic missiles.

        <bullet> Although Beijing has taken steps to improve ballistic 
        missile related export controls, Chinese firms continue to be a 
        leading source of relevant technology and continue to work with 
        other countries on ballistic missile-related projects.

    South Asian ballistic missile development continues apace. Both 
India and Pakistan are pressing ahead with development and testing of 
longer-range ballistic missiles and are inducting additional SRBMs into 
missile units. Both countries are testing missiles that will enable 
them to deliver nuclear warheads to greater distances.
    Last year Syria continued to seek help from abroad to establish a 
solid-propellant rocket motor development and production capability. 
Syria's liquid-propellant ballistic missile program continued to depend 
on essential foreign equipment and assistance, primarily from North 
Korean entities. Syria is developing longer-range missile programs, 
such as a Scud D and possibly other variants, with assistance from 
North Korea and Iran.
    Many countries remain interested in developing or acquiring land-
attack cruise missiles, which are almost always significantly more 
accurate than ballistic missiles and complicate missile defense 
systems. Unmanned aerial vehicles (UAVs) are also of growing concern.
    To conclude my comments on proliferation, I'll turn briefly to 
Syria's WMD programs and to the continued vulnerability of Russian WMD 
materials.
    Syria is an NPT signatory with full-scope IAEA safeguards and has a 
nuclear research center at Dayr Al Hajar. Russia and Syria have 
continued their long-standing agreements on cooperation regarding 
nuclear energy, although specific assistance has not yet materialized. 
Broader access to foreign expertise provides opportunities to expand 
its indigenous capabilities and we are closely monitoring Syrian 
nuclear intentions. Meanwhile, Damascus has an active chemical weapons 
development and testing program that relies on foreign suppliers for 
key controlled chemicals suitable for producing chemical weapons.
    Finally, Russian WMD materials and technology remain vulnerable to 
theft or diversion. We are also concerned by the continued eagerness of 
Russia's cash-strapped defense, biotechnology, chemical, aerospace, and 
nuclear industries to raise funds via exports and transfers--which 
makes Russian expertise an attractive target for countries and groups 
seeking WMD and missile-related assistance.
Pivotal States
    I'm going to comment now on three countries we obviously pay a 
great deal of attention to: North Korea, China, and Russia.
    The North Korean regime continues to threaten a range of U.S., 
regional, and global security interests. As I've noted earlier, 
Pyongyang is pursuing its nuclear weapons program and nuclear-capable 
delivery systems. It continues to build its missile forces, which can 
now reach all of South Korea and Japan, and to develop longer-range 
missiles that could threaten the United States.
    The North also exports complete ballistic missiles and production 
capabilities, along with related components and expertise. It continues 
to export narcotics and other contraband across the globe.
    Moreover, the forward-deployed posture of North Korea's armed 
forces remains a near-term threat to South Korea and to the 37,000 U.S. 
troops stationed there. Recall that early last year as tensions over 
the nuclear program were building, Pyongyang intercepted a U.S. 
reconnaissance aircraft in international airspace.
    Kim Jong Il continues to exert a tight grip on North Korea as 
supreme leader. The regime's militarized, Soviet-style command economy 
is failing to meet the population's food and economic needs. Indeed, 
the economy has faltered to the point that Kim has permitted some new 
economic initiatives, including more latitude for farmers' markets, but 
these changes are a far cry from the systemic economic reform needed to 
revitalize the economy. The accumulated effect of years of deprivation 
and repression places significant stresses on North Korean society.

        <bullet> The Kim regime rules largely through fear, 
        intimidation, and indoctrination, using the country's large and 
        pervasive security apparatus, its system of camps for political 
        prisoners, and its unrelenting propaganda to maintain control.

    Mr. Chairman, China continues to emerge as a great power and expand 
its profile in regional and international politics--but Beijing has 
cooperated with Washington on some key strategic issues.

        <bullet> The Chinese have cooperated in the war on terrorism 
        and have been willing to host and facilitate multilateral 
        dialogue on the North Korean nuclear problem--in contrast to 
        Beijing's more detached approach to that problem a decade ago.

    Beijing is making progress in asserting its influence in East Asia. 
Its activist diplomacy in the neighborhood is paying off, fueled in 
large part by China's robust economy. China's growth continues to 
outpace all others in the region, and its imports of goods from other 
East Asian countries are soaring. As a result, Beijing is better 
positioned to sell its neighbors on the idea that what is good for the 
Chinese economy is good for Asia.

        <bullet> That said, China's neighbors still harbor suspicions 
        about Beijing's long-term intentions. They generally favor a 
        sustained U.S. military presence in the region as insurance 
        against potential Chinese aggression.

    Our greatest concern remains China's military buildup, which 
continues to accelerate. On Saturday, China's Minister of Finance 
announced a new defense budget that is 11.6 percent larger than last 
year's. China's announced annual defense budget has grown from some $7 
billion 10 years ago to over $25 billion today. Moreover, we assess the 
announced figure accounts for less than half of China's actual defense 
spending.
    Last year, Beijing reached new benchmarks in its production or 
acquisition from Russia of missiles, submarines, other naval 
combatants, and advanced fighter aircraft. China also is downsizing and 
restructuring its military forces with an eye toward enhancing its 
capabilities for the modern battlefield. All of these steps will over 
time make China a formidable challenger if Beijing perceived that its 
interests were being thwarted in the region.

        <bullet> We are closely monitoring the situation across the 
        Taiwan Strait in the period surrounding Taiwan's presidential 
        election next month.

    Chinese leadership politics--especially the incomplete leadership 
transition--will influence how Beijing deals with the Taiwan issue this 
year and beyond. President and Communist Party leader Hu Jintao still 
shares power with his predecessor in those positions, Jiang Zemin, who 
retains the powerful chairmanship of the Party's Central Military 
Commission.
    In Russia, the trend I highlighted last year--President Putin's re-
centralization of power in the Kremlin--has become more pronounced, 
especially over the past several months. We see this in the recent Duma 
elections and the lopsided United Russia party victory engineered by 
the Kremlin and in the Kremlin's domination of the Russian media.

        <bullet> Putin's reelection next week, nearly unopposed, and 
        the selection of a new government under technocratic Prime 
        Minister Fradkov will mark the culmination of this process.

    Putin has nevertheless recorded some notable achievements. His 
economic record--even discounting the continuing strength of high world 
oil prices--is impressive, both in terms of gross domestic product 
(GDP) growth and progress on market reforms. He has brought a sense of 
stability to the Russian political scene after years of chaos, and he 
restored Russians' pride in their country's place in the world.
    That said, Putin now dominates the Duma, and the strong showing of 
nationalist parties plus the shutout of liberal parties may bolster 
trends toward limits on civil society, state interference in big 
business, and greater assertiveness in the former Soviet Union. The 
Kremlin's recent efforts to strengthen the state's role in the oil 
sector could discourage investors and hamper energy cooperation with 
the west.
    He shows no signs of softening his tough stance on Russia's war in 
Chechnya. Russian counterinsurgency operations have had some success. 
Putin's prime innovation is the process of turning more authority over 
to the Chechens under the new government of Akhmad Kadyrov, and 
empowering his security forces to lead the counter-insurgency.

        <bullet> Although this strategy may succeed in lowering 
        Russia's profile in Chechnya, it is unlikely to lead to 
        resolution.

    Moscow has already become more assertive in its approach to the 
neighboring states of the former Soviet Union, such as Georgia, 
Ukraine, and Moldova. Russian companies--primarily for commercial 
motives, but in line with the Kremlin's agenda--are increasing their 
stakes in neighboring countries, particularly in the energy sector.
    The Kremlin's increasing assertiveness is partly grounded in its 
improving military capabilities. Although still a fraction of their 
former capabilities, Russian military forces are beginning to rebound 
from the 1990s nadir. Training rates are up--including some high-
profile exercises--along with defense spending.
    Even so, we see Moscow's aims as limited. Russia is using primarily 
economic incentives and levers of ``soft'' power, like shared history 
and culture, to rebuild lost power and influence. Putin has a stake in 
relative stability on Russia's borders--not least to maintain positive 
relations with the U.S. and Europeans.
    Russian relations with the United States continue to contain 
elements of both cooperation and competition. On balance, they remain 
more cooperative than not, but the coming year will present serious 
challenges. For example, Russia remains supportive of U.S. deployments 
in Central Asia for Afghanistan--but is also wary of U.S. presence in 
what Russia considers to be its own back yard.
    Let me turn briefly to Afghanistan, where the Afghan people are on 
their way to having their first legitimate, democratically elected 
government in more than a generation.
    The ratification of a new constitution at the Constitutional Loya 
Jirga in January is a significant milepost. It provides the legal 
framework and legitimacy for several initiatives, including elections, 
scheduled for later this year.

        <bullet> Within the next 12 months, the country could have, for 
        the first time, a freely elected president and National 
        Assembly that are broadly representative, multi-ethnic, and 
        able to begin providing security and services.

    Even if the date of elections slips--the Bonn Agreement requires a 
June date--the central government is extending its writ and legitimate 
political processes are developing nationwide through other means. 
Regional ``warlords'' are disruptive but disunited--and appear to 
realize the Bonn process and elections are the only way to avoid 
relapsing into civil war.

        <bullet> Defense Minister Fahim Khan is cooperating with 
        President Karzai and seems able to keep his large body of 
        Panjshiri supporters in line in favor of Bonn and stability.

    Meanwhile, the infusion of $2 billion in international aid has 
propelled Afghan economic performance. The International Monetary Fund 
(IMF) estimates GDP grew--from an admittedly low base--by 29 percent 
last year. The completion of the Kabul to Kandahar road in December was 
a success, but the international community will need to ensure that 
funds are channeled toward projects that make the most impact and are 
balanced among the regions and ethnic groups.

        <bullet> Building a national army is another long-term 
        international challenge. So far, almost 6,000 Afghan soldiers 
        have been trained by U.S., British, and French trainers. It 
        will take years to reach the goal of a 70,000-strong 
        ethnically-balanced force but with continued coalition and 
        international community support and assistance over the next 2 
        years, Afghanistan need not become either a ``security welfare 
        state,'' or, again, a breeding ground for terrorists and 
        extremism.

    Last year's most worrisome events were the continued attacks by the 
Afghan Transitional Authority's enemies--particularly the Taliban, 
along with al Qaeda and followers of Afghan extremist Hikmatyar who 
want to disrupt routine life and the reconstruction effort in the south 
and east. This is still a problem, because none of these groups has 
abandoned the ultimate goal of derailing the process by which 
legitimate democratic government and the rule of law will be 
established in Afghanistan.
    I don't want to overstate the Taliban's strength. It is far from 
having sufficient political and military might to challenge the Karzai 
Government. But it is still able to interfere with the reconstruction 
of the country by fomenting insecurity and thereby undermining public 
confidence in Kabul.

        <bullet> Like other extremists bent on restoring the terrorist-
        sponsored state that existed before the liberation of 
        Afghanistan, Taliban remnants remain intent on using any 
        available means to undermine President Karzai and his 
        government, to drive international aid organizations and their 
        workers from the areas that most need them, and to attack U.S. 
        and coalition forces.
        <bullet> For this reason the security situation in the south 
        and east is still tenuous, and Kabul will need considerable 
        assistance over at least the next year or two to stabilize the 
        security environment there.

    In Iran, Mr. Chairman, the victory of hardliners in elections last 
month dealt government-led reform a serious blow. Greater repression is 
a likely result.

        <bullet> With the waning of top-down reform efforts, reformers 
        will probably turn to the grass roots--working with NGOs and 
        labor groups--to rebuild popular support and keep the flame 
        alive.
        <bullet> The strengthening of authoritarian rule will make 
        breaking out of old foreign policy patterns more difficult at a 
        time when Tehran faces a new geopolitical landscape in the 
        Middle East.

    The concerns I voiced last year are unabated. The recent defeats 
will have further alienated a youthful population anxious for change. 
Abroad, Tehran faces an altered regional landscape in the destruction 
of radical anti-Western regimes in Afghanistan and Iraq and growing 
international concern about nuclear proliferation.

        <bullet> As has so often happened in Iran's history, Iran's 
        leaders appear likely to respond to these challenges in rigid 
        and unimaginative ways.

    The current setback is the latest in a series of contests in which 
authoritarian rule has prevailed over reformist challengers. The 
reformists--President Khatami in particular--are in no small part to 
blame. Their refusal to back bold promises with equally bold actions 
exhausted their initially enthusiastic popular support.
    When the new Majles convenes in June, the Iranian government will 
be even more firmly controlled by the forces of authoritarianism. In 
the recent election, clerical authorities disqualified more than 2,500 
candidates, mostly reformists, and returned control of the legislature 
to hardliners. The new Majles will focus on economic reform, with 
little or no attention to political liberalization.

        <bullet> With the Majles securely behind the hardliners, we 
        expect to see many of the outlets for political dissent shut 
        down by the clerical regime.
        <bullet> The prospect of internal violence remains. Hardliners 
        may now resort to new heavy-handedness that produces public 
        outrage and protest. At least eight people were killed and 30 
        injured in elected-related violence last month.

    Although greater repression is likely to be the most immediate 
consequence, this will only further deepen the discontent with clerical 
rule, which is now discredited and publicly criticized as never before. 
In the past year several unprecedented open letters, including one 
signed by nearly half the parliament, were published calling for an end 
to the clergy's absolute rule.

        <bullet> Iran's recent history is studded with incidents of 
        serious civil unrest that erupted in response to the arrogance 
        of local officials--events like the 1999 student riots that 
        broke out when security forces attacked a dormitory.
        <bullet> Even so, the Iranian public does not appear eager to 
        take a challenge to the streets--in Tehran, apathy is the 
        prevailing mood, and regime intimidation has cowed the 
        populace. This mix keeps the regime secure for now.

    The uncertainty surrounding Iran's internal politics comes as 
Tehran adjusts to the regional changes of a post-Saddam Iraq. Because 
Khamenei and his allies have kept close rein on foreign policy, we do 
not expect the defeat of the reformists to lead to a sudden change in 
Iranian policy. Tehran will continue to use multiple avenues--including 
media influence, humanitarian and reconstruction aid, diplomatic 
maneuvering, and clandestine activity--to advance its interests and 
counter U.S. influence in Iraq.

        <bullet> We judge that Iran wants an Iraqi government that does 
        not threaten Tehran, is not a U.S. puppet, can maintain the 
        country's territorial integrity, and has a strong Shia 
        representation.
        <bullet> These interests have led Tehran to recognize the IGC 
        and work with other nascent Iraqi political, economic, and 
        security institutions.

    In Indonesia, the world's most populous Muslim country, authorities 
have arrested more than 100 Jemaah Islamiya (JI) suspects linked to the 
terrorist attacks in Bali in October 2002 and the Jakarta Marriott 
Hotel last year. However, coming presidential and legislative elections 
appear to have blunted the government's efforts to root out JI.
    Megawati remains the presidential frontrunner, but continuing 
criticism of her leadership and the growing prospect that her party 
will lose seats in the legislative election increase the likelihood of 
a wide-open race. The secular-nationalist Golkar--the former ruling 
party of Soeharto, now riding a wave of public nostalgia for his bygone 
era--could overtake Megawati's party to win the plurality of 
legislature seats. Most local polls suggest that the Islamic parties 
are unlikely to improve their percentage of the vote.
    Vocal religious extremists, however, are challenging Indonesia's 
dominant moderate Muslim groups. A growing number of Indonesian Muslims 
now advocate the adoption of Islamic law, and dozens of provincial and 
district governments around the archipelago are taking advantage of the 
devolution of authority since 1998 to begin enforcing elements of 
Islamic civil law and customs.
    Let me turn briefly to South Asia. When I commented on the 
situation there last year, I warned that, despite a lessening of 
tensions between India and Pakistan, we remained concerned a dramatic 
provocation might spark another crisis.
    This year I'm pleased to note that the normalization of relations 
between India and Pakistan has made steady progress. Building on Prime 
Minister Vajpayee's April 2003 ``hand of friendship'' initiative, the 
leaders in New Delhi and Islamabad have begun to lay a promising 
foundation for resolving their differences through peaceful dialogue.

        <bullet> Both countries have since made further progress in 
        restoring diplomatic, economic, transportation, and 
        communications links and--most importantly--both sides have 
        agreed to proceed with a ``composite'' dialogue on a range of 
        bilateral issues that include Kashmir.

    Further progress will hinge largely on the extent to which each 
side judges the other is sincere about improving India-Pakistan 
relations. For example, India is watching carefully to see whether the 
level of militant infiltration across the line of control (LOC) 
increases this spring after the snows melt in the mountain passes.
    In this hemisphere, of course, the situation in Haiti is very 
fluid. The process of setting up an interim government and moving 
toward new elections has just begun. Selection of a consensus prime 
minister this week would be an important next step. What concerns me is 
the possibility that the interim government, backed by international 
forces, will have trouble establishing order. A humanitarian disaster 
or mass migration remains possible. Anti Aristide rebels still exert de 
facto control over many parts of the country and have yet to make good 
on promises to lay down their arms. Those forces include armed gangs, 
former Haitian Army officers, and members of irregular forces who 
allegedly killed Aristide supporters during his exile.

        <bullet> A cycle of clashes and revenge killings could easily 
        be set off, given the large number of angry, well-armed people 
        on both sides. Improving security will require the difficult 
        task of disarming armed groups and augmenting and retraining a 
        national security force.
        <bullet> The interim government's nascent consensus could also 
        run aground if hardline Lavalas (pro-Aristide) or Democratic 
        Platform (anti-Aristide) elements break ranks and seek to exert 
        control.

    In Colombia, President Uribe is making great strides militarily and 
economically. His military is making steady progress against illegal 
armed groups, particularly around Bogota; last year the Army decimated 
several FARC military units. In the last 2 months, Colombian officials 
have apprehended the two most senior FARC leaders ever captured.

        <bullet> Foreign and domestic investors are taking note: last 
        year, the growth rate of 3.5 percent was the highest in 5 
        years.

    But some of Uribe's hardest work awaits him. The military has 
successfully cleared much of the insurgent-held territory, but the next 
stage of Uribe's ``clear-and-hold'' strategy is securing the gains thus 
far. That entails building the state presence--schools, police 
stations, medical clinics, roads, bridges, and social infrastructure--
where it has scarcely existed before.
    Finally, we should bear in mind that Uribe's opponents will adjust 
their strategies, as well. The FARC may increasingly seek to target 
U.S. persons and interests in Colombia, particularly if key leaders are 
killed, captured, or extradited to the United States. The FARC still 
holds the three U.S. hostages it captured last year (February) and may 
seek to capture additional U.S. citizens.

        <bullet> Drug gangs are also adapting, relocating coca 
        cultivation and production areas and attacking aerial 
        eradication missions. All of this translates into more money 
        and more resources for traffickers, insurgents, and 
        paramilitary forces.

    In Sub-Saharan Africa, progress in continuing peace processes 
requires further careful western cultivation and African regional 
cooperation.

        <bullet> In Liberia, U.N. peacekeepers and the transitional 
        government face a daunting challenge to rein in armed factions, 
        including remnants of Charles Taylor's militias.
        <bullet> Sudan's chances for lasting peace are its best in 
        decades, with more advances possible in the short term, given 
        outside guarantees and incentives.
        <bullet> A fragile peace process in Burundi and struggling 
        transitional government in Congo (Kinshasa) have the potential 
        to end conflicts that so far have claimed a combined total of 
        over 3 million lives.
        <bullet> Tension between Ethiopia and Eritrea over their 
        disputed border is jeopardizing the peace accord brokered by 
        U.S. officials in 2000.
The Other Transnational Issues
    Let me conclude my comments this morning by briefly considering 
some important transnational concerns that touch on the war against 
terrorism.
    We're used to thinking of that fight as a sustained worldwide 
effort to get the perpetrators and would-be perpetrator off the street. 
This is an important preoccupation, and we will never lose sight of it.
    But places that combine desperate social and economic circumstances 
with a failure of government to police its own territory can often 
provide nurturing environments for terrorist groups, and for insurgents 
and criminals. The failure of governments to control their own 
territory creates potential power vacuums that open opportunities for 
those who hate.

        <bullet> We count approximately 50 countries that have such 
        ``stateless zones.'' In half of these, terrorist groups are 
        thriving. Al Qaeda and extremists like the Taliban, operating 
        in the Afghanistan-Pakistan border area, are well-known 
        examples.
    As the war on terrorism progresses, terrorists will be driven from 
their safe havens to seek new hideouts where they can undertake 
training, planning, and staging without interference from government 
authorities. The prime candidates for new ``no man's lands'' are 
remote, rugged regions where central governments have no consistent 
reach and where socioeconomic problems are rife.
    Many factors play into the struggle to eradicate stateless zones 
and dry up the wellsprings of disaffection.

        <bullet> Population trends. More than half of the Middle East's 
        population is under the age of 22. ``Youth bulges,'' or 
        excessive numbers of unemployed young people, are historical 
        markers for increased risk of political violence and 
        recruitment into radical causes. The disproportionate rise of 
        young age cohorts will be particularly pronounced in Iraq, 
        followed by Syria, Kuwait, Iran, and Saudi Arabia.
        <bullet> Infectious disease. The HIV/AIDS pandemic remains a 
        global humanitarian crisis that also endangers social and 
        political stability. Although Africa currently has the greatest 
        number of HIV/AIDS cases--more than 29 million infected--the 
        disease is spreading rapidly. Last year, I warned about rising 
        infection rates in Russia, China, India, and the Caribbean. But 
        the virus is also gaining a foothold in the Middle East and 
        North Africa, where governments may be lulled into 
        overconfidence by the protective effects of social and cultural 
        conservatism.
        <bullet> Humanitarian need. Need will again outpace 
        international pledges for assistance. Sub-Saharan Africa and 
        such conflict-ravaged places like Chechnya, Tajikistan, and the 
        Palestinian Occupied Territories will compete for aid against 
        assistance to Iraq and Afghanistan. Only 40 percent of U.N. 
        funding requirements for 2003 had been met for the five most 
        needy countries in Africa.
        <bullet> Food insecurity. More than 840 million people are 
        undernourished worldwide, a number that had fallen in the first 
        half of the 1990s but is now on the increase. The U.S. 
        Department of Agriculture estimates the food aid needed to meet 
        annual recommended minimum nutrition levels at almost 18 
        million metric tons, far above the recent average of 11 million 
        tons donated per annum.

    I'll take this opportunity to remind you, Mr. Chairman, of the 
continued threat the global narcotics industry poses to the United 
States.

        <bullet> As evident by the doubling of the Afghan opium crop in 
        2003, the narcotics industry is capable of moving quickly to 
        take advantage of opportunities presented by the absence of 
        effective government authority.
        <bullet> Although the linkages between the drug trade and 
        terrorism are generally limited on a global basis, trafficking 
        organizations in Afghanistan and Colombia pose significant 
        threats to stability in these countries and constitute an 
        important source of funding for terrorist activity by local 
        groups.
        <bullet> This combination of flexibility and ability to 
        undermine effective governmental institutions means that 
        dealing with the narcotics challenge requires a truly global 
        response.

    That, Mr. Chairman, concludes my formal remarks. I welcome any 
questions or comments you and the members may have for me.

    Chairman Warner. Without objection, we will put the entire 
statement into the record.
    Admiral Jacoby.

  STATEMENT OF VADM LOWELL E. JACOBY, USN, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    Admiral Jacoby. Thank you, Mr. Chairman and members of this 
committee. I appreciate this committee's strong and sustained 
support for Defense Intelligence and its men and women deployed 
around the world. My statement for the record addresses a 
number of challenges and threats that you asked me to focus on 
in the letter of invitation. I would like to take just a few 
minutes to highlight some of the pressing future threats and 
developments over the last year.
    Last year I testified that Defense Intelligence was at war 
on a global scale. That war has intensified. DIA professionals, 
active duty military, Reserves, and civilians are providing the 
knowledge and skills essential to defeating enemies in Iraq, 
Afghanistan, and the global war on terrorism.
    In Iraq the security situation varies by region. The north 
and the south remain comparatively quiet. Attacks in central 
Iraq account for approximately 80 percent of the incidents, in 
Sunni-dominated areas, particularly west of Baghdad, around 
Mosul, and along the Baghdad-Tikrit corridor, which are the 
homes for many of the former military and security members. I 
believe that the former regime elements, led by Baath Party 
remnants, are responsible for the majority of the anti-
coalition attacks.
    That said, it appears that much of the Sunni population 
remains focused on concerns relating to security, employment, 
and the availability of goods and services. Those issue areas 
become extremely important in that security situation that 
Director Tenet is talking about.
    Foreign fighters, to include members of the al Qaeda-
associated movement, are a continuing threat. They are 
motivated by Arab nationalism, extremist religious ideology, 
and opposition to U.S. policies and beliefs. They have 
perpetrated some of the most significant attacks. For instance, 
we believe al Qaeda and associated Sunni extremists were 
responsible for the March 2 Karbala and Baghdad attacks. The 
method of operation--simultaneous suicide bombings against 
multiple targets--is an al Qaeda trademark.
    The mid-January arrest of an al Qaeda-associated operative 
in Iraq yielded a letter he was couriering from al-Zarqawi to 
senior al Qaeda members. That letter clearly stated Zarqawi's 
intention to conduct attacks against Shia targets in Iraq in 
order to foment sectarian violence. He indicated that the next 
4 months were the time to strike, prior to the planned 
transition of power to the Iraqi authority. If left unchecked, 
Iraq has the potential to serve as a training ground for the 
next generation of terrorists.
    Turning to Afghanistan, last spring, attacks by opposition 
groups reached their highest level since the collapse of the 
Taliban government in December 2001. Although activity has 
subsided somewhat, attacks continue. The Taliban insurgency 
that continues to target humanitarian assistance and 
reconstruction organizations is a serious threat. At least 11 
of these attacks have occurred this year and some of the 
organizations have suspended operations. They play a key role 
in bringing progress to this troubled nation.
    Additionally, President Karzai remains critical to 
stability in Afghanistan. As a Pashtun, he is the only 
individual capable of maintaining the trust of that ethnic 
group while maintaining the support of other minorities.
    Notable progress has been achieved in the global war on 
terrorism. We have shrunk operating environments for al Qaeda 
and other terrorist groups, captured al Qaeda senior 
coordinators, and also disrupted operations. Nevertheless, al 
Qaeda remains the greatest terrorist threat to our homeland and 
our overseas presence. Al Qaeda continues to demonstrate that 
it is adaptable and capable. Mid-level operatives are filling 
leadership voids. Many have demonstrated a capacity and 
capability to carry out complex operations. Rather than the 
hierarchical centralized organization that al Qaeda was in 
2002, it has become a more broadly based Sunni extremist 
network.
    While al Qaeda planning has become more decentralized, it 
has shifted to softer targets. They continue attacks and most 
recently those attacks in Istanbul showed this soft target 
orientation. Al Qaeda continues to enjoy considerable support 
in the Islamic world.
    Al Qaeda and other terrorist groups may be interested in 
acquiring CBRN materials, and I would highlight that hijackings 
and attacks by manportable missiles against civilian aircraft 
remain a significant concern.
    A number of factors virtually assure a terrorist threat for 
years to come. Despite recently reforms, terrorist 
organizations thrive in societies with poor or failing 
economies, ineffective governments, and inadequate educational 
systems. Demographic or youth bubbles further burden 
governments and economies.
    Let me explain what I mean by ``youth bubble.'' For 
instance, if we look at the percentage of population under 15 
years of age, 43 percent of Saudi Arabians, 41 percent of 
Iraqis, 39 percent of Pakistanis, 34 percent of Egyptians, 33 
percent of Algerians, and 29 percent of Iranians fall into this 
under-15 age group.
    I am also concerned over ungoverned space. These are areas 
where governments do not or cannot exercise effective control. 
Such spaces offer terrorist organizations sanctuary.
    I remain concerned about the Islamic world. Many of our 
partners successfully weathered domestic stresses during 
Operation Iraqi Freedom (OIF). However, challenges to their 
stability and their continued support for the war on terrorism 
remain. Islamic and Arab populations are increasingly opposed 
to U.S. policies. The loss of a key leader could quickly change 
government support for U.S. and coalition operations. For 
instance, President Musharraf was recently the target of two 
sophisticated assassination attempts. His support for the 
global war on terrorism, Afghan policy, restrictions on 
Kashmiri militants, and attempts to improve relations with 
India are all important initiatives that have increased his 
vulnerability.
    Mr. Chairman, I believe I will stop at that point. Also, I 
would just comment on two questions that I regularly receive. 
One is with respect to the security situation in the Taiwan 
Straits as Taiwan approaches their March 20 election, 
presidential election. There are no movements by Chinese 
military forces nor preparations for exercises to attempt to 
influence events on Taiwan.
    Just to conclude with questions about Haiti, the security 
situation is slowly improving, as is the humanitarian 
situation. At this point, sir, we see no preparations for 
large-scale migrations out of Haiti.
    Those are my comments.
    [The prepared statement of Admiral Jacoby follows:]
            Prepared Statement by VADM Lowell E. Jacoby, USN
                              introduction
    Last year I testified that Defense Intelligence was at war on a 
global scale. That war has intensified. Defense Intelligence is 
providing intelligence essential to defeat our Nation's enemies in the 
global war on terrorism, Iraq and Afghanistan. In addition, we are 
intent on identifying emerging challenges to our homeland, allies, and 
interests. Providing the highest quality defense-related intelligence 
to our warfighters, defense planners and national security policymakers 
is essential for the successful accomplishment of their tasks.
    The events of the last several years and our successes are 
transforming the strategic environment. Defense Intelligence must 
identify those new opportunities and challenges to support our Nation's 
security strategy. In addition to these daunting tasks, we are called 
upon to ``know something about everything all the time.'' The potential 
for surprise is an enduring reality, especially when we are 
simultaneously engaged on several fronts. We must mitigate the impact 
of surprise by devoting resources to broad situational awareness and 
quickly generate needed intelligence on any security issue as 
disturbing trends or opportunities are identified.
                    enable swift defeat of the enemy
Global Terrorism
    During the last year, notable progress has been achieved in the 
global war on terrorism. We have shrunk the favorable operating 
environments for al Qaeda and other terrorist groups and captured 
several al Qaeda senior operational coordinators and a significant 
number of terrorists. We have disrupted several terrorist operations. 
Nevertheless, al Qaeda remains the greatest terrorist threat to our 
homeland. Al Qaeda expressed its intent to stage another wave of 
attacks in the U.S. aircraft hijackings remain a concern.
    Despite 25 months of sustained pressure, al Qaeda continues to 
demonstrate it is an adaptable and capable threat. Their network has 
directed numerous attacks since September 11, most recently in Istanbul 
and Riyadh. Al Qaeda continues to enjoy considerable support and is 
able to recruit terrorists. Capable but less experienced individuals 
are replacing those captured.
    Al Qaeda's planning has become more decentralized and has shifted 
to softer targets. The network increasingly generates attacks in 
alliance with like-minded groups like Jemaah Islamiyah (JI) in 
Southeast Asia. The arrest of senior al Qaeda and JI leader Hambali 
last summer eliminated a significant link between the two groups. 
However, the al Qaeda/JI nexus will endure because the two groups have 
a shared ideology and experience during the period of Soviet 
involvement in Afghanistan. While al Qaeda does not control the daily 
operations of JI or affiliated groups, congruence of broad goals 
promise continued attacks against U.S. interests and our partners in 
the global war on terrorism.
    Al Qaeda and other terrorist groups remain interested in acquiring 
chemical, biological, radiological, and nuclear (CBRN) weapons. We 
remain concerned about rogue scientists and the potential that state 
actors are providing, or will provide, technological assistance to 
terrorist organizations.
    Terrorist use of man-portable air defense system (MANPAD) missiles 
against civilian and military aircraft was underscored following the 
attack last fall against a commercial cargo aircraft in Baghdad and the 
failed attack in Mombassa in 2002. A MANPAD attack against civilian 
aircraft would produce large number of casualties, international 
publicity and a significant economic impact on civil aviation. These 
systems are highly portable, easy to conceal, inexpensive, available in 
the global weapons market and instruction manuals are on the Internet. 
Commercial aircraft are not equipped with countermeasures and 
commercial pilots are not trained in evasive measures. An attack could 
occur with little or no warning. Terrorists may attempt to capitalize 
on these vulnerabilities.
    Iraq is the latest jihad for Sunni extremists. Iraq has the 
potential to serve as a training ground for the next generation of 
terrorists where novice recruits develop their skills, junior 
operatives hone their organizational and planning capabilities, and 
relations mature between individuals and groups as was the case during 
the Soviet occupation of Afghanistan and extremist operations in the 
Balkans.
    Although not presently linked to attacks on the global war on 
terrorism coalition, Lebanese Hizballah remains capable of terrorist 
operations on a global scale. Hizballah has extensive and well-honed 
capabilities and may have contingency plans in place for attacks in 
Iraq. The group's global presence makes it a potential threat to our 
interests worldwide.
    The Revolutionary Armed Forces of Colombia (FARC) remains the most 
potent terrorist threat to U.S. interests in Colombia. During the past 
year, the FARC conducted multiple attacks in Colombia and since early 
2003 has held three U.S. citizens hostage. Its attack against a Bogota 
bar, last fall, injured 3 Americans and 70 Colombians, killing 1. The 
continued emphasis on urban terrorism, especially in Bogota, increases 
the risk to U.S. citizens. At the same time, the FARC's perception that 
U.S. support is the direct cause of the Colombian government's recent 
successes, increases the likelihood the group will target U.S. 
interests in 2004.
    We are also increasingly concerned over ``ungoverned spaces,'' 
defined as geographic areas where governments do not exercise effective 
control. Terrorist groups and narcotraffickers use these areas as 
sanctuaries to train, plan and organize, relatively free from 
interference. There are numerous ``ungoverned spaces'' around the world 
such as the western provinces in Pakistan, portions of the southern 
Philippines, Indonesian islands, Chechnya, rural areas in Burma, 
several areas in Africa, and areas in South America. Ungoverned spaces 
include densely populated cities where terrorists can congregate and 
prepare for operations with relative impunity. I believe these areas 
will play an increasingly important role in the global war on terrorism 
as al Qaeda, its associated groups and other terrorist organizations 
use these areas as bases for operations.
    A number of factors combine to present a terrorist threat to the 
United States for years to come. Despite recent reforms, Arab 
populations on the whole live in societies that lack political and 
economic freedoms, effective government and good educational systems. 
Literacy and education levels were lower than in many other developing 
regions. Especially in madrasas, teaching methods and religious 
curriculum emphasizing rote learning produce students without skills 
needed to compete for jobs and anti-Western in beliefs. At the national 
level, their poorly educated workforces limit ability to compete in the 
global economy. Not surprisingly, many Arab states suffer high 
unemployment. ``Demographic bubbles'' which burden government services 
and economies promise continued problems. These factors in combination 
will feed Arab public sentiment which is increasingly opposed to U.S. 
policies. Radical Islam has the potential to be a force in many areas 
of the world for decades to come.
Iraq
    The security situation in Iraq varies by region. The north, where 
Kurds maintained control after the fall of the regime and have a 
largely intact infrastructure is quiet. The south also remains 
comparatively quiet. Moderate Shia clerics and the Shia population 
support coalition efforts and oppose former regime elements (FREs). 
However, the situation could become volatile. Shia backing for the 
coalition is based largely on expectations that a political structure 
based on an elected representative government serves their interests.
    Insurgent attacks in central Iraq account for the vast majority of 
all incidents. Anti-coalition activity centers in Sunni-dominated 
areas, especially west of Baghdad, around Mosul and along the Baghdad-
Tikrit corridor--areas home to former regime military and security 
members. Saddam's capture likely reduced the morale and effectiveness 
of some resistance members. However, many FREs and party loyalists are 
motivated by Arab and Iraqi nationalism and self-interest and will 
continue the resistance, opposing the foreign presence and emerging new 
order. That said, it appears much of the Sunni population has not 
decided whether to back the coalition or support the opposition. The 
key factor is whether stability can be established and whether viable 
alternatives to the Baathists or Islamists emerge.
    We believe FREs led by remnants of the Baath Party are responsible 
for the majority of anti-coalition attacks. Their strategy appears to 
be multi-faceted: attempting to undermine the coalition, creating 
insecurity, attacking cooperating Iraqis and assassinating leading 
figures, and driving out international organizations. The FREs have 
adjusted to coalition tactics, and now employ more ``stand-off'' 
weapons, such as improvised explosive devices (IEDs), rocket-propelled 
grenades (RPGs), and mortars.
    The number of anti-coalition attacks has declined over the past 
months from a high in November during Ramadan. Additionally, the 
coalition has captured or killed 46 of the 55 most-wanted former regime 
members. Efforts to capture the remaining senior former regime figures, 
in particular, Izzat Ibrahim al-Duri, are supported almost daily by new 
intelligence.
    Foreign fighters, while fewer in numbers than the FREs, are a 
threat. Fighters from numerous countries are reported to have entered 
Iraq. They are motivated by Arab nationalism, extremist religious 
ideology and/or resentment of U.S. policies and beliefs. Most are 
assessed to be linked to groups that hope to gain notoriety and 
increased support by conducting attacks in Iraq.
    In addition to our other efforts in Iraq, supporting the search for 
Captain Michael Scott Speicher remains a high priority. We continue 
focused efforts to determine his status. These efforts will continue 
until we have a full accounting.
Afghanistan
    Attacks by Taliban and Hezb-e Islami Gulbuddin (HIG) since early 
spring of last year, reached their highest levels since the collapse of 
the Taliban government. The majority of the attacks are ineffective 
rocket or bomb attacks. However, recent attacks show increasing 
accuracy and sophistication. Violence against humanitarian assistance 
and reconstruction personnel has led some organizations to suspend 
operations. Continued reductions of United Nations (U.N.) activity may 
negatively impact the Bonn Process. Upcoming political events such as 
the June 2004 presidential elections may prompt increases in violence.
    Afghanistan's new constitution was approved in early January. This 
paves the way for a presidential election this summer and legislative 
elections later this year. The show of support among Loya Jirga 
delegates for President Hamid Karzai bodes well for his political 
strength and chances in the presidential election.
    Karzai's ability to use his growing political strength to encourage 
compliance with his reform agenda may provide long term stability, but 
could result in near term tensions. President Hamid Karzai remains 
critical to stability in Afghanistan. As a Pashtun, he remains the only 
individual capable of maintaining the trust of Afghanistan's largest 
ethnic group (Pashtuns) and support of other ethnic minorities. A 
Taliban insurgency that continues to target humanitarian assistance and 
reconstruction efforts is a serious threat, potentially eroding 
commitments to stability and progress in Afghanistan.
    Pakistani assistance remains a key to a successful outcome. 
Cultural, religious, and political considerations have limited the 
central government's commitment to disrupting Taliban operations, 
support and sanctuaries. However, Pakistan has been more active against 
al Qaeda infrastructure. Pakistani military operations have contributed 
to the disruption of al Qaeda sanctuaries, particularly in South 
Waziristan.
   reliable strategic warning across the full spectrum of potential 
                                threats
Weapons of Mass Destruction and Missile Proliferation
    The trend with respect to weapons of mass destruction (WMD) and 
missiles remains troublesome. There is continuing terrorist interest in 
acquiring and using WMD, especially biological, chemical, and 
radiological weapons. North Korea's reactivation of the Yongbyon 
nuclear facility and Iran's admission to the International Atomic 
Energy Agency (IAEA) about years of covert nuclear activity reinforce 
concerns. The recent Libyan disclosure and pledge to divest itself of 
WMD and long range missiles programs and admit international inspectors 
is a positive sign. Other states continue to develop biological and 
chemical weapon capabilities. Numerous states continue to improve their 
ballistic and cruise missiles, focusing on longer range, better 
accuracy, deployment of new units and use of underground facilities. 
Proliferation of WMD- and missile-related technologies continues and 
new supply networks challenge U.S. counterproliferation efforts.
    Nuclear Weapons
    Russia's nuclear weapons stockpile continues to decline. DIA 
believes the number of weapons in China, India, Pakistan, and North 
Korea will grow. We are also concerned about Syrian interest in nuclear 
technologies that could support a weapons program.
    We believe North Korea has nuclear warheads from plutonium produced 
prior to the 1994 Agreed Framework. After expelling IAEA personnel in 
late 2002, North Korea reactivated facilities at Yongbyon and claims it 
reprocessed the 8,000 spent fuel rods from the Yongbyon reactor, adding 
plutonium for additional weapons. Pyongyang is expected to increase its 
weapons inventory by the end of the decade through plutonium production 
and a possible unlocated uranium enrichment capability. North Korea's 
current proliferation activities are troubling. The potential for the 
North to market nuclear weapons and technology is also troubling.
    In 2003, Iran admitted to the IAEA that it had a covert uranium 
enrichment program for many years, removing any doubt about the 
military intent of their program. Tehran now claims it will halt 
uranium enrichment activity, in exchange for nuclear technologies. 
Faced with international pressure, Iran signed, but has not yet 
ratified the Nuclear Nonproliferation Treaty's (NPT) Additional 
Protocol, allowing for more intrusive IAEA inspections. However, we 
remain concerned about Iran's ultimate nuclear intentions.
    In South Asia, India and Pakistan have well-developed nuclear 
infrastructures and small stockpiles of weapons. Pakistan recently 
developed the capability to produce plutonium for potential weapons 
use. Weapon stockpiles in India and Pakistan are expected to grow.
    Chemical and Biological Weapons
    Numerous states have chemical and biological warfare programs. Some 
have produced and weaponized agents, while others are in research and 
development (R&D) stages. Contributing to the threat is potential 
development of new agents with toxicities exceeding those of 
traditional agents, or with properties that could challenge existing 
countermeasures. While we have no intelligence suggesting states are 
planning to give terrorist groups these weapons, we remain concerned 
about, and alert to, the possibility.
    These weapons are easier to develop, hide, and deploy than nuclear 
munitions. Supporting technologies are relatively inexpensive and 
readily available because they have legitimate roles in medical, 
pharmaceutical and agricultural industries.
    Ballistic Missiles
    In addition to Russia and China, the United States will likely face 
intercontinental ballistic missile (ICBM) threats from North Korea. 
Iran may have the capability to field an ICBM by 2015. Russia's force 
will continue to be the most robust and lethal.
    China is modernizing its ballistic missile forces and is fielding 
increasingly accurate solid-fuel, road-mobile missiles that will 
enhance survivability and provide Beijing flexibility. China is 
improving its silo-based, liquid-propellant ICBMs and is testing a new 
mobile, solid-propellant ICBM, the 8,000-km-range DF-31. It also is 
developing programs for an extended-range version of the DF-31. The 
number, reliability, survivability, and accuracy of Chinese strategic 
missiles capable of hitting the United States will increase during the 
next decade.
    Based on a space launch vehicle program, we judge Iran will have 
the technical capability to develop an ICBM. However, we do not know 
whether Iran has decided to field such a missile. Tehran declared its 
1,300-km Shahab-3 medium-range ballistic missile operational last 
summer.
    North Korea continues to develop its Taepo Dong 2 ICBM. This 
missile could deliver a nuclear warhead to parts of the United States 
in a two stage variant and target all of North America if a third stage 
is added. Press reports indicate North Korea is preparing to field a 
new ICBM, about the size and dimensions of the Russian SS-N-6 SLBM. If 
this is true, such a missile could reach U.S. facilities in Okinawa, 
Guam, and possibly Alaska. North Korea is the world's leading supplier 
of missiles and related production technologies, selling to countries 
in the Middle East and North Africa and to Pakistan.
    Cruise Missiles
    The numbers and capabilities of cruise missiles will increase, 
fueled by maturation of land-attack and anti-ship cruise missile 
programs in Europe, Russia and China; sales of complete systems; and 
the spread of advanced dual-use technologies and materials. The threat 
from today's anti-ship cruise missiles is challenging and will increase 
with the introduction of more advanced guidance and propulsion 
technologies. Proliferation of land attack cruise missiles (LACMs) will 
also increase the threat to our forward based military forces and 
provide area denial weapons against potential contingency operations.
    Today, very few countries, to include Russia, possess LACMs. China 
is expected to field its first dedicated LACM soon. China is developing 
and procuring anti-ship cruise missiles capable of being launched from 
aircraft, surface ships, submarines and land that will be more capable 
of penetrating defenses.
    In the next 10 years, we expect other countries to join Russia, 
China, and France as major exporters in cruise missiles. India, in 
partnership with Russia, will begin production of the PJ-10, an anti-
ship and land attack cruise missile, this year and may export the 
system.
    Proliferation
    Russia, China, and North Korea support various WMD and missile 
programs, especially in the Middle East and South Asia. Russian 
entities support missile and civil nuclear programs in China, Iran, and 
India, and to a lesser degree in Syria. Some of these nuclear 
technologies could have weapons applications. Chinese companies remain 
involved with nuclear and missile programs in Pakistan and Iran. In 
some cases, entities from Russia and China are involved without the 
knowledge of their governments. North Korea is the world's leading 
supplier of missiles and related technologies. We also see evidence of 
what is termed ``secondary proliferation,'' when countries who 
previously imported weapons or weapons technology begin indigenous 
production and export of those systems. The most disturbing example of 
this trend is the linkage of North Korean, Libyan, and Iranian 
enrichment programs to Pakistani technology.
Information Operations
    The information operations (IO) threat consists of capabilities 
such as electronic warfare, propaganda, denial and deception, and 
computer network attack to affect human or automated decisionmaking 
processes. Some of these target infrastructures such as U.S. logistics, 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR) and domestic economic 
infrastructure. Several adversaries are pursuing IO focused on select 
capabilities such as propaganda and denial and deception. Russia and 
China have adopted more comprehensive approaches with multiple 
capabilities. Chinese military theorists are developing IO doctrines, 
targeting both western and regional nations that will pose a long-term 
strategic threat to U.S. interests.
    Many adversaries have demonstrated skill in misinformation and 
disinformation campaigns that target the United States and third 
parties to undermine U.S. interests. The threat to computer networks is 
extremely dynamic, with growing capabilities that are easily 
proliferated. Numerous distributed denial of service techniques, to 
include viruses and worms, could be used to shut down or disrupt 
computers in the lead up to or during a conflict. Most disturbing is 
that the basic tools are readily available on the Internet and can be 
customized by adversaries to fit their needs. We expect the IO threat 
to grow.
General Technology Proliferation
    The situation remains unchanged from my testimony last year. 
Advances in information technology, biotechnology, communications, 
materials, micro-manufacturing, and weapon development are having a 
significant impact on the way militaries and terrorist groups organize, 
plan, train, and fight. Globalization of ``R&D intensive'' 
capabilities, such as computer hardware and software, biotechnology and 
nanotechnology, is allowing smaller militaries, groups, and even 
individuals' access to capabilities previously limited to those of the 
major powers. Integration, advancements and unanticipated applications 
of emerging technologies make the future and, correspondingly, our 
military strengths and vulnerabilities, extremely difficult to predict. 
While DIA cannot identify with specificity, some aspects of our 
military advantage will erode. Technological surprise is of great 
concern and we are watching this area intensely.
Global Defense Spending
    Non-U.S. global defense spending, which we reported last year 
dropped 50 percent over the past decade, will likely increase during 
the next 5 years. The improving global economy is allowing increased 
funding at moderate rates. Defense spending will enable countries to 
pursue selective force modernization.
Globalization
    Globalization remains an overwhelming force that presents security 
challenges. Terrorists, proliferators of illicit weapons and military 
technology, narcotraffickers, and alien smugglers are making increasing 
use of the world's financial, communication, and transportation 
systems. Rapid change from transforming industries and infusion of 
foreign products, media, and ideas is outstripping the ability of many 
governments and societies to adjust politically, economically and 
culturally. Portions of the population in many of these countries are 
instigating a backlash against the West and the United States, in 
particular. This backlash is one factor in extremist movements such as 
al Qaeda in the Islamic world and political instability in a broad 
range of countries. Our challenge is to develop collection and 
analytical skills to track and intercept the threatening things and 
people traveling around the world, and understand and predict 
instability and the social backlash that threaten our citizens and 
interests.
International Crime
    Criminal groups in Western Europe, China, Colombia, Israel, Japan, 
Mexico, Nigeria, and Russia are involved in illicit transfers of arms 
and military technologies, narcotics trafficking, and alien smuggling. 
We continue to identify links between terrorism and organized crime. 
For example, the Afghan drug trade is a source of revenue and logistic 
support for Taliban and other opposition groups. Elements of al Qaeda 
traffic in opium and heroin. In addition, we are concerned that 
criminal groups will use their established networks to traffic in WMD 
and the terrorist movement.
Uneven Economic and Demographic Growth
    Uneven economic and demographic growth will remain a source of 
instability. The poorest countries are almost universally those with 
the fastest population growth. High birth rates create demographic 
momentum as large groups of young people reach child-bearing age. As a 
result, much of the world population will remain below internationally 
recognized poverty standards. This is a problem not only for the very 
poor countries, but middle income ones as well. Middle Eastern, South 
East Asian, and African states are experiencing a ``demographic 
bubble'' (34 percent of Egyptians, 43 percent of Saudi Arabians, 42 
percent of Afghans, 36 percent of Filipinos, 43 percent of Liberians 
and 48 percent of Congolese (DROC) are less than 15 years of age). 
Their economies and government services are not meeting the demands of 
growing populations. Education systems, as I spoke to earlier in my 
testimony, are a critical factor for development. Inadequate education 
systems can mean countries and even regions are not capable of taking 
advantage of the opportunities of the global economy. The gap between 
the rich and the poor grows larger. Meanwhile, the communications 
revolution gives the poor a clearer view of the world's wealth, fueling 
resentment against their own governments and the developed world.
North Korea
    Pyongyang's open pursuit of nuclear weapons and delivery systems 
remains a serious challenge. Pyongyang considers its nuclear weapons 
program critical to regime survival. North Korean media reports suggest 
Kim Jong Il believes the speed and success of Operation Iraqi Freedom 
(OIF) underscores the ineffectiveness of the North's conventional 
forces and the value of nuclear weapons.
    North Korea's approach with respect to nuclear weapons is assessed 
to be designed to achieve the maximum concessions from the U.S. and 
other regional powers to ensure its own political and economic 
survival. While Kim Jong Il may be willing to abandon his nuclear 
weapons program, turn over the existing plutonium stockpiles and accept 
a vigorous inspection regime, we do not know the specific conditions 
which the North would require to reach an agreement.
    The North Korea People's Army remains capable of inflicting 
hundreds of thousands of casualties and severe damage on the South. 
North Korean missile forces can also attack Japan. Internally, the 
regime in Pyongyang appears stable, but there are many unknowns. Kim 
Jong Il's security services maintain tight control over the domestic 
population.
    North and South Korea cooperate in economic, transportation, and 
social sectors, but the South has made little headway on security 
issues. Without Seoul's assistance North Korea might be much less 
stable.
China
    Chinese leadership transition since 2002 has progressed smoothly. 
The new leaders are unified in their focus on domestic stability and 
economic growth, maintaining the same security priorities and calculus 
as their predecessors. Former President Jiang Zemin retains control of 
the armed forces as Central Military Commission Chairman, providing 
continuity to Chinese military modernization and strategic direction.
    China's leaders continue support for the global war on terrorism, 
in part because they see opportunities for international cooperation 
against domestic separatist problems--predominantly the ethnic-Uighur 
communities in western China. Beijing's criticism of the U.S. presence 
in Afghanistan and Central Asia and what they consider U.S. 
unilateralism has been muted. However, Beijing likely fears a long-term 
U.S. presence on its borders. The Chinese government has also limited 
its criticism of coalition military operations in Iraq.
    China is keenly interested in coalition military operations in 
Afghanistan and Iraq and is using lessons from those operations to 
guide People's Liberation Army (PLA) modernization and strategy. 
Beijing was impressed with U.S. ground forces' performance during the 
Iraq war. While several years will be needed to fully incorporate 
lessons, China's military leaders are reevaluating some of their 
military assumptions.
    China continues to develop or import modern weapons aimed at 
enabling it to fight and win wars on or near its periphery. Acquisition 
priorities include surface combatants and submarines, air defense, 
fourth-generation fighters, ballistic and anti-ship cruise missiles, 
space and counter-space systems, and modern ground equipment. The PLA 
is also cutting approximately 200,000 personnel to streamline the 
force, reduce costs, and support modernization. While making progress, 
the PLA continues to face significant technical and operational 
challenges.
    Domestic political events on Taiwan are the principal determinant 
of short term stability in the Taiwan Straits. Beijing is carefully 
monitoring developments in advance of Taipei's March 2004 presidential 
elections and referendum. We see no indications of preparations for 
large-scale military exercises to influence Taiwan voters. Most of 
China's efforts appear to be diplomatic, oriented toward convincing the 
United States to constrain Taiwan. China's leaders see last year's 
enactment of Taiwan's referendum enabling legislation as a legal basis 
for prospective independence. China's leaders also are concerned that 
Taiwan President Chen Shui-bian would interpret re-election in 2004 as 
a popular endorsement for Taiwanese independence. Beijing will not 
tolerate Taiwanese independence and will use military force regardless 
of the costs or risks.
Russia
    After nearly a decade of declining activity, the Russian military 
is beginning to exercise its forces in mission areas it believes are 
essential for deterrence, global reach, and rapid reaction. Open source 
reporting confirms that ground force exercise activity in 2003 doubled 
that of 2002; training for use of nonstrategic nuclear forces 
continues; and Russia desires to have the ability for its Navy and Air 
Force to operate globally, as evidenced in their joint exercises in the 
Indian and Pacific Oceans in 2003. Russian military spending has 
increased in real terms in the past 4 years, in line with its improving 
economy. Additionally, we expect modest increases in the procurement of 
new weapons. Improvements will continue unless Russia suffers an 
economic setback--especially a significant decrease in the price of 
oil.
    Moscow is attempting to reclaim great power status. Russian leaders 
believe an improving military supports its foreign policies and conveys 
the image of an active global power capable of asserting it national 
interests. It also supports the leaders' domestic political position. 
Additionally, Russia is improving its relations with some countries, 
most notably France, China, and India, in pursuit of a ``multi-polar'' 
world and to enhance its arms sales.
    Russian military leaders were surprised by OIF's speed, 
effectiveness, and low casualties, but not by the operation's ultimate 
success. Proponents of western-style military reforms believe the 
results demonstrate the need for change in the Russian armed forces. 
However, they face resistance from an entrenched bureaucracy and senior 
leaders with vested interests in the status quo. OIF reinforced 
previous Russian assessments of the need for precision strike 
capabilities and improved intelligence, surveillance, and 
reconnaissance (ISR) systems. Russian military leaders recognize the 
need for more resources, but economic realities will prevent dramatic 
increases in military expenditures.
    Russian leaders see OIF as an embodiment of U.S. unilateralism and 
believe U.S. actions have weakened the global war on terrorism 
alliance. Despite these views, Russia voted in favor of several U.S.-
backed U.N. Security Council Resolutions. Moscow believes the United 
Nations should have the lead in establishing an Iraqi government. They 
will also work to ensure Russian commercial access to post-OIF Iraq and 
repayment of some of their loans to the previous Iraqi regime.
    President Putin and other Russian leaders reacted calmly to the 
latest round of North Atlantic Treaty Organization (NATO) enlargement 
and are working to improve relations within NATO. However, many 
maintain the traditional Russian fear of military encirclement, citing 
potential of U.S. military rebasing and suspicions that Washington is 
not interested in ratifying the adopted Conventional Armed Forces in 
Europe Treaty or extending it to the Baltic States. They will oppose 
Ukraine's, Georgia's, and Azerbaijan's efforts to join NATO.
    The Chechen war continues after more than 4 years and is a drain on 
the Russian military. Moscow rejects negotiations to end the war, but 
has not been able to defeat the guerrillas. Approximately 65,000-75,000 
Russian troops remain in Chechnya. Official casualties approach Soviet 
losses in Afghanistan. However, Chechnya remains a minor issue for most 
Russians and has not threatened President Putin politically. 
Nevertheless, Chechen extremists remain capable of headline-grabbing 
attacks in many areas of Russia.
Iran
    Iran remains wary of the large U.S. force presence in Iraq. 
However, fears of war between the U.S. and Iran have eased and most 
Iranians are indifferent to the U.S. presence. Nonetheless, a 
substantial minority strongly distrusts U.S. motives in the region. 
Iranian attitudes will be shaped by Washington's ability to improve the 
political and economic situation of ordinary Iraqis, especially the 
Shia.
    With the exception of naval forces, Iran's military modernization 
has been stagnant. In reaction to OIF, Iran publicly announced 
implementation of an asymmetric strategy emphasizing lightly armed but 
numerous guerrilla forces. The only addition to Iran's air and air 
defense inventory is a new Iranian Revolutionary Guard Corps (IRGC) Air 
Force squadron of Su-25 close air support aircraft. Iran's Navy, the 
region's most capable, can temporarily disrupt maritime traffic through 
the Strait of Hormuz using a layered force of Kilo class diesel 
submarines, ship- and shore-based antiship cruise missiles and naval 
mines.
    On the domestic scene, the hope among Iranians that President 
Khatami could institute change has faded. Conservatives retain control, 
and reformists are not mounting a challenge to their authority. 
Although Iran is stable for now, the regime must address social and 
economic problems if it is to ease public frustration and the potential 
for future unrest.
Israeli-Palestinian Violence
    The Israeli-Palestinian conflict remains basically unchanged from 
last year. It furthers anti-American sentiment, increasing the 
likelihood of terrorism and increasing pressure on moderate Middle East 
regimes. While Israeli-Palestinian violence continues, the intensity 
and fatality levels decreased this past fall. Nevertheless, violence 
could flare suddenly.
    Periodic attacks along Israel's northern border could escalate, 
drawing in Syria and Lebanon. In October, Israel retaliated for a 
terrorist attack by striking a terrorist training camp in Syria. 
Israeli leaders warned they would hold Syria responsible for future 
terror attacks by groups it harbors or sponsors.
    A U.S. diplomatic convoy entering the Gaza Strip in October 2003 
was deliberately targeted with an improvised mine. DIA believes this 
attack to be an isolated incident. We have no credible intelligence 
that a major Palestinian terrorist group is currently targeting U.S. 
facilities and persons.
                    know something about everything
Pressures in the Islamic World
    The process of sorting through competing visions of what it means 
to be a Muslim state in the modern era continues. As stated earlier in 
my testimony, we are particularly concerned over the stability of many 
of our Arab partners because of their poor economic conditions, 
ineffective government institutions, and ``youth bulge.'' Arab public 
sentiment is increasingly opposed to U.S. policies according to recent 
polls, increasing pressures on governments who support the U.S. Support 
for the war on terrorism is low, ranging from 56 percent in Kuwait to 2 
percent among Jordanians and Palestinians. Support for America has 
dropped in most of the Muslim world. Favorable ratings in Morocco 
declined from 77 percent in 2000 to 27 percent in spring of last year 
and in Jordan from 25 percent in 2002 to only 1 percent in May 2003. 
The percentage of Saudis expressing confidence in the United States 
dropped from 63 percent in May 2000 to 11 percent in October 2003. The 
Israeli-Palestinian conflict, and Washington's perceived pro-Israeli 
bias, was cited in some polls as a leading reason for anti-U.S. 
sentiment. These conditions and increasing anti-U.S. sentiment provide 
sustenance for radical political Islam at the expense of moderate 
elements.
    Many of our partners weathered stresses within their countries 
during OIF because of the short duration of the conflict, acquiescence 
to expression of moderate levels of anti-U.S. sentiments and protests, 
and reliance on their strong military and security forces. Challenges 
to stability and continued support for the war on terrorism remain. 
Additionally, the assassination of a few key leaders could quickly 
change support for pro-U.S. policies.
    Pakistan
    President Musharraf faces significant political and economic 
challenges. He was recently the target of two sophisticated, well-
planned assassination attempts. His support for the global war on 
terrorism, crackdown on indigenous Islamic extremists, Afghan policy, 
restrictions on Kashmiri militants, and attempts to improve relations 
with India have all increased his vulnerability. Popular hostility to 
the U.S. is growing, driven in particular by Islamabad's support for 
U.S. counterterrorism efforts. Opposition constrains his range of 
options.
    Musharraf's viability depends on continued support from his 
military. He appears to retain the support of this core constituency. 
However, the two recent attempts on Musharraf suggest insider 
knowledge. He remains at high risk of assassination. If Musharraf were 
assassinated or otherwise replaced, Pakistan's new leader would erode 
pro-U.S. policies. The extent and pace of this erosion will depend on 
how Musharraf departs and who replaces him.
    Tension Between India and Pakistan
    Since Prime Minister Vajpayee's ``hand of friendship'' speech last 
spring and successful South Asia Association for Regional Cooperation 
(SAARC) conference in Islamabad this January, India and Pakistan have 
taken a series of steps to defuse tensions from the 2001/2002 crisis. 
These include restoring high commissioners, resuming transportation 
links, building people-to-people contacts, observing a cease-fire along 
the Line of Control and pledging to engage in dialogue on all bilateral 
issues including Kashmir. With the underlying causes of the Kashmir 
dispute unresolved and continued but reduced cross border infiltration, 
relations could rapidly deteriorate in the wake of another spectacular 
terrorist attack or political assassination. Both sides retain large 
forces close to the Line of Control in Kashmir and continue to develop 
their WMD and missile programs. Pakistan views its WMD programs as its 
only viable alternative to India's improving conventional capabilities.
    Egypt, Jordan, Saudi Arabia
    The Egyptian government remains in control of the country. Egypt's 
multiple, overlapping security agencies effectively manage protests and 
political dissent. Cairo seeks closer official cooperation and 
consultation with Washington in promoting stability and security in 
Iraq but is limited by public discontent over U.S. regional policies. 
Cairo also is actively pushing the various Palestinian factions to 
agree to a cease-fire and return to the negotiation table with Israel.
    The Jordanian government remains stable, largely owing to the 
loyalty of the military and security forces to a very popular King. The 
government is accelerating political and economic reform in the face of 
chronic economic and social pressures. King Abdallah has acknowledged 
that terrorism remains a threat--citing the bombings of the U.N. 
headquarters and the Jordanian embassy in Iraq last year. Jordan's 
position has been steadfast in denouncing terrorism, and Jordanian 
Foreign Minister Muasher has reiterated Jordan's commitment to 
cooperate with all countries and multilateral efforts in the fight 
against terrorism.
    Despite recent terrorist attacks, the Saudi regime's control of 
national resources, the security infrastructure, and international 
support will enable the regime to survive. The backlash from last 
year's bombings actually strengthened public support for the global war 
on terrorism and prompted the government to seek increased 
international counterterrorism cooperation with the United States and 
other allies. At the same time, the Saudi public opposes U.S. policies 
in the region.
    Indonesia
    President Megawati, who faces election this summer, has increased 
political stability in Indonesia. Still, social and economic problems 
persist and Islamic extremists continue to foster terrorism and 
sectarian unrest. National unity remains a core preoccupation, with 
major security operations containing, but not defeating secessionists.
    Terrorist bombings in Bali in 2002 and last year in Jakarta 
mobilized government efforts, leading to arrests and convictions of 
many Jemaah Islamiyah figures. Indonesia's largely moderate Islamic 
population rejects terrorism, but often is wary of U.S. policies in the 
Middle-East. Jakarta's cooperation on counterterrorism will, to varying 
degrees, continue. However, the government will avoid close 
identification with the U.S. and treat Islamic militant figures with 
caution through the elections. If President Megawati is re-elected, the 
Indonesian government will likely strengthen its counterterrorism 
cooperation.
Philippines
    Like President Megawati in Indonesia, President Arroyo has 
increased political stability in the Philippines and support for the 
global war on terrorism. She is also standing for re-election in 2004. 
The country suffers from an active communist insurgency and Muslim 
separatist groups, some linked to al Qaeda. None, individually or 
combined, can overthrow the government. At the same time, government 
security forces are overextended and cannot deal effectively with the 
problems. Arroyo survived a failed coup by junior officers protesting 
corruption and pay inequity in the military in summer 2003. We do not 
expect a repeat of this incident prior to the May 2004 elections, 
despite the fact that coup rumors persist.
    Philippine support for the war on terrorism will continue. U.S. 
military operations in the Philippines are limited by their 
constitution and political opposition. Law enforcement efforts have 
actually been more successful than the military in capturing 
terrorists. Manila has contributed a 100 member contingent to Iraq and 
is willing to contribute more if funding issues are resolved. They are 
looking to benefit from reconstruction contracts.
Liberia
    Liberia is representative of many countries in Africa suffering 
from widespread government corruption, illicit arms flow and 
mercenaries. Liberia is on a path to recovery after 14 years of civil 
war, owing to the ouster of regional troublemaker and former President 
Charles Taylor, the signing of a comprehensive peace accord, the 
intervention of U.N. peacekeepers and the installation of a National 
Transition Government (NTGL). Even so, power struggles within the NTGL 
and factional fighting in the interior will persist until the U.N. 
deploys forces in other parts of Liberia to ensure demobilization and 
disarmament of targeted groups.
                         other evolving trends
    There are threats, both passive and active, to Defense 
Intelligence's collection capabilities. Information is the life blood 
of analysis and analysis is the foundation for knowledge. To ensure 
information superiority we must understand and counter those threats.
The Counterintelligence Threat
    Threats from foreign intelligence entities, both state and non-
state actors, represent a growing challenge as they become more complex 
and elusive. These actors target a widening range of U.S. interests, 
from military and intelligence plans, operations and capabilities, to 
the growing threats to U.S. economic, technological, scientific and 
industrial competencies. Adversaries and traditional allies alike 
target U.S. capabilities.
Cover, Concealment, Camouflage, Denial, and Deception
    Key target countries have increased cover, concealment, camouflage, 
denial, and deception efforts to thwart U.S. technical intelligence, 
surveillance, and reconnaissance and clandestine human intelligence 
collection. Virtually every state that perceives itself threatened by 
U.S. military power and intelligence is assessing the performance of 
U.S. tactics, weapons and reconnaissance capabilities in OIF to develop 
more effective countermeasures against U.S. high-technology warfare.
Underground Facilities
    Use of underground facilities to protect and conceal WMD, ballistic 
missiles, leadership, and other activities is expanding. Growing 
numbers of underground facilities are especially notable among nations 
with WMD programs. In 2003, we have observed more than a dozen new 
military or regime-related underground facilities under construction.
Space and Space-Denial Capabilities
    Adversaries recognize the importance of space and are improving 
their access to space platforms. Worldwide, the availability of space 
products and services is accelerating, fueled by proliferation of 
advanced satellite technologies, including small satellite systems, and 
increased cooperation among states and increased activity by consortia. 
These developments provide unprecedented communications, reconnaissance 
and targeting capabilities to our adversaries because most space 
systems have military as well as civil applications.
                            closing thoughts
    The U.S. faces an assortment of existing and developing challenges, 
ranging from growing arsenals of nuclear armed ICBMs, to terrorists 
potentially armed with WMD or IO weapons, to insurgents and extremists 
attempting to destabilize our most important partners in the global war 
on terrorism. At the same time, advances in technology and increasing 
globalization have made our job of collection and analysis more 
difficult. Further complicating our task is the fact that some of our 
most productive and sensitive intelligence collection systems or their 
capabilities have been compromised, allowing adversaries to develop 
passive and active countermeasures.
    My predecessors and I have testified that the Defense Intelligence 
threat paradigm, which focused primarily on the military capabilities 
of a small set of potential adversarial states no longer addresses the 
challenges we face. Traditional concepts of security, threat, 
deterrence, intelligence, warning, and superiority are outdated. We 
must transform our people, organizations, and capabilities if we are to 
meet these new conditions, just as our adversaries pursue new ways to 
diminish our strengths.
    As I testified last year, the intelligence transformation 
initiatives--intended to improve our capability to provide warning, 
increase the quality and relevance of our all-source analysis, better 
facilitate effects-based campaigns, supply greater insights into 
adversaries' intentions, enhance preparation of the intelligence and 
operational battle-space and more effectively support homeland 
defense--continue to be the centerpiece of my tenure as Director of 
DIA. I am particularly enthusiastic about the possibilities of 
achieving Persistent Surveillance and Horizontal Integration, and the 
fielding of ``state of the practice'' information management tools and 
capabilities within Defense Intelligence to improve our ability to 
discover information and create knowledge, areas which I will highlight 
in my budget testimony later in the year.
    The Defense Intelligence community--composed of DIA, Service 
intelligence, and the combatant command intelligence capabilities--is 
working hard to refine the processes, techniques, and capabilities 
necessary to deal with the current threat as well as new and emerging 
security challenges and opportunities. As I said at the outset, our 
global war continues and has intensified. With your continued support, 
I am confident we will supply our warfighters, defense planners and 
policymakers with the knowledge they need to successfully execute their 
missions.

    Chairman Warner. Thank you, Admiral.
    We will now proceed to a round of 6 minutes per member.
    Director Tenet, I felt you gave a very comprehensive and 
pragmatic review of the situation facing Iraq in the 120 days 
or less until the turnover of sovereignty to Iraq as scheduled 
on July 1. As I look through your statement and study other 
sources of information, I think we should receive from you your 
best estimate as to what level of probability is it that 
significant civil war, civil strife, could break out such that 
the turnover of sovereignty just cannot be achieved on July 1?
    Mr. Tenet. Sir, I think I would say at this moment that we 
see the probability as low. We are very concerned about what 
Zarqawi and some of the jihadists are trying to do in 
attempting to foment sectarian violence between Sunnis and 
Shias. The reaction to the Karbala and Baghdad bombings did not 
go that way. People understood, or at least our judgment is 
people understand, that the facts on the ground did not lead 
people to demonize each community.
    So at this moment in time, while we know the jihadists want 
to create this kind of situation and perhaps what is left over 
of the Baathist insurgent elements may want to do the same, the 
political process that has emerged and the apparent intent of 
all sectors of this community to participate in this process I 
think mitigates it. We have to watch this very carefully, 
however. Trends here change very quickly. Today I would say 
there is low probability.
    In my statement I said that there is the beginning of a 
political exchange between elements in the Sunni community who 
are organizing themselves in umbrella organizations. That is a 
positive development. We need to see how far that develops and 
we need to develop it much farther.
    They need to believe that they have a stake in this, in an 
ultimate outcome. The political process has to go hand in hand 
with our ability to make security a better situation, along 
with economic reconstruction and putting projects in the Sunni 
heartland and employing young men who are standing on the 
streets.
    So we have a ways to go, and it is a question that we are 
going to watch very carefully. But today I would say it is a 
low probability, on the basis of everything we know.
    Chairman Warner. On July 1, when sovereignty is handed 
over, describe as best you can the structure of that government 
that will receive it.
    Mr. Tenet. Well, we do not know that with any precision at 
this moment in time. It may be a Governing Council or an 
expanded Governing Council, a broader range of notables. We do 
not know the answer to that question today. That is a subject 
that Ambassador Bremer and others are dealing with on the 
ground. Clearly, the Transitional Administrative Law did not 
address that question.
    Chairman Warner. Do you wish to add anything further to 
that?
    Mr. Tenet. No, sir.
    Chairman Warner. I think Ambassador Bremer and his team and 
the coalition partners deserve a lot of credit for this 
Transitional Administrative Law document that was created 
against a background of a great deal of dissension. But I hope 
that same leadership can prevail on structuring such a group, 
presumably a continuation of the current IGC in some form, that 
will have credibility within the overall Iraqi people. Do you 
think that is achievable?
    Mr. Tenet. I think that is what we have to strive for, sir, 
particularly in terms of Sunni representation. That credibility 
has to be present and I think that is what they are working on.
    Chairman Warner. Let me turn to a subject at hand--and I 
touched on it in my opening statement--and that is the clear 
difference between what we are discovering by virtue of the WMD 
program today, to the extent that has been achieved by the 
ongoing work of the force we have over there, and we made it 
clear that that work is far from complete. But I would like to 
have you describe how you view your role in gathering the facts 
and the intelligence, preparing the estimates, and how your 
role differs from that of a policymaker, be it the President, 
Secretary of State, Defense, or others, who take that 
intelligence and then extrapolate it in such a way as to make 
policy judgments. I find there is a clear difference in those 
roles.
    Mr. Tenet. Sir, our job is to portray our knowledge and to 
make the best judgments we can about what we believe to be in 
this context our judgments with regard to Iraq's WMD programs. 
Our community gathers and puts together a community document. 
It makes key judgments and findings and presents a broader 
range of views in the document. Where dissent is created, we 
portray that dissent.
    In this instance, we obviously said--the key judgments have 
been declassified--we said that we believed that they had 
chemical and biological weapons. We believed his biological 
weapons program had been energized. We believed he was 
reconstituting his nuclear program. Most agencies, even the 
Department of Energy (DOE), believed that, even though there 
was a difference of opinion on the aluminum tubes.
    We put this in context. We briefed this to the 
policymakers. The policymakers' responsibility at that moment 
is to make a determination of how they assess the risks, what 
they believe to be their course of action, and we try to give 
them the best judgments that we can. Clearly, their 
responsibility is making a determination on how to judge they 
urgency or the immediacy and what policy solutions they choose 
to take. That is not our job.
    Chairman Warner. Admiral, your function? Much the same, I 
presume?
    Admiral Jacoby. Yes, sir.
    Chairman Warner. You provide your facts and findings and 
assessments basically up through the military channel?
    Admiral Jacoby. Sir, actually I join in the Intelligence 
Community assessment process and we participate as an agency 
that also includes our Service intelligence capabilities and 
our theater intelligence capabilities in the process that 
Director Tenet just described. I also have responsibilities for 
providing direct military intelligence-related information and 
support to our decisionmakers inside the Department.
    Chairman Warner. That is the DOD?
    Admiral Jacoby. Yes, sir. That focuses much more crisply on 
specific information to support planning for or military 
operations that may be under way.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you.
    You have testified, Director Tenet, that there is a low 
risk of civil war between now and July 1 in your judgment. If 
there is no consensus on the entity to which sovereignty would 
be transferred on July 1, do you believe that there is an 
increased risk of civil strife at that time? Second, if there 
is no consensus by July 1 on the entity to which sovereignty 
would be transferred, do you think it might be wise to consider 
delaying that transfer until there is such a consensus?
    Mr. Tenet. At this moment I am just speculating. At this 
moment I can only say that nothing I see today--I will 
reiterate: low probability.
    Senator Levin. Even if there is no consensus on July 1?
    Mr. Tenet. Well, I was going to go to part two. Obviously, 
between now and July 1 the factor that we have to consider is 
the security environment, how well we are doing in terms of the 
insurgents and the jihadists, whether for example this fellow 
Zarqawi--in his letter he says March 1 is the kickoff date; we 
have 4 months until this interim authority is transferred. We 
have to work very hard to disrupt this.
    So there are some indicators, Senator, that between now and 
then--I believe that if you had an interim government or 
somebody that you could transfer to that was broadly 
representative and seen by the Iraqis as a legitimate group of 
people, it will mitigate those kind of tendencies and help us 
in the security environment.
    Senator Levin. Now, my question: If there is no such 
consensus on July 1, do you believe that that increases the 
likelihood of civil strife?
    Mr. Tenet. I simply cannot speculate today. I do not know.
    Senator Levin. Thank you.
    You and I and many others have talked about the issue of 
Iraq seeking uranium from Africa. The CIA told the British in 
September 2002 that it questioned the reliability of the 
information about that story and urged them not to include it 
in the British dossier. Then on October 1 the Intelligence 
Community published its classified NIE, now partly 
declassified, that included in its text something which is very 
different from what you were telling the British. You said: 
``Iraq also began vigorously trying to procure uranium ore, 
yellowcake.''
    Then in early October you personally called Deputy National 
Security Adviser Hadley to urge removal of the reference to 
Iraq trying to obtain uranium from Africa from the draft 
Cincinnati speech of the President on October 7. It was 
removed.
    The CIA then sent two memos to Mr. Hadley on the same 
subject. But on December 19 the State Department issued a fact 
sheet referring again to Iraq's efforts to procure uranium from 
Africa.
    This is the question that I want to ask. On January 20, 
President Bush sent a report to Congress. That report states, 
and it is with his signature, that the Iraqi declaration failed 
to deal with, ``its attempts to acquire uranium.'' So there it 
appears in a formal message to Congress, January 20, under the 
President's signature. I have asked you before; you did not 
know the answer. Do you know now whether or not the CIA 
approved that report?
    Mr. Tenet. Two parts. No, we did not approve that report. 
The second part is, it is also clear that we were wildly 
inconsistent in other submissions about this issue.
    Senator Levin. All right. The next question: On January 23 
the White House issued a report titled, ``What Does Disarmament 
Look Like.'' That report states also that: ``The declaration 
ignores efforts to procure uranium from abroad.'' Did you 
approve that language on January 20, or do you know?
    Mr. Tenet. I do not know, sir.
    Senator Levin. Thank you. Now, in August 2002 Mr. Feith 
briefed you in a classified briefing about Iraq's relationship 
to al Qaeda. That briefing was subsequently given to the NSC 
and to the Office of the Vice President. When were you aware of 
the fact that the briefing that you were given in August 2002 
was then given to the Office of the Vice President?
    Mr. Tenet. I did not know it at the time, sir. I think I 
first learned about this at our hearing last week.
    Senator Levin. So last week was the first time you ever 
knew that the Feith office was briefing the Office of the Vice 
President?
    Mr. Tenet. I was unaware of it, sir.
    Senator Levin. Then, what was your reaction to that 
briefing?
    Mr. Tenet. As I told you in our hearing last week, I spent 
about 15 minutes with him. I said, thank you for the briefing, 
and turned it over to our analysts, who then worked with their 
analysts, and did not go any farther than that.
    Senator Levin. Do you have any recollection as to whether 
that briefing was accurate or not?
    Mr. Tenet. I do not have a recollection, sir. I did not 
spend a lot of time with it.
    Senator Levin. Is it standard operating procedure for 
intelligence analysis such as that to be presented at the NSC 
and the Office of the Vice President without you being part of 
the presentation? Is that typical?
    Mr. Tenet. Well, my experience is that people come in and 
may present those kinds of briefings on their views of 
intelligence. But I have to tell you, Senator, I am the 
President's chief intelligence officer. I have the definitive 
view about these subjects.
    Senator Levin. I know you feel that way.
    Mr. Tenet. From my perspective, it is my view that 
prevails.
    Senator Levin. I am sure you do feel that way, but is that 
a normal thing to happen, that there be a formal analysis 
relative to intelligence that would be presented to the NSC 
without you even knowing about it?
    Mr. Tenet. I do not know. I have never been in that 
situation. I do not know whether it qualified as analysis or 
not. I just do not recall this piece of----
    Senator Levin. You recall the briefing?
    Mr. Tenet. Vaguely, yes, sir.
    Senator Levin. Finally, did you ever discuss with the 
Secretary of Defense or other administration officials whether 
the DOD Policy Office run by Mr. Feith might be bypassing 
normal Intelligence Community channels? Did you ever have any 
conversation like that with the Secretary?
    Mr. Tenet. I did not. I looked at my records, sir.
    Senator Levin. Thank you.
    My time is up.
    Chairman Warner. I wish to say to Senator Levin and members 
of the committee that we requested a copy of that briefing for 
the committee. It is now in our possession, in our files, 
available to any member to look at.
    Senator Levin. Well, Mr. Chairman, just on that matter, I 
did request that. It took a long time for Mr. Feith to come 
forward with that briefing. It is a slightly different 
briefing, I might say, than the one that was presented to the 
DCI. I will just have to leave it at that. I will leave out, 
because I am not allowed to say since that is still a 
classified briefing, a very significant little omission in that 
briefing as it was presented to Mr. Tenet compared to the 
briefing that was sent to us and was presumably presented to 
the Vice President's staff.
    Thank you.
    Chairman Warner. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Admiral Jacoby, the National Defense Authorization Act for 
Fiscal Year 2004 called for establishment of incentives for 
information leading to the resolution of Captain Scott 
Speicher's fate or his case. I understand that some within the 
Defense Prisoners of War (POW) Missing in Action (MIA) Office 
(DPMO) have some concern about this. I think this argument is 
absurd.
    As a matter of fact, if you go back over the actions of the 
Intelligence Community for the last 5 or 6 years, we have had 
to take the analytical capability, put it into law, and make 
sure that the Intelligence Community does an assessment in 
regard to those that we may leave behind. I would say, with all 
due respect to DPMO, not the current people that serve there, 
but people crawled out of train wrecks faster than people 
responded to Captain Speicher. As far as this Senator is 
concerned, their past policy is, if not egregious, almost 
reprehensible.
    So I would hope that you would keep us posted, as you have 
been doing, and that these incentives will be provided to get 
us the information we need. Would you care to just say yes?
    Admiral Jacoby. Yes, sir, I will, and I also will assure 
you, sir, as we have in previous briefings, that we have, 
through the ISG efforts in Iraq, not missed any opportunities 
in terms of following up information with the authorities that 
General Dayton has at his disposal.
    Senator Roberts. That effort is aggressive and ongoing?
    Admiral Jacoby. It is both aggressive and ongoing, yes, 
sir.
    Senator Roberts. Mr. Chairman, I have an observation, and 
if I go over time I apologize, but not very much. There has 
been assertion after assertion that we need an independent 
investigation of the prewar intelligence prior to OIF. Senator 
Levin has summed up the obvious real concerns that we have on 
the Intelligence Committee and this committee in his opening 
statement.
    The DCI and Admiral Jacoby spent 5 hours with us Thursday 
in the Intelligence Committee, and on Friday spent 3 hours with 
the House Intelligence Committee. Today you are going to spend 
at least 4 hours with this committee and probably a lot more to 
come, and that does not count all the hours you have already 
spent.
    Thursday you had 43 people in the committee room and we 
about asphyxiated with all the people that we had in there, and 
they represented the entire 14 agency heads of the Intelligence 
Community.
    Now, I know that there is another report coming from the 
President's Foreign Intelligence Advisory Board (PFIAB). You 
have the Kerr Review in regards to the DOD. You have the 
Inspector General. You have the CIA taking a look at your 
intelligence capabilities. You have the Intelligence Committees 
in both the House and the Senate, you have the Appropriations 
Committees in both the House and the Senate.
    You have now an independent investigation headed up by 
Senator Robb, a former colleague of ours who is eminently 
qualified, and Judge Silverman. You have all four Services 
taking a look at lessons learned on intelligence.
    That is 14 either inquiries or probes or investigations. 
You have many press partridges in the intelligence pear tree, 
starring in the Washington version of ``Lord of the Links'' and 
receiving awards from time to time. You have the House and 
Senate investigations of the September 11 situation in the last 
session. You have an independent investigation that should be 
completed in July. You have virtually every armchair expert 
with 20/20 hindsight and various conspiracies and axes to 
grind. You have 100 Senators and 435 House Members, not to 
mention all the individual groups who have a say in this.
    Are we splitting the shingle? That is a Dodge City term 
where if you hit the shingle about 17 times then you split it. 
Is there anybody left down at Langley doing their job?
    Mr. Tenet. Sir, I would say that we are spending a lot of 
time on it. I know it is important. This is a community that 
believes in oversight. With more than one, it gets difficult, 
but we will work through it. Obviously, it takes us away from 
our work, but it is an important issue and we will do the best 
we can.
    Senator Roberts. Well, let me recommend another target of 
opportunity for us. I think the only thing lacking is an 
independent commission to investigate all the independent 
commissions and the investigations.
    We on the Intelligence Committee--and it is through rather 
troubled waters--working on a bipartisan basis, have 310 pages 
of our report. We have interviewed over 200 analysts on WMD, on 
the links to terrorism, on regional stability, on human rights. 
We have added on prewar intelligence on postwar Iraq. We have 
added on the quality of the Iraqi National Congress (INC) 
intelligence that was provided; the much-discussed DOD 
intelligence cell that has just been referred to; and then use 
of the intelligence by all government officials. Note, I said 
``all government officials,'' not just the Bush administration 
but the Clinton administration and all government officials, 
and that means Members of Congress, some of whom have been so 
critical and so aggressive and so declarative in their 
statements that it is hard to figure out how they made the same 
kind of statements over about a year ago.
    Then we are going to have our draft conclusions this week. 
We are going to then go into redaction. Then we are going to be 
talking with you to see if we cannot make that report public, 
and I hope that we will have it done by April. Basically, I am 
extremely hopeful that we can leapfrog the politics in an even-
numbered year, which is probably not possible under the 
circumstances, but we are going to give it a hell of a go.
    We have a meeting this afternoon on the budget. Now, in the 
1990s we really cut the funding in regards to intelligence. We 
got to a bathtub. Now, as you well know, we have an awful lot 
of money spent on collection, not as much as we need on the 
analytical side, in regards to human intelligence. Then you 
have to rely on supplementals as opposed to the budget. That is 
wrong.
    So the House Intelligence Committee and the Senate 
Intelligence Committee can make a determined effort to try to 
fix that. So consequently, I think we bear part of that 
responsibility in regard to our Nation's intelligence efforts 
to safeguard our national security.
    I am saying this on behalf of the young CIA employees and 
officers that we met--Senator Warner, Senator Levin, Senator 
Rockefeller, and myself--in Iraq, in Pakistan, in Afghanistan, 
and they are second to none. So I am very hopeful that in our 
effort to find the truth here and shine the light of truth into 
darkness we do not do damage with regards to the esprit de 
corps of the Intelligence Community. But we will get our work 
done.
    I thank you both for the job you are doing.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Roberts.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman.
    Director Tenet, in your speech last month at Georgetown you 
said the Intelligence Community never said the threat from Iraq 
was imminent. You defended the CIA and talked about the 
difficulty of obtaining accurate intelligence, but you clearly 
put some distance between the intelligence you provided and the 
way President Bush used it to justify the war.
    The key issue is whether the threat was serious enough and 
the intelligence good enough to go to war. The National 
Security Advisor said we should not wait for ``the mushroom 
cloud.'' The White House Press Office said the threat was 
imminent. Vice President Cheney said he was convinced that 
Saddam would be acquiring nuclear weapons fairly soon. 
President Bush himself may not have used the word ``imminent,'' 
but he carefully chose strong and loaded words about the 
threat, words the Intelligence Community never used.
    To prepare the Nation to go to war against Iraq, President 
Bush said Saddam was on the verge of acquiring nuclear 
capability. He described it as a ``threat of unique urgency,'' 
``a unique and urgent threat.'' These are all quotes from his 
speech in October in the White House Rose Garden, and on 
November 20, 2002, before the North Atlantic Treaty 
Organization (NATO). I will give you the citations. He 
described it as a ``threat of unique urgency,'' ``a unique and 
urgent threat,'' ``a grave threat,'' and spoke of a ``mushroom 
cloud.''
    Did you ever use those words to describe Iraq to the 
President?
    Mr. Tenet. Sir, I think that the way we described the 
threat to the President was, and it is clear in our key 
judgments in our NIE, we believed that Saddam Hussein, in 
addition to the key judgments we made on expanding his chemical 
and biological capability, we believed that he was continuing 
his efforts to deceive us and build programs that might 
constantly surprise us and threaten our interests.
    Senator Kennedy. Did you ever tell him that he was 
overstating the case? You see him every other morning. After he 
made these statements, did you ever tell him, Mr. President, 
you are overstating the case? Did you ever tell Condoleezza 
Rice, or did you ever tell the Vice President that they were 
overstating the case? If you did not, why not?
    Mr. Tenet. Well, Senator, I do the intelligence. They then 
take the intelligence and assess the risks and make a policy 
judgment about what they think about it. I engage with them 
every day. If there are areas where I think someone said 
something they should not say, I talk to them about it. There 
are instances, obviously, with regard to the State of the Union 
speech, where I felt a responsibility to say something that the 
President said should not have been in that speech.
    But I will tell you that I have now worked on Iraq in 
consecutive administrations and I have watched policymakers 
take language from intelligence and translate it into language 
where they do the risk calculus, they think about what the 
policy implications are, and then talk about it in ways that we 
may not necessarily talk about it.
    Senator Kennedy. Well, when do you feel that they are 
misrepresenting it? What is your responsibility? I mean, when 
do you say no? You give them the intelligence. You indicated 
here that they put the sense of urgency on it. That was the 
quote. When you see this intelligence you provide being 
misrepresented, misstated, by the highest authorities, when do 
you say no?
    You cannot have it both ways, can you, Mr. Tenet? You 
cannot on the one hand just say, look, we never said that war 
was imminent, and then have these superheated dialogues and 
rhetoric which is the same as ``imminent'' and tell us here 
before the committee that you have no obligation to correct it 
or did not even try.
    Mr. Tenet. Senator, I can tell you that I am not going to 
sit here today and tell you what my interaction was and what I 
did or what I did not do, except that you have to have the 
confidence to know that when I believed that somebody was 
misconstruing intelligence I said something about it. I do not 
stand up in public and do it. I do my job the way I did it in 
two administrations.
    For policymakers, this is a tough row. Policymakers take 
data, they interpret threat, they assess risk. They put urgency 
behind it, and sometimes it does not uniquely comport with 
every word of an intelligence estimate.
    Senator Kennedy. Well, Director, I am not talking about 
parsing words.
    Mr. Tenet. No, sir, I understand that.
    Senator Kennedy. We are talking about words that are 
basically warmongering. There is a big distinction, I think. 
These are semantically the same as an imminent threat. People 
understood that. When you talk about a mushroom cloud, how much 
more imminent a threat could there be? We are now seeing that 
there was no immediate threat, and yet you hear the President, 
the Vice President, and the Secretary of Defense using that 
superheated rhetoric.
    We have to ask, what is your responsibility? When do you 
say that this is more than just my interpretation, this is 
clearly going beyond the pale? Or do you not feel that way?
    Mr. Tenet. Sir, I have a responsibility. I lived up to my 
responsibilities. I talk to our policymakers. At the same 
time--the context of what we were talking about here--the fact 
that in one of our key judgments, whether right or wrong, we 
felt and stated there was a lot that we did not know and we 
constantly felt that we might be surprised by our lack of 
access. There was a history they brought to us. There was use, 
there was the relationship with the U.N.
    At the end of the day, they made policy judgments and they 
talk about things differently.
    Senator Kennedy. But do you believe the administration then 
misrepresented the facts to justify the war?
    Mr. Tenet. No, sir, I do not.
    Senator Kennedy. Why not?
    Mr. Tenet. In policy judgments, sir, there are places where 
I intervened and I clearly talked to you about the State of the 
Union Address, or a couple of weeks ago after my Georgetown 
speech I talked to the Vice President about the fact that the 
mobile biological weapons vans, there was no consensus in our 
Intelligence Community. I think I have done my job the same way 
in two administrations.
    Senator Kennedy. My time is up, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you.
    No doubt we are in a political year, a presidential 
election year. You can tell that from some of the rhetoric. But 
I would just make the observation that I have observed rhetoric 
that was much stronger, I think, out of Members of the Senate 
than out of the President.
    Mr. Tenet, I want to commend you on your professionalism. I 
think you have done a good job in presenting the facts as a 
general rule. I feel like you have been a true professional in 
carrying on your duties. I just want to make that part of the 
record.
    I have heard you give testimony as a member of the 
Intelligence Committee, which I no longer serve on, but also 
here on the Armed Services Committee. There has been some 
criticism about the collection of intelligence, so I want to 
say this in a constructive session. I would like to know--and I 
know you have had some real challenges with intelligence 
because, for one thing, we are dealing with a closed society 
and it is very difficult to get individuals in on the ground 
that could provide us the information that we need to 
supplement what we are getting through our high technology to 
collect data.
    What is it that we can do to help improve intelligence 
gathering? Perhaps maybe you, Mr. Tenet, as well as Vice 
Admiral Jacoby could comment on that.
    Mr. Tenet. Sir, I think that we have laid out a vigorous 
collection program over the last 6 or 7 years that I have been 
Director. I would maintain my focus on continuing to rebuild 
our human intelligence, continuing to focus on collection 
capabilities that allow us to deal with deception and denial. I 
think that the budget before you has a very strong emphasis in 
precisely the areas that we need to continue to make steady 
progress in, particularly in human intelligence and special 
collection activities that allow us to defeat deception and 
denial.
    I know that we have had some significant increases in 
intelligence spending over the last 4 years that have allowed 
us to get back to a base that I think is healthy, and now we 
have to make sure that we continue to move forward while 
attracting the best people to our service, because at the end 
of the day they are what makes this work. So keeping the eye on 
the ball of rebuilding human and real close attack technical 
capabilities is what this future is all about, and I think our 
budget reflects that.
    Senator Allard. Admiral Jacoby.
    Admiral Jacoby. Senator, it is clear that we were working 
in a situation where we had large gaps of information, whether 
it was because of gaps in intelligence coverage or whether it 
was because of gaps of human intelligence penetration into 
decisionmaking and intentions. So I would ask that we look very 
hard at our intelligence collection capabilities and try to 
move from a period where we do reconnaissance where there are 
gaps in coverage to a situation where we consider our 
capabilities as a system of systems and look to achieve 
persistence, which is the ability to linger on a problem long 
enough to truly understand it.
    Human intelligence plays a major role in that, and we need 
to be thinking about how we integrate better, so that we do not 
put the pressure on the analysts' assessments and analysis to 
fill those gaps in coverage.
    Senator Allard. Thank you both for your response.
    In your testimony, Mr. Tenet, you characterized how much of 
the proliferation occurs, and I would like to kind of change 
the emphasis as to why that is happening. There are two sides 
of the proliferation problem. There is the supply side, and 
then there is the demand side. The successes that you have 
described based on the intelligence penetration of the supply 
chain and the President's proliferation security initiative 
coordinates efforts to interdict illicit supply activities.
    Could you give us your assessment as to what is fueling the 
demand for ballistic missiles, and can we decrease this demand 
cross the states of concern? Admiral Jacoby, maybe you would 
have a comment on it.
    Mr. Tenet. I think, Senator, one of the things--
proliferation begets proliferation. My possession of a 
ballistic missile, particularly in a tough neighborhood, 
immediately stimulates other countries immediately wanting to 
have a similar kind of capability. The Iranians have a Shahab-
3. The Near East is a part of the world where ballistic missile 
capability continues to grow. People acquire it.
    The complicating piece of this in the proliferation arena, 
but particularly in the nuclear arena, where we highlight a man 
like A.Q. Khan, is that the nation-state used to be the sole 
purveyor of technology and today networks of loosely affiliated 
individuals, who may not have an affiliation formally with a 
nation-state, are now providing technology and components and 
the wherewithal and a one-stop shopping mechanism that has 
complicated our life.
    But the truth is, the more of it you see, the more other 
countries want to acquire it and be in the position to have an 
equal capability. Then it leads you to weaponization, it leads 
you down a different path that causes so much concern. The 
inherent problems with covering dual-use industries that are 
compatible with chemical and biological industries and weapons 
make the job a lot tougher.
    So the continuum has to start at the front end. As you go 
down the right-hand side of the ledger, interdiction is a very 
important piece, but we have to work quite hard to stop these 
networks and countries from giving up this technology.
    Senator Allard. Admiral Jacoby.
    Admiral Jacoby. Sir, I would agree totally with sort of 
the, if you want to use the term, regional arms race, where it 
is your neighbor's capabilities and an escalating kind of 
situation. But we also need to be aware of the fact that 
proliferation of WMD is a mechanism for gaining influence, too, 
and that is a North Korea type scenario.
    So we have both of those situations. I think we need to be 
very precise in looking at the motivations, the factors behind 
them, in trying to address those motivations and factors as we 
go.
    Senator Allard. Just one more question. What is the 
prospect that North Korea, Iran, Syria, and others would follow 
Libya's lead and volunteer to divest their ballistic missile 
weapons?
    Mr. Tenet. Low likelihood at this point, I would say, sir. 
It is a good example, but I do not know that others will follow 
their lead.
    Senator Allard. Admiral Jacoby.
    Admiral Jacoby. I agree totally, sir.
    Senator Allard [presiding]. I see that the chairman has 
left, so I am now going to temporarily chair the committee. 
Senator Akaka is next.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Chairman, I want to commend the CIA for the tremendous 
job it did in ending Libya's WMD program and uncovering A.Q. 
Khan's nuclear smuggling network. That was a great effort by 
the CIA.
    My question to you concerns the seriousness of the 
Pakistani government in ending Khan's activities. You give 
Prime Minister Musharraf good grades, and Pakistan has worked 
pretty well with us. But, coming back to Khan's activities, I 
know he has confessed and he has been pardoned. Did the 
government impose any penalties on him? For example, does he 
still own his million dollar homes? Also, have we been given 
access to his interrogation reports, including his confession?
    Mr. Tenet. Senator, let me just say that President 
Musharraf has been very cooperative in this regard. I would 
prefer to talk about some of those questions in closed session.
    Senator Akaka. Thank you.
    Director Tenet, a lot of questions have been raised about 
the quality of our intelligence relating to Iraq's WMD and also 
as to whether or not Iraq's WMD was an imminent threat. I do 
not want to get into those questions. They have been pretty 
well covered already. But I do want to ask you if the NIE on 
Iraq produced in October 2002 was substantially different in 
its conclusions from the Intelligence Community document 
produced in the year 2000?
    Mr. Tenet. Sir, we can provide for the record the evolution 
of all of our judgments over the course of the last 10 years. 
Off the top of my head, I just do not have an answer, but I 
will provide that for the record. I think the committee may 
have that, but we have been writing about Iraq for 10 years. 
There were some things in this estimate and data that we 
acquired that pushed us in some directions on specific things, 
but I will provide that to you.
    [The information referred to follows:]

    Mr. Tenet did not respond in time for printing. When received, 
answer will be retained in committee files.

    Senator Akaka. News reports suggest that the Pakistani army 
is engaged as never before in the search for Osama bin Laden 
inside Pakistan. The Pakistani Intelligence Service has a long 
history of operating with a different agenda than that declared 
by the government. The Pakistani military has often been 
reluctant to go into the tribal areas where we suspect 
terrorists are hiding.
    My question to you is, are you satisfied with the Pakistani 
counterterrorism strategy and this latest effort to get Osama 
bin Laden? If not, what causes you concern?
    Mr. Tenet. Let me say this. I am very satisfied with what 
the Pakistanis are doing in the counterterrorism strategy. I do 
not think it is appropriate to talk about bin Laden or things 
that have been in the media. We should not be talking about 
those things, sir. We can talk about this in closed session, 
but I do not think it is appropriate in open session.
    But the Pakistani government and President Musharraf have 
been a key ally against al Qaeda and the gains there have been 
substantial in terms of our ability to accomplish some of the 
objectives that I talked about in my statement.
    Chairman Warner. Senator, may I interrupt to say that we 
will have a closed session following this open session in room 
SH-219.
    Senator Akaka. Admiral Jacoby, I have some questions about 
the situation in Iraq and Afghanistan that I hope you can 
respond to briefly. Senator Levin has raised in the past 
concerns about the weapons depot sites in Iraq. I wonder if you 
could tell me, how secure do those sites remain? Have there 
been any substantial thefts from them?
    We have heard a lot about trends in violence in Iraq and 
how most of those attacks have been concentrated in the Sunni 
triangle. Can you tell us if there has been an increase or 
decrease in the number of attacks in the southern part of Iraq?
    Admiral Jacoby. Senator, let me take the second question 
first. The situation in the south has been basically unchanged 
over the last 3 or 4 months--quite stable, with very small 
numbers of attacks. Frankly, what is happening in many areas of 
the south is that the population is coming forward, identifying 
troublemakers and problems before they have a chance to act, 
and the coalition is able to take preemptive action against 
them.
    For the question about the weapons storage areas, sir, we 
have a broad range of situations. We have some storage areas 
that remain intact and are guarded. There are storage areas 
that were looted prior to our arrival. I believe General 
Abizaid has characterized, maybe even to this committee, the 
large number of weapons storage areas, many of them in 
dispersed areas and very poorly maintained by the Saddam 
regime. These remain a major problem. Just the volume and the 
dispersion of those weapons by itself is an issue, sir.
    Senator Akaka. What about northern Iraq? In northern Iraq, 
where the Kurds dominate, what is the situation? Has there been 
an increase or decrease in violence against the Turkoman 
minority?
    Admiral Jacoby. Senator, there is nothing that is notable 
in terms of trends. The situation in the north remains 
basically stable and there have not been sort of targeted 
attacks on portions of the population in that area.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Dole.
    Senator Dole. Gentlemen, I appreciate the immense 
challenges the Intelligence Community must overcome to provide 
accurate and timely intelligence estimates. Our potential 
enemies attempt to conceal their capabilities and deny the very 
threats they pose to American interests. Your work, starting 
with the collection of raw information, followed by its 
analysis and fusion into a useful intelligence estimate, is 
truly an art form. I commend the Intelligence Community for its 
excellent work and recent successes. These actions can only 
help make the world a safer place.
    From your remarks I understand that intelligence 
collection, which has always been difficult against closed and 
highly secretive societies, is even more difficult and complex 
now than at any time in the past. This is a primary factor 
driving what you, Director Tenet, stated in your February 5 
speech at Georgetown University: In the intelligence business 
you are almost never completely wrong or completely right.
    With respect to intelligence collection, does the 
President's budget adequately resource the Intelligence 
Community to maintain a broad situational awareness while also 
quickly generating the needed intelligence on multiple security 
issues?
    Mr. Tenet. Yes, Senator Dole, I believe it does.
    Senator Dole. Today we are here to receive testimony on 
current and future threats to the national security of the 
United States. Unfortunately, much of the current intelligence 
debate surrounds our prewar intelligence on Iraq and whether we 
were right or wrong. Director Tenet, I support your efforts as 
well as the other inquiries which are examining what our 
Intelligence Community told policymakers compared to what they 
knew and did not know at the time.
    The work of the ISG is essential towards this end. Given 
the amount of work still ahead for the ISG, is it premature to 
make absolute statements of how right or wrong our prewar 
intelligence estimates were?
    Mr. Tenet. I think it is too early to make judgments, 
Senator Dole. I think if you look at the interim report that we 
got in October, and particularly in the biological weapons area 
where Dr. Kay talked about clandestine research facilities, 
human testing facilities, things that were denied to the United 
Nations, certainly in the missile area what we found--and I 
said in my Georgetown speech, on missiles our estimate was 
generally on target, and Dr. Kay confirmed that.
    We have made less progress in the chemical area. That 
surprises me. But I think that we are operating in an 
environment where we have a good strategic approach. The 
security environment is difficult. The Iraqis are going to have 
to help us, and I think that Charlie Duelfer, my new special 
assistant, will be coming forward at the end of the month and 
he will make a determination about how much time we need.
    But at this moment I would argue for patience to allow 
these men and women to do their work. It is important for a 
number of reasons. We want to know whether we were right or 
wrong. We want to know what the disposition of these programs 
were. We do need to understand whether there was any secondary 
proliferation, which would be of great concern to us.
    So some patience is required here, and I think the country 
will be well served.
    Senator Dole. Thank you.
    Our intelligence agencies have been accused of dismissing 
reports from Iraqi scientists, defectors, and other informants 
who said Saddam Hussein's government did not possess 
unconventional weapons. It is understandable that our agencies 
must filter reports from human intelligence sources and 
scrutinize those that lack sufficient credibility or originate 
from sources with questionable motivations. Recently the 
Intelligence Community was accused of dismissing some human 
intelligence because it did not conform to widely held beliefs 
within the administration and Intelligence Community that Iraq 
had illicit weapons programs.
    Were either of you under any pressure in any way to filter 
intelligence prior to the war in Iraq?
    Mr. Tenet. No, ma'am.
    Senator Dole. Admiral Jacoby.
    Admiral Jacoby. No, ma'am, I was not.
    Senator Dole. Would you please clarify how our intelligence 
agencies handled human intelligence reports?
    Mr. Tenet. Well, Senator, in open session I will say that 
we attempt to validate, corroborate, and seek other sources of 
data, carefully evaluate what access the individual has in 
question, and then try and test the proposition through other 
collection means. So we never take anything at face value.
    Over the course of time, just because somebody was accurate 
last year does not mean they continue to be accurate. So the 
vetting and constant testing of access and reliability is built 
into how we do our work and our professional ethic.
    Senator Dole. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you, Director Tenet, Admiral Jacoby.
    The questions that have been raised about the state of our 
pre-Iraq war intelligence and what the administration did with 
it are significant questions, but it does seem to me that it is 
critically important for all of us, both parties, particularly 
in this election year, not to let the pursuit of answers to 
those questions distract us from the immediate pressing 
challenges to our security that are occurring in Iraq, where 
momentous judgments will be made, as you have testified to, in 
the next several months, the exact same time period during 
which the election campaign here will be held; that those 
questions about prewar intelligence, important as they are, not 
distract us from focusing on the kinds of current threats to 
our security that you both have outlined in your testimony 
before us today.
    I want my questions to focus on those. You said, Mr. Tenet, 
on page 5 of your prepared testimony, unclassified: ``Mr. 
Chairman, I have consistently warned this committee about al 
Qaeda's interest in CBRN weapons. Acquiring these remains a 
religious obligation in bin Laden's eyes, and al Qaeda and more 
than two dozen other terrorist groups are pursuing CBRN 
materials. We particularly see a heightened risk of poison 
attacks. Contemplated delivery methods to date have been 
simple, but this may change as non-al Qaeda groups share 
information on more sophisticated methods and tactics.''
    That is very chilling stuff. I want to ask you first, where 
are al Qaeda and these other groups pursuing this CBRN 
capability?
    Mr. Tenet. Senator, let me tell you, if you think about a 
network of individuals who mix scientists, the technical know-
how, the search for material, you find that these networks 
stretch from the Near East to Europe, and we find them in very 
specific compartmented lines, low end to high end, with common 
facilitators, training--low end, things they learned in 
Afghanistan. We know that from chemical and biological manuals. 
Then what we carefully try to look for is seepage of material, 
access to scientists.
    This network that I am talking about, whether I am talking 
about anthrax or radiological materials, has all of these. 
These networks have all of these elements. So the concern that 
we have is high end, high impact capability. We know that this 
group continues in its quest for spectacular attacks against 
the United States or our allies, and the CBRN route obviously 
provides you with that kind of high end.
    They have technical expertise, they have money, and they 
proceed apace in seeking to acquire this capability. We can 
talk about it a little bit more in closed session, but this is 
my highest worry. I am as worried about how much we know as how 
much we do not see. So we are working quite diligently on this, 
but this is I think a very difficult and important issue for 
the future and our understanding and our action.
    Senator Lieberman. Let me ask this question. In prefacing 
it, I mention that last week General Abizaid appeared before 
this committee and we asked him, someone on the committee asked 
him, what are the major needs that he has, what are the 
greatest lessons learned at this point from our involvement in 
OIF. He said that they needed greater intelligence.
    I would invite you to respond to this. As you face these 
threats--you described the threat from al Qaeda and the more 
than two dozen other terrorist groups seeking CBRN weapons--and 
now having been--and I will allow you to correct me on this--
somewhat surprised by the revelation of the A.Q. Khan network, 
which we found through Libyan cooperation with us----
    Mr. Tenet. No.
    Senator Lieberman. --do you feel that you have adequate 
support and systems to penetrate the enemy here, both the 
worldwide terrorist network and the terrorist insurgent enemy 
that our troops and coalition partners are facing in Iraq? The 
Pentagon comes before us with supplemental requests.
    Mr. Tenet. I do too.
    Senator Lieberman. You do too. So do you have what you need 
to fill the gaps that we are finding in what we know about this 
enemy?
    Mr. Tenet. Senator, I would say--and part of this enemy, by 
the way, this fellow Zarqawi, he is part of this enemy because 
he is involved in low end poisons plotting and he is inside 
Iraq. I would say that from our perspective, we have walled off 
and protected terrorism, proliferation, and Iraq as major 
pieces of our intelligence focus and effort. So the key thing 
for me is sustaining and maintaining high-quality people to 
take these assignments. But in those areas we have intense 
focus and enormous resource allocation.
    If you were to ask me what suffers from all that, well, 
global coverage in other parts of the world probably will 
suffer, because these are our highest priorities and on 
terrorism we cannot afford to move anything but forward and 
more aggressively constantly because of what we face. Success 
begets an unknown and new people pop up, these networks that I 
am talking to you about, particularly networks that are 
springing up as you flatten the pyramid organization and 
migrate networks throughout the world.
    So we are still dealing with it. I see this same issue part 
and parcel. You have Ansar al Islam, Zarqawi, terrorists. Jihad 
in Iraq should not be separated from jihad in Iran and Kenya 
and other places. It is all part of the same network.
    So I think we would say the people and focus are there. 
Sustainability, continuing to be able to operate and bring the 
best people up there constantly, is a challenge for us. But we 
are committed to it.
    Senator Lieberman. So you have what you need for now?
    Mr. Tenet. Sir, we will be back no doubt for a 
supplemental. There is no doubt about that.
    Senator Lieberman. Admiral Jacoby, I know my time is up, 
but from a DIA point of view how would you respond to General 
Abizaid's statement--I believe I am doing it justice--that 
there is a need for improved intelligence to help him 
successfully prosecute on behalf of the coalition?
    Mr. Tenet. Sir, can I take a shot at that first?
    Senator Lieberman. Sure.
    Mr. Tenet. Look at the front end. When we first got on the 
ground, what became key to us was our ability to penetrate and 
operate in these local areas, and our military has exquisite 
knowledge of these local areas. What we have done over time is 
increase our understanding of organization, people, and 
individuals. What General Abizaid needs is more human and 
technical understanding of how these people operate, and we are 
getting better all the time and it is just an insatiable 
appetite, that is correct. We have to fill it.
    Admiral Jacoby. Senator Lieberman, the other piece of it is 
intelligence embedded in our military services. General 
Abizaid's need right now is for people in his brigades and 
divisions that have the cultural, language, whatever skills 
that it takes to be able to penetrate at the local level, 
understand intentions, dynamics, and plans for attacks on his 
forces.
    Sir, we are not where we need to be on the tactical level 
with those kind of capabilities and so there is an issue there 
for us to be able to rebuild back into our service structure 
tactical human intelligence, tactical counterintelligence, some 
of the other things that allow him to deal with those issues.
    Senator Lieberman. Thank you both very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Tenet and Admiral Jacoby, we appreciate your service. I 
recently had, Mr. Tenet, the opportunity to talk to a young 
woman employed by the CIA who had volunteered to spend time in 
Iraq. She tells me that 15 hours a day, 6 days a week, they are 
working. I know Defense Intelligence is also--there is an 
intense understanding that the gathering and assimilating and 
understanding intelligence saves lives of American soldiers. It 
can eliminate threats on our homeland by your people.
    I want to say, I appreciate what they do. They are serving 
America just as certainly as those who wear the uniform are 
serving America. In the course of our complaints and second-
guessing and roarings about how we can do better, we ought not 
to in any way forget the valuable contribution that the 
personnel that you supervise are providing our country.
    We also need to be appreciative of the fact that we have 
gone further than most of us ever thought possible without 
another homeland attack. That is a fact that is something to 
celebrate. We know that any day something can happen. It 
worries us all. I know it concerns you. But we have had that 
success.
    A number of things have been brought to my mind as to what 
we can do better post-September 11 about our intelligence 
agencies and work. Number one, I will ask the both of you 
briefly: Is there better coordination between the agencies? Is 
there better coordination, and have the changes that I 
understood you were making that would allow the FBI, CIA, and 
DIA and other agencies to share information more effectively, 
are those working?
    Mr. Tenet. Yes, sir. I think that the creation of the 
Terrorist Threat Integration Center (TTIC) has proceeded apace. 
We now have DIA, CIA, and FBI personnel and 14 integrated 
databases sitting in one place. We have one institution that 
has primary responsibility for the writing and identifying the 
foreign and domestic threat. There is a seamless interaction in 
the analytic piece with both the CIA and the FBI operators.
    Is there still room for improvement? Yes, there is. Are we 
in a much better place than we were 2 years ago? Absolutely. I 
think that this TTIC and the new information architectures and 
sharing architectures that we are bringing to bear and the 
collaboration it is fostering analytically is a major 
improvement over where we were a number of years ago.
    Admiral Jacoby. Senator, from our standpoint, besides what 
the Director talked to, the interaction between my agency with 
the Department of Homeland Security (DHS), FBI, access 
particularly to the National Security Agency's (NSA) data, and 
our direct involvement with the U.S. Northern Command 
(NORTHCOM) out in Colorado Springs as the defense component in 
the security structure, all of those are new capabilities that 
are in place and they are all growing and being strengthened.
    Senator Sessions. One of the things, Mr. Tenet, I think 
that we perhaps have not thought enough about is the 
significance of Pakistan's decision when the President 
challenged Pakistan and urged Pakistan to place its future with 
peaceful nations and not terrorist nations. Their intelligence 
network had been criticized as being too friendly to some of 
these entities.
    What is your evaluation, briefly, of the progress we made 
in the war against terrorism by Pakistan's choosing to be 
cooperative?
    Mr. Tenet. I would say, Senator, that it is one of the 
dramatic strategic shifts that have occurred since September 11 
that have allowed us to be successful against a great number of 
al Qaeda operatives. So you watch the ledger carefully and you 
watch all of this, but, quite frankly, Pakistani cooperation 
with us has been absolutely instrumental.
    Senator Sessions. I think your agency deserves credit for 
helping make that come about. With regard to A.Q. Khan and the 
nuclear proliferation, we have talked about nuclear 
proliferation for decades in this country. Now we find out that 
in fact, while we were talking about it, we were proliferating 
from Pakistan to North Korea to Libya to Iran to Iraq, and that 
has ended, it appears.
    Mr. Tenet. Sir, there is no evidence of A.Q. Khan's 
relationship to the Iraqis.
    Senator Sessions. Those connections have ended with this 
renunciation by Pakistan and A.Q. Khan?
    Mr. Tenet. Well, sir, without going into it in open 
session, there is a lot more in terms of what we did to this 
network around the world that gives us great comfort that we 
have done a pretty good job here. There are still some things 
we have to work on, but let me just leave it at that.
    Senator Sessions. All right. I think we can conclude at 
least that part of the network, if his confession is correct, 
has been significant and that Libya has now renounced that. Do 
you see significance in Iran's willingness to allow the U.N. 
inspectors to come in on the nuclear question? Could you 
evaluate that for us?
    Mr. Tenet. As I said in my statement, there is good news 
and bad news. The good news is that the Iranians maintain that 
there is a low enrichment program there and nothing more. The 
bad news is that they may also be attempting to conceal 
something that is worrisome to us. To go from a low yield to a 
higher yield of uranium enrichment, technically is not very 
difficult, and from a red line perspective our understanding of 
it may be difficult.
    But look, disclosure is a good thing and we ought to work 
with it, keep our eye on it, keep our eye on the data and see 
where it takes us.
    Senator Sessions. Well, all in all I think there have been 
a number of things of significance that have been accomplished. 
I think General Petraeus, our commander of the 101st Airborne 
in Mosul, said recently that you cannot just put a stake in the 
heart of terrorism. There is not one heart that you can stick 
it in that is going to solve this problem once and for all. It 
will be a long-term struggle and battle.
    Thank you for what you do. I believe we have made progress. 
I think there is more progress to be made.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Clinton.
    Senator Clinton. Thank you very much. I apologize, my voice 
is terrible.
    I thank both of you for your service. I think the real crux 
of the questions comes down to, number one, our support for 
your efforts, our understanding of their vitality to our well-
being, and yet at the same time legitimate questions about our 
capacity and about the use of intelligence.
    I have been troubled in the last couple of days by comments 
coming from certain sources about whether or not the Iraqi 
defectors were providing accurate information. Admiral Jacoby, 
I understand from news reports that the DIA has concluded that 
almost all the claims made by Iraqi defectors about Saddam 
Hussein's alleged secret weapons were either useless or false. 
What is your view of the intelligence on WMD provided by Iraqi 
defectors?
    Admiral Jacoby. Senator Clinton, we could go into detail in 
closed session. In open session, I would tell you that that 
news report does not accurately reflect reality. In our 
opinion, there are some situations where the information has 
been verified and corroborated through multiple sources. There 
have been other situations where we believe that information 
was either fabricated or embellished.
    It is a situation that we have in other human intelligence 
operations where the information spans a pretty broad range of 
veracity and we need to go into the situation, very much like 
we do in any human intelligence situation, with our eyes wide 
open, looking to verify, confirm, and continue to do that even 
as we work with various sources.
    Senator Clinton. Do you know if any defectors with whom you 
and your agency dealt with also were given an audience with and 
worked with Assistant Secretary Feith's Office of Special 
Plans?
    Admiral Jacoby. Senator Clinton, I have no knowledge of 
that.
    Senator Clinton. You just do not know?
    Admiral Jacoby. I just do not know, I am sorry, just to 
make sure I am clear.
    Senator Clinton. Director Tenet, this week on ``60 
Minutes'' Ahmed Chalabi stated that he wants to come and 
testify before the Senate Intelligence Committee in open 
session. I, for one, think that is an invitation we ought to 
accept. He accused U.S. intelligence of making bad use of the 
defectors that he steered to us. Specifically, in referencing 
U.S. intelligence Chalabi said, ``I mean the people, the 
intelligence people, who are supposed to do a better job for 
their country and their government did not do such a good 
job.''
    How do you respond to Mr. Chalabi's statement?
    Mr. Tenet. Well, Mr. Chalabi is an interesting man. He has 
an interesting history and I think hearing him would be 
interesting. I guess I do not have much of a response to it, 
Senator. We will just leave it at that.
    Senator Clinton. Also on that program it was disclosed that 
we, I guess meaning the United States Government, I assume 
through the CIA, is continuing to pay the Iraqi Congress 
$350,000 a month.
    Mr. Tenet. We are not paying them.
    Senator Clinton. Admiral, are you paying them?
    Admiral Jacoby. Senator, you have me in a situation where 
this would be best dealt with in closed session. I could give 
you details.
    Senator Clinton. Director Tenet, with respect to Zarqawi, 
who I think you have rightly identified as one of our most 
dangerous enemies currently, there was a recent report on NBC 
News in June 2002 that reported U.S. officials say intelligence 
had revealed that Zarqawi and members of al Qaeda had set up a 
weapons lab in northern Iraq producing ricin and cyanide and 
that the Pentagon quickly drafted plans to attack that camp 
with cruise missiles and air strikes and sent it to the White 
House, where, according to U.S. Government sources, the plan 
was debated to death in the NSC.
    Four months later, intelligence showed Zarqawi was planning 
to use ricin in terrorist attacks in Europe. Again, the 
Pentagon drew up a second strike plan and the White House again 
killed it.
    Did we miss an opportunity to get Zarqawi?
    Mr. Tenet. I read the same newspaper report. I do not know 
that Zarqawi was up there at the time, Senator. I do not know 
that the report accurately reflects the give and take of the 
decisionmaking at the time. So I will just leave it at that in 
open session.
    Senator Clinton. Also, with respect to this continuing 
question about the quality of intelligence--and I do think 
that, frankly, the people we should be talking to in closed, 
open, or any session are the people who are the policymakers, 
because I think you have made very clear what you have tried to 
do with respect to providing intelligence. But I was struck by 
a comment by Mr. Kay that was reported in the British newspaper 
The Guardian last Wednesday. Mr. Kay said, it was time ``for 
President Bush to come clean with the American people and admit 
that he and his administration were wrong about the presence of 
WMD.''
    Dr. Kay went on to say that he was worried that our 
intelligence would lose credibility, not only among our allies, 
but I would assume among others as well, and concluded by 
saying: ``The next time you have to go and shout there is fire 
in a theater, people are going to doubt it.''
    I do not think any of us on this committee doubt the 
seriousness of the attacks we face and I am personally very 
grateful and impressed with all the work that has gone on to 
roll up networks and diminish their effectiveness. But it is a 
legitimate point that Dr. Kay makes, that if we are going to be 
waging an ongoing struggle against terrorism it is clear that 
we have to rely on intelligence and we have to persuade others 
of the intelligence.
    Do you have a response to Dr. Kay's comment?
    Mr. Tenet. Yes. I would say, Senator, first of all, whether 
we are wrong or right is an important professional judgment for 
us to reach. That is why we are going through all of this. I 
would say that we are not--and I have said publicly--we are not 
going to be all wrong or all right. We have to critically--and 
we are and the committees are--assess every bit of intelligence 
that we have collected, what our shortfalls were.
    I tried to get up in a public statement at Georgetown and 
basically say, here is my bottom line today, here is what I 
think was good, here is what I think did not work so well, here 
is where I think we are in all of these major issues. There is 
no other community of people that take this as seriously as we 
do. Our credibility matters. It matters on terrorism and 
proliferation and other issues.
    So open, honest debate, telling the truth, standing up when 
we come to conclusions, is what we are about in this country. 
Many of our allied services, quite frankly, saw this the same 
way as we saw it. We were all playing off the same sheet music. 
Well, that is just not good enough. In this society we have to 
give people the confidence that we know what we are doing.
    If we were in error, we have to be willing to stand up and 
say so. The only thing I say is, I think that the men and women 
on the ground in Baghdad who work at the ISG, who I visited 2 
or 3 weeks ago, do not believe their job is done. They still 
think they have a lot of work to do, and I think we need some 
patience to find out the additional data that they will give 
us, and we will report it honestly.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    I intended to really get into something else, but because 
of the line of questioning of Senator Levin and Senator 
Kennedy, Director Tenet, I want to make sure that we have 
something perfectly clear in the record. As DCI, you are the 
person responsible for providing the President of the United 
States with the intelligence that has been gathered relative to 
any threat to America; is that correct?
    Mr. Tenet. Yes, sir, that is correct.
    Senator Chambliss. You provide the President with a 
briefing on a daily basis relative to the information that has 
been gathered under your direction, the analysis of that 
information, and the correctness or your best judgment as to 
that information; is that correct?
    Mr. Tenet. I do.
    Senator Chambliss. Now, by comparison, you say you do this 
on a daily basis, and this is George Tenet, the Director of the 
CIA, giving that briefing; is that correct?
    Mr. Tenet. That is correct, along with the briefer.
    Senator Chambliss. By comparison, did you provide that same 
type of daily briefing to President Clinton?
    Mr. Tenet. No. The former president took his daily briefing 
and read it and provided us extensive comments. He was a 
reader. He took his daily briefing differently. Different 
styles for different people. But he was very responsive to us 
and wrote us a lot of questions and certainly was steeped in 
what we wrote to him.
    Senator Chambliss. By the same token, he received daily 
briefings just the same as you are giving this President?
    Mr. Tenet. Yes, sir.
    Senator Chambliss. Just in a different form?
    Mr. Tenet. Yes, sir.
    Senator Chambliss. Now, in October 2002 a document called 
the NIE, a declassified copy of which I hold in my hand, was 
prepared by you or under your direction; is that correct?
    Mr. Tenet. Yes, sir.
    Senator Chambliss. At the time that document was prepared, 
did you feel that all the statements in that document were true 
and accurate?
    Mr. Tenet. Sir, our community coordinated on this and our 
community's best judgment was these were our best judgments. 
This is what we believed to be true.
    Senator Chambliss. Was there anything in that document that 
was intended to be or was in your opinion misleading or 
inaccurate?
    Mr. Tenet. Well, no, sir. At the time we wrote the document 
I thought we wrote an accurate document. We have since been 
providing our oversight committees--we have gone back and shown 
them places where we think we could have been more technically 
correct. Obviously, now that we are on the ground in Baghdad 
and finding things out, we are reevaluating the document from 
that perspective as well.
    Senator Chambliss. I do not want to read the whole 
document, but I want to read the first sentence under ``Key 
Judgments,'' which is the first paragraph: ``Iraq has continued 
its weapons of mass destruction programs in defiance of U.N. 
resolutions and restrictions. Baghdad has chemical and 
biological weapons, as well as missiles with ranges in excess 
of U.N. restrictions. If left unchecked, it will probably have 
a nuclear weapon during this decade.''
    On that same page, under the section of ``Nuclear 
Weapons,'' this document says: ``If Baghdad acquires sufficient 
weapons-grade fissile material from abroad, it could make a 
nuclear weapon within a year.''
    Again, at the time that document was prepared in October 
2002 you felt like those facts were true and accurate; is that 
right?
    Mr. Tenet. Yes, sir.
    Senator Chambliss. Intelligence is an ongoing process, is 
it not? You gather something today, it may change down the 
road. I think you adequately expressed that.
    Was this the information that you, George Tenet, as 
Director of the CIA, passed on to the President of the United 
States on a regular daily basis?
    Mr. Tenet. Yes, it was.
    Senator Chambliss. Now, I want to move on to something 
else. Following September 11--this I direct to both of you. 
Following September 11 there were a number of deficiencies that 
were pointed out to exist within the Intelligence Community. 
Just highlighting a couple of these, there were problems in 
gathering intelligence. We know we had some deficiencies on the 
human side. We know that there was a lack of linguists to be 
used in interpreting or immediately finding out what exactly 
the messages were that we were intercepting.
    We know there was a shortage of analysts, and both of you 
know that I was primarily concerned with the problem regarding 
information-sharing between our intelligence agencies.
    Now, to each of you: In the period from September 11--or 
leading up to September 11--to the time that we engaged in the 
conflict in Iraq, what changes were made in your respective 
agencies relative to these deficiencies in the Intelligence 
Community, and how did that benefit you in providing 
information relative to WMD in Iraq?
    Mr. Tenet. Well, sir, in each of the areas, on the human 
intelligence front I think we would say, without going very far 
here, that we have made important strides in penetrating 
terrorist organizations. I would say, with regard to linguists, 
this is still a problem for the Intelligence Community. We all 
have programs in place to recruit, train, and increase language 
programs. This is a tough nut. We are still not where we need 
to be on languages, although we are working quite hard at it.
    In terms of a shortage of analysts, we are in better shape 
today than we were 2 years ago, sir. But we still have--and it 
is reflected in the President's budget request--a significant 
augmentation of analysts over the next 5 years. We need more 
people to do these jobs. On information-sharing, I would say, 
as we described previously, we are in better shape than we 
were. TTIC, information-sharing, integration with the FBI, as 
Admiral Jacoby has said, all that is in better shape. There is 
still a ways to go, to be sure, particularly with connectivity 
with States and locals and pushing data out to the rest of the 
country. That is a homeland security responsibility. But I 
think in all of these areas we are in better shape.
    Admiral Jacoby. Senator, I join the DCI on the human 
intelligence comments. On linguists, we are for the first time 
probably in DIA's history in a situation where we can hire 
significant numbers of analysts. It is the beginning of the 
turnover of the people coming to retirement age and growth and 
so forth.
    I am very heartened by not only the number of people that 
we are attracting to the DIA, but the breadth of language 
skills and depth of the language skills in some of what we call 
the low density languages that are so important for the world 
of today and the world of the future--young people who have 
lived overseas, maybe studied overseas, and have near-native 
skills. So I think we are in a situation here where we are 
seeing a far quicker improvement than I might have anticipated.
    Our analyst growth since September 11 basically has been in 
the counterterrorism area. We took a view that we are in this 
for the long haul and we are hiring and developing analysts 
with that kind of view. We are right on track and I am very 
heartened by the skills and capabilities that we have in people 
that we brought on board as part of that program.
    However, we have had very little growth except for specific 
targeted growth in analytical skills and other areas. For 
instance, you might know we targeted China for growth. Well, 
there are other areas that you will see in our request to do 
the same kind of targeting long-term, to focus growth in other 
areas.
    In the information-sharing area, things are significantly 
improved, and I continue to push very hard personally and as 
the head of Defense Intelligence for the application of modern 
information management techniques that will allow us to work, 
our analysts to work much better in that large mass of data 
than the way we have information organized today.
    So I would offer that as an area that needs to be folded 
into the information-sharing discussion. It is a place where we 
can leap forward very quickly, I believe.
    Senator Chambliss. Mr. Chairman, I know my time has 
expired, but if I could take 30 seconds just to say to these 
gentlemen, and I said it in closed session the other day in the 
Intelligence Committee: We criticize you all the time and that 
is part of our job, to do oversight. But when you do something 
right, we tend not to commend you. Based upon the work that you 
have done in improving each of your respective agencies over 
the last almost 2\1/2\ years now, I guess, since September 11, 
as well as the work that you have done before, the job that you 
did in providing intelligence, gathering intelligence, 
analyzing it and putting boots on the ground to capture Saddam 
Hussein, it shows how far our intelligence agencies have come. 
I commend both of you for working very closely together, as I 
know you did in that exercise, to make sure that your plan came 
together exactly as it was devised.
    So thank you for the job that you are doing.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Tenet, I want to pick up on a line of questioning the 
chairman started and Senator Kennedy also amplified about your 
role as you perceive it. Do you believe that when there is a 
disagreement among intelligence agencies or analysts, which is 
often the case, that the administration can pick whatever 
opinion they think is most convenient and that you have no 
public obligation to correct that view?
    This is particularly, I think, interesting in the context 
of many statements the Vice President made on ``Meet the 
Press'' in March 2003: ``We believe he has in fact 
reconstituted nuclear weapons.'' I do not know if that factual 
conclusion had been reached by an intelligence agency. ``Meet 
the Press'' in 2002: ``We do know with absolute certainty that 
he is using his procurement system to acquire the equipment he 
needs in order to enrich uranium, to build a nuclear weapon. 
With absolute certainty.''
    What is your role?
    Mr. Tenet. Sir, my role is to report the intelligence, and 
if I think a senior policymaker has strayed, assuming that I am 
listening to everything that everybody says, which I do not do, 
I will go in and talk to them about what we think, the 
divisions of opinion, how this is more correctly stated, and 
leave it at that. That is my job.
    Senator Reed. So I presume you watch ``Meet the Press''?
    Mr. Tenet. Well, I usually do not, sir.
    Senator Reed. Well, Tim Russert is disappointed.
    Did you correct the Vice President's statement privately?
    Mr. Tenet. I do not know that I did in this instance. I do 
not know that I listened to it or was made aware of it.
    Senator Reed. So no one made you aware that the Vice 
President of the United States said that with absolute 
certainty we know that Iraq is reconstituting its weapons 
procurement system at least; and then, right before military 
operations, said as a fact they have reconstituted their 
nuclear weapons?
    You were not aware of that?
    Mr. Tenet. Our NIE did say that he is reconstituting his 
nuclear program.
    Senator Reed. As a fact.
    Mr. Tenet. We said in our ``Key Judgments'' that he is 
reconstituting.
    Senator Reed. Well, the opinion again of the State 
Department Bureau of Intelligence Research (INR) in October 
2002 was that this was not entirely factually confirmed. But 
also, I think just that week it appeared that the IAEA had 
concluded that they had not found any evidence, and they 
apparently were on the ground.
    Mr. Tenet. Our intelligence judgment on the reconstitution 
question is all agencies except INR believed he was 
reconstituting his nuclear weapons program. DOE, which did not 
believe aluminum tubes were being used in this enrichment 
effort, still believed he was reconstituting his nuclear 
weapons program on the basis of his other procurements, the 
assembly of scientists, other issues that are clearly spelled 
out in the NIE.
    So we did take the position in the NIE that he was 
reconstituting.
    Senator Reed. But you indicated that even if you took a 
contrary view, you would not publicly say anything at all?
    Mr. Tenet. Sir, I do not do my job that way. That is not 
how I--I do not think a Director--I do my job the way I have 
done it for 7 years, and if I am aware of something needs to be 
corrected I go correct it.
    Senator Reed. Can I return to the Cheney quote. It was: 
``We believe he has in fact reconstituted nuclear weapons.'' 
Not ``a nuclear weapons program,'' not ``a program,'' but 
``nuclear weapons.''
    Mr. Tenet. No one said he had a nuclear weapon.
    Senator Reed. Pardon?
    Mr. Tenet. We did not say he had a nuclear weapon. We in 
our NIE said we do not believe he has one. It would take him 5 
to 7 years. If he had fissile material, we think he could get 
there within several months to a year.
    Senator Reed. But this says, ``We believe he has in fact 
reconstituted nuclear weapons.'' You were unaware of that 
statement, or you did not make any attempt to correct that 
statement?
    Mr. Tenet. Well, sir, I am told the Vice President may have 
corrected that statement himself. I was not aware at the time, 
no.
    Senator Reed. When did he correct the statement?
    Mr. Tenet. Well, apparently, I am told, he later said he 
misspoke and he meant to say ``programs.'' I do not know that 
personally.
    Senator Reed. Mr. Tenet, again I am just troubled that 
these statements would be made and that you have no 
recollection of privately counseling the Vice President and 
certainly no record publicly of doing it until much after the 
fact, and it is troubling.
    Let me turn to another topic. Having listened to your 
presentation about the worldwide threats, it could be I think 
concluded from your remarks that, while we are bogged down in 
the Iraq, an agile, decentralized, and ruthless enemy plots 
against us worldwide.
    Mr. Tenet. Yes, an enemy that we are covering very well and 
we have good knowledge of because we have maintained a very 
healthy counterterrorism operation.
    Senator Reed. There is no conflict in terms of resources or 
personnel?
    Mr. Tenet. The conflict, Senator, comes in other parts of 
the world. As I said previously, Iraq and the worldwide war on 
terrorism and proliferation are the highest priorities. There 
are one or two others that I do not want to talk about in open 
session. The sacrifice we are making to cover these is 
occurring in global coverage in other places. But in terms of 
our laser-like focus, we have not taken or diverted anything 
from the war on terrorism.
    Naturally, linguistic skills become an issue because it is 
the same Arabists. The pool is limited. But our focus is very 
important in both of those areas.
    Senator Reed. So your focus is worldwide, but the thrust of 
your comments were almost entirely dedicated to the situation 
in Iraq, the stakes in Iraq. It seems again to me that you are 
committing huge resources. You recognize the worldwide threat.
    Mr. Tenet. Yes.
    Senator Reed. But you are committing huge resources, both 
political in terms of the administration and also logistical by 
the CIA, to an area which does not fully counter this worldwide 
threat.
    Mr. Tenet. Well, I do not think that is true. I have an 
Ansar al-Islam network and a Zarqawi network that are part of 
this network. They are part of the war on terrorism inside 
Iraq.
    Senator Reed. When did they enter Iraq?
    Mr. Tenet. Mr. Zarqawi was in Iraq well before hostilities, 
where he had a couple of dozen Egyptian Islamic Jihad (EIJ) 
operatives. The Ansar al-Islam was operating up in Kermal well 
before the hostilities. So we have this network and his 
organization, back and forth over borders, operating well 
before we went into Iraq.
    Senator Reed. Well, my time has expired, but it is I 
think----
    Chairman Warner. Senator Cornyn, before you speak I would 
like to take a moment of your time. It has been my privilege to 
serve on this committee for over 25 years. Prior thereto I 
spent more than 5 years in the Department of the Navy and the 
Navy Secretariat. I have dealt with every national security 
adviser beginning with Secretary of State Kissinger, who 
previously was the security adviser to President Nixon.
    I can tell you, it has been my experience that Mr. Tenet 
has performed his services consistent with his predecessors, be 
they under Democratic administration or Republican 
administration. It is a confidential relationship between the 
DCI and the President and the Cabinet officers. I think when he 
makes his statement, that is my job, that in my opinion is 
consistent with his predecessors. It is a confidential 
relationship.
    He has stated very clearly that there are times when he 
felt the necessity to express his views, which may well have 
been at variance with the policymakers. But in the end he is 
not their keeper.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Director Tenet, Admiral Jacoby, thank you for your service.
    In reflecting back on the state of knowledge of the 
Intelligence Community, back just months and maybe a couple of 
years ago, certainly at a time when everyone agreed that Saddam 
was a gathering threat to the security of this country in terms 
of proliferation of WMD, the vice chairman of the Senate 
Intelligence Committee, the current vice chairman, made this 
comment. He said:
    ``Saddam's existing biological and chemical weapons 
capabilities pose real threats to America today and tomorrow. 
Saddam has used chemical weapons before, both against Iraq's 
enemies and against his own people. He is working to develop 
delivery systems like missiles and UAVs that could bring these 
deadly weapons against U.S. forces and U.S. facilities in the 
Mideast. He could make these weapons available to many 
terrorist groups and third parties which have contact with his 
government. Those groups in turn could bring those weapons into 
the United States and unleash a devastating attack against our 
citizens. I fear that greatly.''
    That statement, made by the current vice chairman of the 
Senate Intelligence Committee on October 10, 2002, would you 
characterize that as the best judgment of the Intelligence 
Community at the time, Director Tenet, Admiral?
    Admiral Jacoby. Sir, I believe the best judgments of our 
community are as stated in the NIE and I think pretty concisely 
laid out there.
    Senator Cornyn. Director Tenet?
    Mr. Tenet. I think it comports with what we said in our 
NIE.
    Senator Cornyn. We all know that terrorism did not begin on 
September 11, and there had been previous attacks against this 
country, one of which was the bombing of the World Trade Center 
in 1993. In 1994 there was an attempt made here in the United 
States Congress to cut the intelligence budget by $1 billion, 
in 1994, 1 year after the World Trade Center bombing. In 1995 
there was another proposal made here in the United States 
Senate to cut the intelligence budget by $1.5 billion.
    Could you please characterize, Director Tenet, what kind of 
impact cuts of that magnitude would have had on our ability to 
conduct intelligence operations?
    Mr. Tenet. Sir, depending upon whether they were enacted 
and how the cuts were taken, obviously resources are important 
to us. A billion dollars in our business in that time period 
was a lot of money and probably would have been very hurtful.
    Senator Cornyn. Admiral Jacoby.
    Admiral Jacoby. Sir, we were in Defense Intelligence, and 
now talking more broadly than just DIA, coming out of the early 
90s peace dividend period, where a significant amount of 
intelligence force structure was cut. So if we would have been 
taking those kinds of cuts then in the mid-90s it would have 
compounded the problem significantly.
    Senator Cornyn. The specific proposal that was made in 1995 
would have cut $300 million for each of the fiscal years 1996, 
1997, 1998, 1999, and 2000. What I understand each of you two 
gentlemen to be saying is it would not have been helpful. It 
would have been hurtful to our country's ability to conduct 
essential intelligence operations.
    Mr. Tenet. We would agree with that, sir.
    Senator Cornyn. Director Tenet, in your speech at 
Georgetown you noted that, ``Unfortunately, you rarely hear a 
patient, careful, or thoughtful discussion on intelligence 
these days.'' Of course, that is even more true during the 
presidential election season.
    But in fact, do you agree that, as characterized earlier, 
Saddam fully intended on reconstituting his WMD programs, 
whatever it is they were?
    Mr. Tenet. Sir, I think what our NIE said is we judge that 
he is continuing his WMD programs in defiance of U.N. 
resolutions and that he has chemical and biological weapons as 
well as missiles with ranges in excess of U.N. restrictions, 
and the judgments are clearly stated out. Those were the 
judgments of our community in October 2002.
    Senator Cornyn. When Dr. Kay testified before this 
committee, I asked him about the risk of a willing seller 
meeting a willing buyer of such weapons, whether they be large, 
small, or otherwise, and asked him whether he considered that 
to have been a real risk in terms of Saddam's activities, the 
risk of proliferation. Dr. Kay said, ``Actually, I consider 
that to be a bigger risk than''--interpolating here; he said 
``the stockpiles.'' He said: ``Actually, I consider it a bigger 
risk.'' That is why I paused on the preceding question. He 
said, ``I consider that a bigger risk than the restart of his 
program being successful.''
    Admiral Jacoby, do you agree with Dr. Kay's statement in 
that regard?
    Admiral Jacoby. Sir, one of my major concerns, frankly, is 
the proliferation of the knowledge base. The risk of having 
scientists that worked on various programs available for 
movement to other areas or for involvement in an extremist 
network that has this sense of goals is a concern that we ought 
to all have very clearly in mind.
    Senator Cornyn. Director Tenet, would you comment, please?
    Mr. Tenet. Obviously, secondary proliferation in this 
context is something that worries us. I do not know that I 
worry about it less than the existence of these weapons, but 
obviously the transport of things over borders and the sale of 
things to individuals, whether they be terrorists or other 
people, would be of enormous concern as well.
    Senator Cornyn. Thank you very much, gentlemen.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I want to join my colleagues, Director Tenet, in thanking 
you for your public service. When I think of all that you have 
on your plate, things going on in Iraq, Afghanistan, the global 
war on terrorism, Haiti, Israel, Palestine, North Korea--we 
could go down the list--it reminds me of an old saying in 
Arkansas, that I feel like you have more poured out than you 
can smooth over. You really do have a full plate, and we do 
appreciate your public service.
    Mr. Tenet, you filed a report, an inquiry to the FBI in 
July 2003 regarding a leak by senior administration officials 
over the revealing of the name of an undercover CIA agent. The 
first question I have for you on that is, can you advise this 
committee on the impact that that leak has had on morale in 
your agency?
    Mr. Tenet. Well, obviously, sir, our folks take their 
standing and their classified status and their operational 
status quite seriously. So it was a worrisome event.
    Senator Pryor. Can you tell the committee today of the 
impact that that leak has had on your agency in gathering 
intelligence?
    Mr. Tenet. Sir, I cannot make any dramatic judgments about 
that. I think we are on our way with our work.
    Senator Pryor. I know that you initiated an internal damage 
assessment. Can you talk about that in open session?
    Mr. Tenet. No, sir, I cannot.
    Senator Pryor. Is that better held until a closed session?
    Mr. Tenet. Yes.
    Senator Pryor. I know that there is a grand jury 
investigation led by U.S. Attorney Fitzgerald, and, if you can 
say, has the CIA turned over all documents and granted all 
interviews requested by the U.S. Attorney?
    Mr. Tenet. I assume we have, sir, but I am not involved in 
it. I believe we have.
    Senator Pryor. You do not know of anything you have not 
fully cooperated with?
    Mr. Tenet. My General Counsel tells me that we have turned 
over all documents that were required.
    Senator Pryor. Great. Thank you.
    I am sure you have noticed in the last few days that Mr. 
Blix has been in the news again. This time he was, I guess you 
can say, critical of Tony Blair and basically he, in trying to 
frame this up, said that he felt like Prime Minister Blair 
lacked critical thinking when it came to deciphering 
intelligence and trying to make policy decisions. As I 
understand it, there was not uniform intelligence-gathering 
that there were WMD in Iraq, that there was some possibly--I 
think you mentioned this in answer to some of the other 
questions--that there were possibly some scientists and 
defectors that had said that there were not WMD and there was 
not an active program there.
    But here is my question. In a sense, the prewar 
intelligence and the events leading up to the war in Iraq 
really pitted our intelligence against the inspectors that Hans 
Blix had overseen. Now, knowing what you know and looking back 
on it, having the perspective of a little bit of time that has 
passed, were the inspectors right after all? Is it your view 
that Saddam Hussein did not have an active WMD program?
    Mr. Tenet. Well, I do not know that it pitted us against 
the inspectors, Senator, since I think we were trying to help 
the inspectors. But I do not have--I do not know that the 
inspectors have concluded in some formal way that he did not 
have weapons. I know that there was a report filed, but I also 
know that the inspectors noted their concerns about 
discrepancies with the data declaration that was provided and 
their concerns they had going back to 1998. There were many 
unresolved issues on the part of Saddam with regard to the U.N. 
inspection.
    So I am not aware that there is some formal piece of paper 
out there that they have filed with us that said he did not 
have any weapons.
    Senator Pryor. That may be fair.
    Let me jump countries if I can and ask about Afghanistan. 
One of the things I am disturbed about--as I know other members 
of this committee are--is the rapid increase in opium and poppy 
production in Afghanistan. To me that seems to be not only 
possibly a result of the lawlessness in Afghanistan, but also 
it seems to be something that will lead to more lawlessness and 
have a destabilizing effect on that country. I can see where it 
would create a black market and also it would create drug lords 
and foster organized crime there.
    I would like to hear your thoughts on the ramifications of 
the increased poppy production in Afghanistan.
    Mr. Tenet. This opium production obviously has a major 
impact in Europe where this heroin shows up. There is great 
concern there. One of the things that everybody acknowledges is 
that when the Karzai government extends its writ, is able to 
move reconstruction out into the provinces, that obviously we 
want to--our first priority, Senator, is obviously we are still 
dealing with remnants of the Taliban and security, moving the 
government and extending its writ. Obviously this is something 
we are going to have to come to with Karzai in a unified 
approach.
    Maybe it is changing of crops, maybe it is other things we 
are going to have to do. But it is something you are going to 
have to deal with much more vigorously over the course of time. 
Given the range of challenges he has at this moment--I am not 
suggesting it is unimportant. I am suggesting we have to get 
there in some methodical way where he can deal with it and we 
can help him.
    But it has to be his government taking it on, and that may 
involve economic assistance to these areas. It obviously will 
involve a bigger army than he has today. It obviously will 
involve extending his writ to these places.
    So we are making progress on all these fronts, but it is 
not satisfactory to say, yes, we still have this problem and we 
recognize that we have to get here with them.
    Senator Pryor. Are you concerned that it will have a 
destabilizing effect on Afghanistan?
    Mr. Tenet. Sir, money, organized crime, you know what 
happens in places. What we do not want is on the basis of this 
production and money for alternative power centers to emerge or 
warlords to be empowered at the expense of the central 
government because of their involvement in this trade. So it is 
something we have to worry about.
    Senator Pryor. Mr. Chairman, that is all the time I have. 
Thank you.
    Chairman Warner. Thank you very much.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Director Tenet, Admiral, I have been consistently impressed 
with your veracity in the information you presented to me in 
both open and closed sessions. I thought that your information 
prior to the commencement of the war was couched in 
probabilities and a range of possibilities that I was concerned 
in some instances were either dropped from further assertions 
or expanded beyond the scope of what you had provided to us.
    Apropos of that, you said in your speech at Georgetown that 
we had no specific information on the types or quantities of 
weapons--I think you were referring to biological weapons--
agents, or stockpiles at Baghdad's disposal. Yet, in February 
2003 Secretary of State Powell in a speech to the United 
Nations stated the administration's conservative estimate was 
that Saddam possessed 100 to 500 tons of chemical weapons 
agent. The President himself said in October 2002 in Cincinnati 
that Iraq had a massive stockpile of biological weapons.
    But neither your comment at Georgetown nor the NIE report 
of October 2002 made that assertion of quantities stockpiled.
    Mr. Tenet. I believe we posited the chemicals with the 
precision that you posited it, and I do not believe we posited 
or made a judgment on stockpiles of biological weapons.
    Senator Dayton. You posited the stockpiles of chemical 
weapons were of the amount that the Secretary stated at the 
U.N.?
    Mr. Tenet. I think I have just captured it correctly.
    Senator Dayton. You referenced the President's State of the 
Union Address, and the one clause there that caused such a 
later dismay. But as I recall, that clarification or retraction 
was not made until June of that year, 5 months after it was 
uttered, and there were several reports that there was an 
internal discussion that commenced even in March of that year 
about the accuracy there, but it was not publicly acknowledged 
by the White House until 5 months after the State of the Union.
    Is that your recollection?
    Mr. Tenet. I do not recall the timing. I know that I made a 
public statement in I think July of that year. I am not 
certain, but that is the time frame I made my public statement.
    Senator Dayton. Six months afterwards.
    Linkage has been asserted with al Qaeda going back to even 
September 11. It was alluded in various references that were 
made. It was one that I do not recall was ever asserted by you 
or your agency, and in fact I think that al Qaeda leaders 
reportedly told interrogators in Guantanamo that there was not 
any partnership between bin Laden and Saddam. Yet that has been 
an assertion that has continually been made.
    Mr. Tenet. Sir, in testimony before this committee we 
posited contacts, training, and safe haven as the issues that 
we raised at the time when we published our paper. We testified 
up here in October and November and then we published a paper 
in January 2003. I believe in questioning either in this 
committee or the Senate Intelligence Committee, we talked at 
length about our concerns about Zarqawi, who we posited to be a 
senior associate and collaborator of al Qaeda, documented his 
reported role in the Foley assassination, his operations in 
Baghdad in the summer of 2002. I think I said publicly in one 
of these committees that we did not have command and control 
between these individuals and the regime.
    Senator Dayton. So when the President said in November 2002 
that Saddam was ``dealing with'' al Qaeda, and at the U.N. 
Secretary Powell said that there was ``a sinister nexus,'' 
between the Iraqi dictator and al Qaeda, and aboard the U.S.S. 
Abraham Lincoln on May 1 the President called Saddam ``an 
ally'' of al Qaeda, were those accurate reflections of the 
information that you were providing?
    Mr. Tenet. I think the information of concern at the time 
went to contacts with Iraqi regime members going back to the 
mid-1990s, training that had been provided by the Iraqi regime.
    Senator Dayton. The President said that Saddam was dealing 
with al Qaeda.
    Mr. Tenet. Well, if they provided training, sir, that would 
be dealing with.
    Then the whole question of the safe haven and the fact that 
these people could operate in Iraq--I think I said in testimony 
before this committee it was inconceivable to me that Zarqawi 
and two dozen FIJ operatives could be operating in Baghdad 
without Iraq knowing, although I posited we did not know about 
command, control, and sustenance. So the save haven argument.
    Senator Dayton. In your speech at Georgetown you said that 
your analysts never concluded that Iraq was ``an imminent 
threat.'' Is that your composite assessment?
    Mr. Tenet. Sir, we did not--we believed and stated, and as 
I think the follow-on line in the Georgetown speech says, we 
believed that Saddam was continuing his efforts to deceive and 
build programs that might constantly surprise us.
    Senator Dayton. Was he an imminent threat?
    Mr. Tenet. We did not say that.
    Senator Dayton. You did not say that. Yet I would certainly 
assert that we were led to believe by others, I think the 
American people were led to believe, the reason we went into 
Iraq and started that engagement was because he constituted by 
all available preponderance of evidence an imminent, urgent 
threat to our national security. I do not fault you for that, 
because I do not think you did make that assertion. But others 
certainly did.
    Can I just clarify one point that was made earlier by 
Senator Cornyn. You have a budget that is obviously classified, 
but with reference to the contemplated or conceptualized $1.5 
billion, which Senator Cornyn acknowledged was a $300 million 
reduction in the proposed budget or the increase in the budget 
for each of 5 years, would 1 percent, if that is the 
approximate number based on published reports, reduction in 
your budget for each of the 5 years, would that ``gut'' your 
agency and your intelligence-gathering capabilities?
    Mr. Tenet. Sir, it comes from--I guess the perspective I 
would have to bring is, tell me where you are taking it from? 
What is my base?
    Senator Dayton. As far as I know, that was not specified. 
But hypothetically, would a 1-percent reduction in your budget 
for each of 5 years ``gut'' your agency and its intelligence-
gathering capabilities?
    Mr. Tenet. Let me say that in the mid-1990s it would not 
have been helpful.
    Senator Dayton. Would it have gutted, in that vernacular?
    Mr. Tenet. Sir, obviously no $300 million cut is going to 
gut your intelligence capability. But cumulatively----
    Senator Dayton. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Director, I have been in the middle passing messages 
back and forth after my visit with President Assad in Syria 
about my concerns with the jihadists going across the border 
and killing our boys and girls. There was an offer there which 
has been appropriately passed on to the respective people of 
cooperation.
    My question to you or to the Admiral would be: In your 
professional judgment, do you think cooperation between Syria 
and the United States could seal that border to any significant 
degree and prevent jihadists from going across?
    Admiral Jacoby. Senator Nelson, clearly it is a long, 
porous border. That said, it is our view that Syria could do 
far more than they are today to close off at least major 
crossing points or put better inspection regimes in place and 
significantly slow the movement.
    Senator Bill Nelson. Thank you for your professional 
opinion, and I would suggest that you pass that on, your 
professional opinion, to the respective people in the 
administration.
    Now, I want to get back to something I was told that turned 
out not to be complete information. Understand that my 
questions are not adversarial. I am trying to be constructive, 
because this should not happen in the future, where I was led 
to believe one thing and made judgments upon that having to do 
with national security questions. It has been hashed out. 
Everything I am going to say has already been in the press.
    The question of UAVs, the question that there was an 
imminent threat to the interests of the United States of Saddam 
putting them on ships in the Atlantic off the eastern seaboard, 
the fact that it has been reported in several of the press 
outlets that software had been accumulated of maps of the 
eastern United States. I was told that in several briefings. I 
cannot remember all the briefings, but usually they were in S-
407.
    But I was not told that there was a dispute in the 
Intelligence Community, and what I found out after the fact was 
that Air Force intelligence, which would know more about UAVs 
than other folks, totally disputed the veracity of that claim. 
But that is not what I was told.
    So it is a constructive question on my part to get both of 
you to respond.
    Mr. Tenet. Yes, sir. First of all, Air Force said in our 
key judgments in the NIE with regard to this--we have two 
phrases. You know them: ``An Iraqi procurement network 
attempted to procure commercially available route planning 
software,'' and it goes on and on. Then in the ``Key 
Judgments'' it says: ``The Director of Intelligence, 
Surveillance, Reconnaissance, Air Force, does not agree that 
Iraq is developing UAVs primarily intended to be delivery 
platforms for chemical and biological weapons. The small size 
of the new UAVs strongly suggests a primary role of 
reconnaissance, although a chemical, biological weapon delivery 
is an inherent capability.''
    That was the full judgment and you should have been told 
that.
    Senator Bill Nelson. What you just read in the NIE I have 
subsequently found out was in the NIE. But that is not what I 
and others were told in S-407. There was no statement that 
there was a dispute in the Intelligence Community.
    Admiral Jacoby. Senator, I do not know which briefings----
    Senator Bill Nelson. Well, this would have been the 
briefings prior to the vote on the resolution.
    Admiral Jacoby. The discussion in the NIE--frankly, I 
carried that water. Air Force, as you so properly 
characterized, is the center of excellence for UAVs within DOD. 
So there was quite a bit of discussion. I do not know that it 
was a dispute so much as one of inherent capability versus 
primary capability versus principle mission. But I thought that 
it was laid out quite clearly both in the unclassified and the 
classified version of the NIE.
    Senator Bill Nelson. Well, we do not make recordings of 
those briefings and so there is not going to be any way to 
prove it. But I poked and probed. Again I tell you, Mr. 
Director, that I am saying this in a constructive way, because 
if one Senator thought that there was an imminent threat to the 
interests of the United States with UAVs dropping WMD on 
eastern seaboard cities and yet there was a dispute in the 
Intelligence Community, we have to make clear in the future the 
fact that there is a dispute in the Intelligence Community.
    Mr. Tenet. Sir, I agree with that. There is no dispute 
about that. I will also say to you that in the context of this 
procurement and the individual involved, what we learned from 
our penetration of that network, his previous affiliation, 
where he worked--obviously I cannot do this in open session, 
but I was really concerned about it. I did not do the S-407 
briefing, I do not believe, but I was very concerned about this 
case.
    I believed it was appropriate to warn. You should have been 
told that they did not believe, Air Force did not believe, it 
was primarily intended, although they acknowledged the inherent 
capability. There were another set of factors here that were 
quite serious in my view at the time, but that does not 
eliminate the importance of what you have said to us.
    Senator Bill Nelson. Well, I have noticed as I have been 
sharing my thoughts with you that there have been several 
quizzical expressions on the faces of your staff there. I want 
you to know that ever since this was made public in the 
newspapers, where I could speak about it publicly I have been 
railing on this, so there should be no surprise that this 
Senator wants to make sure when there is a dispute in the 
future--in my part of the country where I come from, we take a 
person at their word. If there had been any question I would 
have gone and gotten that NIE and looked at it. But that is 
clearly not the impression that I had.
    Mr. Tenet. Yes, sir.
    Chairman Warner. Thank you, Senator.
    Senator Levin.
    Senator Levin. Just a couple questions, Mr. Chairman, 
because I know you are trying to get to a closed session.
    This has to do with an article that appeared last November 
in The Weekly Standard.
    Mr. Tenet. Yes, sir.
    Senator Levin. We made reference to it before and you 
indicated before that you were not familiar with it.
    Mr. Tenet. Sir, I am not familiar with the article, but I 
am familiar with the issue.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    
      
    Senator Levin. Last November 24, The Weekly Standard 
published excerpts from an alleged classified document that was 
prepared by Under Secretary of Defense for Policy Feith that 
was dated October 27, 2003, and sent to the Senate Intelligence 
Committee. This article alleged an operational relationship 
between Iraq and the al Qaeda organization. In the words of 
this article by Stephen Hayes, ``The picture that emerges is 
one of a history of collaboration between two of America's most 
determined and dangerous enemies.''
    Did the CIA, number one, agree with the contents of the 
Feith document that was sent to the Intelligence Committee? Did 
it have disagreements with that document?
    Mr. Tenet. Senator, we did not clear on that document. My 
understanding is we did not agree with the way the data was 
characterized in that document.
    Senator Levin. All right. Now, those disagreements that you 
had with that document were not brought to the attention, as I 
understand it, of the Intelligence Committee at that time; is 
that correct?
    Mr. Tenet. That is correct.
    Senator Levin. The Vice President of the United States, 
during an interview with The Rocky Mountain News on January 9, 
when asked about the relationship between al Qaeda and Iraq, 
said the following: ``One place you ought to look is an article 
that Stephen Hayes did in The Weekly Standard here a few weeks 
ago''--so now he is referring to the article in that Weekly 
Standard--``because there it lays out in some detail, based on 
an assessment that was done by the DOD and that was forwarded 
to the Senate Intelligence Committee some weeks ago. That is 
your best source of information.''
    That is what the Vice President says about that document 
that you had disagreements with. Have you told the Vice 
President, hey, we have disagreements with that document that 
you said was the best source of information? By the way, it is 
a classified document. Putting that issue aside for the moment.
    Mr. Tenet. I think what we did is we went back to the DOD, 
who subsequently retracted the document and submitted a 
correction to you, because of our concerns with what the 
document said.
    Senator Levin. I had asked for that document and it was 
because of my request that it got to you. Then you said, 
whoops, you have disagreements with that document; is that 
correct?
    Mr. Tenet. Yes, sir.
    Senator Levin. Okay. Now, my question is this. Now you have 
the Vice President of the United States saying that the 
document that was quoted in The Weekly Standard was the best 
source of information, and that is the document that contains a 
whole bunch of conclusions that you disagree with. Have you 
gone to the Vice President of the United States and said, you 
said a document was the best source of information and it is 
quoted allegedly in The Weekly Standard and, Mr. Vice 
President, that is not the best source of information according 
to us? Have you said that to him?
    Mr. Tenet. I have not, sir. I learned about his quote last 
night when I was preparing for this hearing. I was unaware that 
he had said that and I will talk to him about it.
    Senator Levin. I have to tell you here, we have now the 
Vice President saying on National Public Radio (NPR) that the 
vans are the conclusive evidence that there is a biological 
weapons program. You at some point when you found out about 
this----
    Mr. Tenet. Yes, sir, I went and talked----
    Senator Levin. --not contemporaneously, but at some later 
point when it was pointed out to you, did you go back to the 
Vice President?
    Mr. Tenet. I did.
    Senator Levin. But Mr. Director, when the Vice President is 
making public statements, as he has done relative to the vans, 
relative now to the question of the relationship between al 
Qaeda and Saddam Hussein, it seems to me there has to be 
someone in your office who is going to tell you that the Vice 
President said something which just does not have our support.
    Mr. Tenet. Sir, it is a fair point.
    Senator Levin. You cannot just wait until we have a hearing 
and then----
    Mr. Tenet. Sir, it is a fair point.
    Senator Levin. Mr. Chairman, I would ask that my letter to 
the Vice President dated February 12 be made part of the 
record.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. This letter asks the Vice President: What is 
the basis for your statement relative to the vans, and what is 
the basis for your statement relative to the article in The 
Weekly Standard being, as he put it, ``the best source of 
information`` relative to the al Qaeda relationship? We have 
not received an answer except for a telephone call, which 
frankly just said that you might be commenting on it or you 
have commented on it. That is it, that is all we have gotten 
from the Vice President, is a statement that you have made a 
reference to it in a prior hearing.
    Mr. Chairman, I would ask not only that this letter be made 
part of the record, but, because this is such a critical issue 
that the Vice President of the United States is commenting on, 
that we as a committee ask, what is the basis for the 
information? It was not the CIA. The CIA was saying: Hey, the 
jury is out on the vans; there is no consensus on the vans. By 
the way, your top weapons inspector said the consensus was they 
were not part of a biological weapons program.
    Mr. Tenet. That is not what he said in his interim report, 
I do not believe.
    Senator Levin. Not in his interim report. He said it was 
undetermined in his interim report. But he recently said there 
was a consensus that the vans were not part of a WMD program.
    I am not arguing with you on that. You do not agree with 
that. Your position is that there is divided opinion on that 
issue.
    Mr. Tenet. Right.
    Senator Levin. We have the Vice President saying the vans 
are part of a biological weapons program and that is conclusive 
evidence to him that Saddam had a WMD program. So you have that 
statement of the Vice President. Then you have a statement in 
The Weekly Standard, relative to The Weekly Standard piece, 
that he gives to The Rocky Mountain News, saying that The 
Weekly Standard piece is the best source of information 
relative to an al Qaeda-Iraq relationship, which the CIA does 
not agree with.
    We have to get answers, it seems to me, from the Vice 
President, Mr. Chairman, on what is the source of those recent 
statements. They are not prior to the war; these are recent 
statements.
    We know the source is not the CIA. The CIA finally learns 
about them. It takes you too long to learn about these very 
public statements, but nonetheless you learn about them at 
hearings. We ask you questions and then you go back and you 
correct the Vice President. But you have to have someone in 
your shop that keeps track of these kind of public statements, 
because that is what the public responds to.
    Mr. Chairman, I would ask that we ask the Vice President if 
he would give us the source of the statements that I have 
referred to.
    Chairman Warner. We will take the matter under advisement.
    Senator Levin. Thank you. That is all.
    Chairman Warner. This open session is now concluded. We 
will retire to room SH-219 for a closed session.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Elizabeth Dole
                       national security threats
    1. Senator Dole. Director Tenet and Admiral Jacoby, Prime Minister 
Tony Blair recently argued that the possibility of Islamic extremists 
collaborating with countries that possess unconventional weapons in 
order to carry out acts of terror justifies preemptive action. However, 
he also acknowledged the possibility that Saddam would have changed his 
ambitions or that terrorists might never have obtained unconventional 
weapons in Iraq. The dilemma we are facing is a threat of which ``we 
cannot be certain, but do we want to take the risk?'' The terrorist 
attacks on September 11, 2001, demonstrated the mortal dangers posed by 
terrorist threats left unchecked. The prime breeding grounds for 
terrorism are located in ``ungoverned spaces'' and countries with 
dictators sympathetic to their cause. Does the growing number of 
terrorists striving to make a spectacular attack on the United States' 
homeland pose a grave threat to our national security?
    Director Tenet. [Deleted.]
    Admiral Jacoby. Yes.

    2. Senator Dole. Director Tenet and Admiral Jacoby, with respect to 
our national security threats originating in the ``ungoverned spaces'' 
and countries with dictators sympathetic to terrorist causes, what is 
the likelihood of non-military (diplomatic, economic, and information) 
elements of power being effective in alleviating the threat?
    Director Tenet. Several Central Intelligence Agency (CIA)-sponsored 
global analysis efforts suggest that a variety of non-military 
influences could help reduce U.S. vulnerability to threats originating 
in ungoverned spaces and autocracies sympathetic to terrorist causes. A 
task force of experts on governance and political instability led by 
CIA has concluded that the most effective non-military actions include 
state capacity building efforts, such as:

        <bullet> Helping countries build law enforcement capacities.
        <bullet> Helping a host government carry out a coordinated 
        political, judicial, administrative, diplomatic, and economic 
        plan to establish control over ungoverned areas.
        <bullet> Eroding support for terrorist or insurgent groups by 
        helping countries improve their standard of living through 
        education and other social services.
        <bullet> Improving and expanding lines of communication in 
        remote areas.
        <bullet> Encouraging conflict resolution efforts between the 
        central government and insurgent groups, and discouraging 
        states from sponsoring insurgencies in neighboring countries.
        <bullet> Supporting the creation of strong democratic 
        institutions with power sharing among groups, which discourages 
        the formation of stateless zones.

    States possess a combination of regime and societal characteristics 
that predispose them to support international terrorist groups, 
according to a CIA-led analysis of state-terrorist group relationships. 
Factors that make regimes more likely to support terrorists include 
autocratic rulers adhering to an exclusionary ideology and a higher 
than average percentage of a population under arms, according to our 
statistical analysis of state supporters of terrorism between 1992 and 
2002. These underlying risk factors do not guarantee that a country 
will support terrorists, but they serve as warning signs in the same 
way that being overweight, combined with smoking and leading a 
sedentary lifestyle raises the risk of cardiovascular disease.
    Policies aimed at altering these underlying characteristics and 
raising risks and costs for the backers of terrorism offer the greatest 
potential for stemming state support, according to nongovernmental 
experts on instability and terrorism and our analysis of past cases. 
The following other non-military countermeasures can help or forestall 
terrorist support:

        <bullet> Imposing multilateral economic sanctions on--or 
        holding back economic aid to--countries known to support 
        terrorist groups.
        <bullet> A long-term diplomatic and economic strategy of 
        promoting durable, consolidated democracy, especially building 
        constraints on executive power in autocratic countries and 
        fostering economic and political ties to the west.
        <bullet> Diplomatic efforts that undercut relationships between 
        terrorists and harboring countries by diminishing the influence 
        of regime figures backing terrorists, while cooperating with 
        those who have motive and capability to act against terrorists.
        <bullet> Sensitizing countries to the notion that hosting 
        radical groups can undermine their regimes by sharing 
        information that exposes instances when terrorists violate the 
        policies of their hosts.

    Admiral Jacoby. As I stated in my prepared testimony, the challenge 
posed to us from radical Islam and terrorism is a long term phenomenon 
based on the economic, political and demographic challenges faced by 
many countries. Military remedies alone cannot alleviate these 
problems.
    Numerous successful examples can be cited in the use of non-
military elements of power. Good intelligence, diplomatic pressure and 
economic sanctions played a role in compelling Libya to end its 
assistance to terrorist groups and abandon its weapons of mass 
destruction and ballistic missile programs. Economic assistance and 
diplomatic engagement rewarded Pakistan for its support to the global 
war on terrorism. Our support for Pakistan also serves as an inducement 
for other nations to come forward with assistance for the global war on 
terrorism.

    3. Senator Dole. Admiral Jacoby, in your prepared remarks you 
discussed how ``al Qaeda remains the greatest terrorist threat to our 
homeland.'' Some of the concerns you illustrated were the threats of 
terrorists using manportable air defense systems and established 
criminal networks to assist them in the traffic of weapons of mass 
destruction. Could you provide us with the likelihood of terrorists 
trying to capitalize on these vulnerabilities and attempting an attack 
against the American homeland during the next year?
    Admiral Jacoby. The likelihood of terrorist groups taking advantage 
of vulnerabilities to our civilian airliners from manportable air 
defense systems (MANPADS) and to the homeland from weapons of mass 
destruction is real. While I have no information on a specific and 
immediate plan by terrorist groups to use either type of weapons in the 
United States, the intent and capabilities of these groups and the open 
nature of our society, lead me to no other conclusion.

    4. Senator Dole. Admiral Jacoby, what is the greatest overall 
threat to our homeland in light of other emerging threats such as 
ballistic missiles capable of targeting nearly all of North America?
    Admiral Jacoby. The greatest overall threat to our homeland is a 
terrorist attack by al Qaeda or other like minded group using weapons 
of mass destruction. While several countries, such as China and Russia, 
possess greater destructive capabilities, only al Qaeda combines both 
the intent and capability to use weapons of mass destruction in an 
attack on our homeland. Additionally, al Qaeda is less concerned than 
nation-states about military retaliation since they reside amongst 
civilians of other countries or in ungoverned spaces.

                            positive changes
    5. Senator Dole. Director Tenet, you have said that the world 
today, compared with last year, ``is equally if not more, complicated 
and fraught with danger for American interests.'' You also went on to 
state that it ``also holds great opportunity for positive change.'' Can 
you discuss the most significant opportunities for positive change 
relative to American interests, and how well the Intelligence Community 
is positioned to exploit or support them?
    Director Tenet. The United States currently enjoys two broad 
strategic opportunities for positive change relative to its interests. 
On the geo-political level, the absence of armed conflict, and for the 
most part armed competition, between any of the world's major powers 
provides a unique historical opportunity for bilateral and multilateral 
cooperation on a wide range of critical issues. What Secretary Powell 
called ``An Age of Cooperation'' in his Foreign Affairs article early 
this year has had a revolutionary impact on how the major powers have 
tackled such thorny problems as global terrorism, proliferation--
specifically negotiations with Iran and North Korea--and the Middle 
East.

        <bullet> The Intelligence Community provides intelligence 
        support on these issues and countries of concern for policy 
        initiatives and military operations undertaken as part of these 
        international collaborative efforts. It also monitors the 
        diplomatic, economic, military, and intelligence activities of 
        the other major powers.

    On the geo-economic level, trends continue to favor expanding the 
free trade system, creating regulatory transparency and combating 
corruption. For example, although developing countries were vocal in 
their complaints at the World Trade Organization (WTO) Ministerial in 
Cancun last September, their desire for reform in the global trading 
system--specifically in the reduction of agricultural subsidies for 
developed country farmers--probably will make them eventually return to 
the WTO negotiating table. Brazil probably wanted to be seen as an 
effective host of the United Nations Conference on Trade Development 
(UNCTAD) XI--depending on the outlook for a Doha framework agreement. 
Brazil has a fundamental interest in maintaining the momentum of the 
Doha talks, especially in convincing the United States, European Union, 
and Japan to cease agricultural subsidies so that Brazil can increase 
its export of agricultural products.

        <bullet> The Intelligence Community provides intelligence 
        support to U.S. trade negotiators and monitors foreign economic 
        trends and activities that could affect U.S. national 
        interests.

    6. Senator Dole. Director Tenet and Admiral Jacoby, in your hearing 
on Tuesday, February 24 before the Senate Select Committee on 
Intelligence, both of you agreed with the statement that Americans are 
safer today than 1 year ago. Yet, your assessments portray a situation 
in which threats to Americans have not diminished and might have 
increased from 1 year ago. Could you elaborate on why you feel 
Americans are safer today while the threat to Americans has not 
diminished and may have increased?
    Director Tenet. [Deleted.]
    Admiral Jacoby. Americans are safer today for several reasons. 
First, our war on terrorism has achieved several notable 
accomplishments. We have shrunk the favorable operating environments 
for al Qaeda and other terrorist groups. We have captured or killed six 
of the original top nine operatives and leaders of al Qaeda. 
Interrogations of captured al Qaeda members have revealed considerable 
details about their plans, methods, training, finances, and logistical 
infrastructure. That information has enabled us to further attack the 
terrorist network and foil ongoing plots. Second, we have improved our 
security within the United States, presenting al Qaeda with a more 
difficult target and operating environment. Third, many countries have 
redoubled their efforts to root out al Qaeda and like minded terrorist 
groups and increased their cooperation with us.

    7. Senator Dole. Director Tenet and Admiral Jacoby, is a portion of 
increased safety to Americans a direct result of the intelligence 
communities' ongoing transformation and integration?
    Director Tenet. Yes. United States interests at home and abroad 
remain at risk of terrorist attack. However, significant progress has 
been made to improve and transform our ability to protect Americans 
from the scourge of international terrorism.
    The establishment of the Department of Homeland Security (DHS), and 
the incorporation of part of this Department within the Intelligence 
Community, has significantly improved our ability to share information 
with organizations responsible for protecting our borders, ports, and 
other critical infrastructure. More significantly, the DHS is providing 
for systematic communication with senior officials at the State, local, 
and private sector levels as well as facilitating the exchange of 
information across multiple levels of government.
    The expansion of the FBI's Joint Terrorism Task Forces (JTTFs) and 
the new FBI Office of Intelligence have also significantly enhanced the 
communication of threat information to local law enforcement officials. 
In addition, we are now better able to leverage information available 
to State and local law enforcement officials to identify potential new 
terrorist threats.
    The establishment of the Terrorist Threat Integration Center (TTIC) 
has enhanced our ability to integrate all information and analysis 
available to the U.S. Government (USG) to provide a comprehensive 
picture of terrorist threats to U.S. interests at home and abroad. This 
multi-agency ``joint venture'' has access to information systems and 
databases spanning the intelligence, law enforcement, homeland 
security, diplomatic, and military communities. In fact, TTIC has 
direct-access connectivity with 14--soon to be 24--separate USG 
networks, enabling information sharing as never before in the Federal 
government and beyond. While there is still a long way to go, great 
progress has been made integrating USG terrorism analysis capabilities 
in TTIC by virtue of the steady commitment of partner agencies 
including the FBI, CIA, and the Departments of Defense (DOD), State, 
and DHS.
    Admiral Jacoby. Yes. The Intelligence and Law Enforcement 
Communities have made progress in coordinating their activities and 
sharing intelligence.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                       atta/al-ani prague meeting
    8. Senator Levin. Director Tenet, do you believe it is likely that 
September 11 hijacker Mohammed Atta and Iraqi Intelligence Service 
officer Ahmed al-Ani met in Prague in April 2001, or do you believe it 
is unlikely that the meeting took place?
    Director Tenet. Although we cannot rule it out, we are increasing 
skeptical that such a meeting occurred. The veracity of the single-
threaded reporting on which the original account of the meeting was 
based has been questioned, and the Iraqi official with whom Atta was 
alleged to have met has denied ever having met Atta.
    We have been able to corroborate only two visits by Atta to the 
Czech Republic: one in late 1994, when he passed through enroute to 
Syria; the other in June 2000, when, according to detainee reporting, 
he departed for the United States from Prague because he thought a non-
European Union (EU) member country would be less likely to keep 
meticulous travel data.
    In the absence of any credible information that the April 2001 
meeting occurred, we assess that Atta would have been unlikely to 
undertake the substantial risk of contacting any Iraqi official as late 
as April 2001, with the plot already well along toward execution.
    It is likewise hard to conceive of any single ingredient crucial to 
the plot's success that could only be obtained from Iraq.
    In our judgment, the 11 September plot was complex in its 
orchestration but simple in its basic conception. We believe that the 
factors vital to success of the plot were all easily within al Qaeda's 
means without resort to Iraqi expertise: shrewd selection of 
operatives, training in hijacking aircraft, a mastermind and pilots 
well-versed in the procedures and behavior needed to blend in with U.S. 
society, long experience in moving money to support operations, and the 
openness and tolerance of U.S. society as well as the ready 
availability of important information about targets, flight schools, 
and airport and airline security practices.

                  cia clearance of uranium references
    9. Senator Levin. Director Tenet, the following administration 
statements made reference to Iraq's alleged attempts to acquire uranium 
from Africa after you had a similar reference removed from a draft of 
the President's October 7, 2002, Cincinnati speech. Did the CIA review 
and clear the following statements, particularly with regard to the 
African uranium allegations? Which of these statements were sent to the 
CIA for review? (Please provide an unclassified answer, with a 
classified annex if necessary.)

        <bullet> December 19, 2002: State Department Fact Sheet titled 
        ``Illustrative Examples of Omissions From the Iraqi Declaration 
        to the United Nations Security Council'' that states Iraq's 
        Declaration ``ignores efforts to procure uranium from Niger.''
        <bullet> January 20, 2003: President Bush sent a report to 
        Congress that states the Iraqi declaration failed to deal with 
        Iraq's ``attempts to acquire uranium.''
        <bullet> January 23, 2003: White House issues the publication 
        ``What Does Disarmament Look Like?'' that says the Iraqi 
        declaration ``ignores efforts to procure uranium from abroad.''
        <bullet> January 23, 2003: National Security Adviser 
        Condoleezza Rice published an Op-Ed in the New York Times 
        saying that Iraq's ``declaration fails to account for or 
        explain Iraq's efforts to get uranium from abroad.''
        <bullet> January 26, 2003: Secretary of State Colin Powell, in 
        a speech at the World Economic Forum in Davos, Switzerland, 
        asked ``Why is Iraq still trying to procure uranium?''
        <bullet> January 29, 2003: Secretary of Defense Donald Rumsfeld 
        said on CNN that Iraq ``recently was discovered seeking 
        significant quantities of uranium from Africa.''

    Director Tenet. While our records are not comprehensive, following 
are the results of our research on this question:
    December 19, 2002: State Department Fact Sheet titled 
``Illustrative Examples of Omissions From the Iraqi Declaration to the 
United Nations Security Council'' that states Iraq's Declaration 
``ignores efforts to procure uranium from Niger.''

          CIA did receive this Fact Sheet for comment. The Director of 
        the Office of Weapons Intelligence, Nonproliferation, and Arms 
        Control (WINPAC) in the Directorate of Intelligence recommended 
        that the draft's reference to Niger be changed to Africa, but 
        according to the State officer who drafted the fact sheet, the 
        comments were not obtained in time to correct the listing on 
        the State Department web site. The information was acted on in 
        time, however, to remove the Niger reference from Ambassador 
        Negroponte's statement to the U.N. Security Council on the same 
        day.

    January 20, 2003: President Bush sent a report to Congress that 
states the Iraqi declaration failed to deal with Iraq's ``attempts to 
acquire uranium.''

          We believe this refers to the 20 January document entitled 
        ``Communications from the President of the United States 
        Transmitting a Report on Matters Relevant to the Authorization 
        for use of Military Force Against Iraq.'' We have not located 
        any record that we received this document for comment.

    January 23, 2003: White House issues the publication ``What Does 
Disarmament Look Like?'' that says the Iraqi declaration ``ignores 
efforts to procure uranium from abroad.''

          We received multiple versions of this document between 
        between 20 and 22 January 2003. The last version that we 
        reviewed included the statement, ``The declaration ignores 
        efforts to procure uranium from abroad.'' We have no record of 
        having objected to this statement.

    January 23, 2003: National Security Adviser Condoleezza Rice 
published an Op-Ed in the New York Times saying that Iraq's 
``declaration fails to account for or explain Iraq's efforts to get 
uranium from abroad.''

          We have no record of reviewing this document.

    January 26, 2003: Secretary of State Colin Powell, in a speech at 
the World Economic Forum in Davos, Switzerland, asked, ``Why is Iraq 
still trying to procure uranium?''

          We have no record of reviewing this document.

    January 29, 2003: Secretary of Defense Donald Rumsfeld said on CNN 
that Iraq ``recently was discovered seeking significant quantities of 
uranium from Africa.''

          We have no record of reviewing this statement.

                        inc defector debriefings
    10. Senator Levin. Admiral Jacoby, once the Information Collection 
Program of the Iraqi National Congress (INC) was transferred from the 
State Department to the Defense Intelligence Agency (DIA), who 
conducted the debriefings of the INC-supplied defectors, and who 
prepared the resulting reports or summaries?
    Admiral Jacoby. [Deleted.]

    11. Senator Levin. Admiral Jacoby, were they all Defense 
Intelligence Agency (DIA) personnel working for DIA, or were there any 
persons working for other agencies or offices?
    Admiral Jacoby. [Deleted.]

    12. Senator Levin. Admiral Jacoby, if the defector debriefings were 
conducted or observed by personnel who were not working for DIA, what 
agencies or offices were they from?
    Admiral Jacoby. [Deleted.]

    13. Senator Levin. Admiral Jacoby, how were the information reports 
or summaries from the INC-supplied defector debriefings handled? Were 
they all sent through normal intelligence channels, or were any sent 
outside normal intelligence reporting channels? If any were sent 
outside normal intelligence reporting channels, what channels were used 
and to what offices or individuals were they sent?
    Admiral Jacoby. [Deleted.]

                 feith office meetings with ghorbanifar
    14. Senator Levin. Director Tenet, several news articles describe 
secret meetings between DOD policy officials and Iranian nationals in 
2001 and 2002, including Manucher Ghorbanifar who played a prominent 
role in the Iran-Contra scandal. The articles state that Secretary of 
State Powell discussed his concerns about the meetings with Secretary 
of Defense Rumsfeld and National Security Adviser Rice. Did you ever 
discuss with other administration officials either of those meetings, 
or the issue of the DOD policy office run by Under Secretary of Defense 
Doug Feith, particularly whether that office might be bypassing normal 
Intelligence Community channels?
    Director Tenet. [Deleted.]

    15. Senator Levin. Director Tenet, is it correct that the CIA 
believes Ghorbanifar is a fabricator, and neither credible nor 
reliable?
    Director Tenet. [Deleted.]

    16. Senator Levin. Director Tenet, did you know of those meetings 
with Ghorbanifar in advance and were you asked for and did you give 
your approval of those meetings in your capacity as Director of Central 
Intelligence?
    Director Tenet. [Deleted.]

              white paper omission of information from nie
    17. Senator Levin. Director Tenet, in October 2002, the 
Intelligence Community issued a White Paper on ``Iraq's Weapons of Mass 
Destruction Programs.'' Its ``Key Judgments'' mirrored to a 
considerable degree the Key Judgments from the classified October 1 
National Intelligence Estimate (NIE) on ``Iraq's Continuing Programs 
for Weapons of Mass Destruction,'' which were declassified on July 18, 
2003.
    However, the unclassified White Paper completely omitted the ``Key 
Judgments'' from the NIE concerning Iraq's use of WMD, including the 
judgments that Saddam appeared unlikely to conduct terrorist attacks 
against the United States for fear of war, and was not likely to 
provide WMD to terrorists unless he had already been attacked, his 
forces could not carry out an attack, and he was ``sufficiently 
desperate'' to take the ``extreme step'' of helping terrorists conduct 
an attack for vengeance. Why did the White Paper leave out these 
judgments?
    Director Tenet. The question was answered on 7 October 2002 by then 
DCI George J. Tenet, when he responded to the 4 October 2002 
declassification request from the Senate Select Committee on 
Intelligence. In our response, we ``made unclassified material 
available to further the Senate's forthcoming open debate on a Joint 
Resolution concerning Iraq.'' This letter was placed into the 
Congressional Record on 9 October 2002 (page S10154) and has been 
available in the media and on the internet.
    As stated in that letter, ``As always, our declassification efforts 
seek a balance between your need for unfettered debate and our need to 
protect sources and methods. We have also been mindful of a shared 
interest in not providing to Saddam a blueprint of our intelligence 
capabilities and shortcomings, or with insight into our expectation of 
how he will and will not act. The salience of such concerns is only 
heightened by the possibility for hostilities between the U.S. and 
Iraq. These are some of the reasons why we did not include our 
classified judgments on Saddam's decisionmaking regarding the use of 
weapons of mass destruction (WMD) in our recent unclassified paper on 
Iraq's Weapons of Mass Destruction.''
    The DCI's letter further noted that viewing the Senate request with 
those concerns in mind, however, we declassified the following from the 
paragraphs the committee requested. They are from pages 66 and 67 of 
the NIE:

          ``Baghdad for now appears to be drawing a line short of 
        conducting terrorist attacks with conventional or CBW [chemical 
        or biological warfare] against the United States.
          Should Saddam conclude that a U.S.-led attack could no longer 
        be deterred, he probably would become much less constrained in 
        adopting terrorist actions. Such terrorism might involve 
        conventional means, as with Iraq's unsuccessful attempt at a 
        terrorist offensive in 1991, or CBW.
          Saddam might decide that the extreme step of assisting 
        Islamist terrorists in conducting a WMD attack against the 
        United States would be his last chance to exact vengeance by 
        taking a large number of victims with him.''

    The letter also noted, regarding a 2 October 2002 closed hearing, 
that we declassified the following dialogue:

          ``Senator Levin: If [Saddam] didn't feel threatened, is it 
        likely that he would initiate an attack using a weapon of mass 
        destruction?
          Senior Intelligence Witness: My judgment would be that the 
        probability of him initiating an attack--let me put a time 
        frame on it--in the foreseeable future, given the conditions we 
        understand now, the likelihood I think would be low.
          Senator Levin: Now if he did initiate an attack you've . . . 
        indicated he would probably attempt clandestine attacks against 
        us. . . But what about his use of weapons of mass destruction? 
        If we initiate an attack and he thought he was in extremis or 
        otherwise, what's the likelihood in response to our attack that 
        he would use chemical or biological weapons?
          Senior Intelligence Witness: Pretty high, in my view.''

    The letter further noted that ``in the above dialogue, the 
witness's qualifications--`in the foreseeable future, given the 
conditions we understand now'--were intended to underscore that the 
likelihood of Saddam using WMD for blackmail, deterrence, or otherwise 
grows as his arsenal builds.''

                    white paper statement not in nie
    18. Senator Levin. Director Tenet, in the October 2002 unclassified 
White Paper on ``Iraq's Weapons of Mass Destruction Programs'' there is 
a paragraph that is almost the same as a paragraph from the now 
declassified portions of the October 1, 2002 NIE on ``Iraq's Continuing 
Programs for Weapons of Mass Destruction.'' The paragraph in the NIE 
states:

        ``We judge Iraq has some lethal and incapacitating BW agents 
        and is capable of quickly producing and weaponizing a variety 
        of such agents, including anthrax, for delivery by bombs, 
        missiles, aerial sprayers, and covert operatives.''

    However, the same paragraph in the unclassified White Paper 
includes the following additional language at the end of the otherwise 
identical paragraph: ``including potentially against the U.S. 
homeland.'' This clause does not appear in the NIE. Why was this 
additional language added to the unclassified White Paper when it did 
not appear in the classified NIE, which was produced before the White 
Paper?
    Director Tenet. On 1 October 2002, the Intelligence Community (IC) 
published the classified, 92 page NIE on ``Iraq's Continuing Programs 
for Weapons of Mass Destruction,'' which had been requested by the 
Senate Select Committee on Intelligence three weeks earlier.
    On 4 October 2002, the IC published a separate unclassified paper, 
``Iraq's Weapons of Mass Destruction Programs,'' which began work in 
May 2002.
    The unclassified paper incorporated a declassified version of a 
portion of the Key Judgments from the classified NIE. Specifically, the 
declassified version of the Key Judgments did not include our judgments 
related to Saddam's thinking on weapons use, both because advertising 
our limitations in understanding Saddam's thinking on the issue would 
have been inappropriate at the time and because the unclassified paper 
itself did not discuss the issue.

        <bullet> In mid-2003, we declassified the entire Key Judgments 
        from the NIE along with the paragraphs and INR alternative view 
        on the uranium ore issue.

    The clause and judgment in question was contained the classified 
NIE's Key Judgments, which stated, ``We judge has some lethal and 
incapacitating BW agents and is capable quickly producing and 
weaponizing a variety of such agents, including anthrax, for delivery 
by bombs, missiles, aerial sprayers, and covert operatives;'' noted 
Iraqi capabilities to ``attempt clandestine attacks against the U.S. 
Homeland . . . more likely with biological than chemical agents--
probably . . . by special forces or intelligence operatives;'' and 
indicated that ``the Iraqi Intelligence Service (IIS) probably would be 
the primary means by which Iraq would attempt to conduct any CBW 
attacks on the U.S. Homeland, although we had no specific intelligence 
information that Saddam's regime had directed attacks against U.S. 
territory.''

          Consistent with the Key Judgments of the NIE, the Key 
        Judgments of the unclassified paper stated, ``Iraq has some 
        lethal and incapacitating BW agents and is capable of quickly 
        producing and weaponizing a variety of such agents, including 
        anthrax, for delivery by bombs, missiles, aerial sprayers, and 
        covert operatives, including potentially against the U.S. 
        Homeland.''

    The statement and judgment in question also were reflected in the 
NIE's Discussion and Annex C.

        <bullet> The BW discussion of the NIE stated that we assessed 
        that the IIS probably would be the primary means by which Iraq 
        would attempt to attack clandestinely the U.S. Homeland with 
        biological weapons; we had no specific intelligence that 
        Saddam's regime has directed attacks against U.S. territory; 
        and Baghdad had far less capability to wage a campaign of 
        violence and destruction on U.S. territory than it did in the 
        Middle East region.
        <bullet> Annex C devoted over two pages to discussing the 
        capabilities of the Iraqi Special Operations Forces and 
        Intelligence Service, and stated that the IIS probably would be 
        the primary means by which Iraq would attempt to attack the 
        U.S. Homeland and was capable of carrying out or sponsoring 
        such attacks.

    The capabilities of covert operatives to use BW agents was 
addressed in the NIE because it related to one of the issues Congress 
requested--``the likelihood that Saddam Hussein would use weapons of 
mass destruction against the United States, our allies and friends, or 
our interests.'' Although, as the NIE stated, we had ``low confidence 
in our ability to assess when Saddam would use WMD'' and ``whether 
Saddam would engage in clandestine attacks against the U.S. Homeland,'' 
we provided our analytical thinking on the issue of use in the Key 
Judgments and the NIE. Within these discussions, we included our 
assessments on the capabilities of these operatives, ``including 
potentially against the U.S. Homeland,'' as we did regarding our 
assessments of the capabilities of UAVs.
    At the time the NIE was written, declassifying our limitations in 
understanding Saddam's thinking on use was not appropriate in light of 
the potential for military operations involving U.S. troops. That said, 
declassifying our judgment regarding capabilities--in this case, the 
capability of covert intelligence operatives to deliver BW agents in 
clandestine attacks against the U.S. Homeland--was consistent with the 
declassification effort. Therefore, the phrase ``including potentially 
against the U.S. Homeland'' was added to the ``covert operatives'' 
phrase in the unclassified Key Judgments to account for and remain 
consistent with the capability, identified in the section of the Key 
Judgments that was not being declassified.

                differences between nie and white paper
    19. Senator Levin. Director Tenet, one difference between the 
October 1, 2002, NIE on ``Iraq's Continuing Programs for Weapons of 
Mass Destruction'' and the October 2002 unclassified White Paper on 
``Iraq's Weapons of Mass Destruction Programs'' is the lack of caveats 
in the White Paper that were included in the NIE. For example, the Key 
Judgments in the NIE often began with the phrase ``we judge'' or ``we 
assess,'' whereas the comparable text in the White Paper omitted these 
qualifications. Is there a difference between saying: ``Iraq has 
continued its weapons of mass destruction programs'' and ``We judge 
that Iraq has continued its weapons of mass destruction programs?''
    Director Tenet. The ``white paper'' on Iraq's WMD programs was not 
less qualified in its statements than the IC's classified papers. To 
the contrary, it was clear to those working on both the NIE and the 
unclassified white Paper that the two products would have to track as 
closely as possible with each other, within the limitations of one 
being a Top Secret document and the other being unclassified, and one 
being an NIE produced by named agencies and the other not having such 
attributions. Indeed, the reason it was decided to use an unclassified 
version of the NIE's Key Judgments as the Key Judgments of the white 
paper--even though the two papers had different origins, scope, and 
drafters, and the organization of the main texts of the papers 
differed--was to achieve this consistency.
    The portion in question of the white paper was clearly labeled--in 
large boldface, at the top of the first page the reader sees after 
opening the cover--as ``Key Judgments.'' Thus, the sentences already 
were prominently advertised as judgments--not facts. Different analysts 
may have different views as to whether or not such words as ``we 
judge'' and ``we assess'' convey a different nuance, but the decision 
to avoid such language in the white paper was purely an issue of style, 
related to the fact that use of the first person plural would have been 
unsuitable for this type of product. NIEs are explicit, on the title 
page and inside back cover, about who is issuing the document, 
including which agencies participated and which NIOs supervised it. The 
unclassified paper had no such attributions, and any ``we'' would be 
without a referent--i.e., it would be an inappropriate style.

    20. Senator Levin. Director Tenet, why were these caveats and 
qualifiers left out of the unclassified White Paper when they were 
included in the classified NIE?
    Director Tenet. Caveats are not simply a matter of wording at the 
beginning of sentences. Instead, they include qualifying comments 
noting such things as the lack of confirmation of a report, a shortage 
of reliable reporting, or the possibility of alternative explanations. 
No such caveats in the NIE were deleted from otherwise comparable 
judgments in the white paper. In some instances words differed or were 
deleted because the NIE used more specific reporting or judgments that, 
for classification reasons, were not used in the unclassified paper. In 
some of those instances the unclassified paper might be said to be less 
definitive than the NIE. For example, the NIE offered specific 
numerical ranges for how many metric tons of CW agent Iraq possessed 
and how much CW agent it had added in the previous year. The 
unclassified paper used only the vaguer judgment that ``Saddam probably 
has stocked a few hundred metric tons of CW agents.''
    Similarly, interagency differences were reflected in language in 
the unclassified paper that did not name specific agencies but made it 
clear there was not unanimity on the points in question. This was 
consistent with the general practice of not identifying dissents by 
named agencies in unclassified community publications. The INR and DOE 
dissents on aluminum tubes, for example, were reflected in the 
corresponding parts of the unclassified paper (both Key Judgments and 
main text) by saying that ``most intelligence specialists'' believe the 
tubes were intended for a centrifuge enrichment program but 
that``some'' others believe they were for a conventional weapons 
program. This clearly was reflecting an assessment of intent, not 
capability. All agencies agreed in the NIE that the ``aluminum tubes 
could be used to build gas centrifuges for a uranium enrichment 
program.''

    21. Senator Levin. Director Tenet, did the Intelligence Community 
intend to present these views as judgments or as statements of fact?
    Director Tenet. Finally, CIA and the Intelligence Community do not 
have an established product type known as ``white paper,'' even though 
they publish a variety of unclassified assessments and reports. The 
closest previous equivalent to the 2002 paper on Iraqi WMD was a paper 
on the same subject published in 1998. The 1998 paper had a white cover 
and no agency attributions and was commonly referred to as a ``white 
paper.'' The 1998 paper, like the 2002 paper, avoided any use of the 
first person plural ``we'' and thus did not have any phrases such as 
``we judge'' or ``we assess.''

                                  uavs
    22. Senator Levin. Admiral Jacoby, prior to the war, elements of 
the Intelligence Community portrayed a serious threat to the U.S. 
homeland from small Iraqi unmanned aerial vehicles (UAVs) equipped with 
biological warfare (BW) agents. The Air Force intelligence component 
did not agree with this view, and explained in the NIE that it believed 
Iraq's small UAVs were intended for reconnaissance, not for BW agent 
delivery. Prior to the war, did DIA analysts believe that Iraq's small 
UAVs posed a serious threat to the U.S. homeland, or that they were 
intended for reconnaissance?
    Admiral Jacoby. [Deleted.]

                            mobile trailers
    23. Senator Levin. Admiral Jacoby, does DIA believe the two 
trailers found in Iraq were ``conclusive evidence'' that Iraq ``did in 
fact have'' WMD programs? Has DIA concluded that the trailers were 
intended or used for producing BW agents?
    Admiral Jacoby. [Deleted.]

    24. Senator Levin. Admiral Jacoby, it has been reported that DIA 
arranged for independent technical analysis of the mobile trailers. 
Please explain the DIA role and the conclusions of the alternative 
analysis teams, and when they reached them. Please submit all 
alternative analysis documents and reports to the committee within 2 
weeks of receiving this question.
    Admiral Jacoby. [Deleted.]

                 dia concerns about dod policy offices
    25. Senator Levin. Admiral Jacoby, did you have any conversations 
or other communications with either Secretary Rumsfeld or Deputy 
Secretary Wolfowitz in which you expressed any concerns about either 
the Office of Special Plans (OSP) or the Policy Counterterrorism 
Evaluation Group within the Office of the Under Secretary of Defense 
for Policy? If so, what were your concerns and how were they addressed?
    Admiral Jacoby. I have had no conversations or other communications 
with either Secretary Rumsfeld or Deputy Secretary Wolfowitz concerning 
the OSP or the Policy Counterterrorism Evaluation Group. I was unaware 
of the OSP's activities with the exception of a briefing I attended at 
Central Intelligence Agency headquarters in mid-August 2002 on a 
potential connection between al Qaeda and the Iraqi regime. I am also 
unaware of the activities of the Policy Counterterrorism Group. Your 
question is the first time that I have heard of this particular group.

                          al qaeda and zarqawi
    26. Senator Levin. Director Tenet and Admiral Jacoby, the letter 
from Abu Musab al-Zarqawi to senior al Qaeda leadership that was seized 
in January offers assistance to al Qaeda in its fight against the 
United States and groups in Iraq. The letter indicates that while there 
may be affinity between the groups based on mutual goals, there was not 
much of a relationship, if any, between the two groups prior to January 
2004. What is the assessment of the Intelligence Community was there a 
relationship between al Qaeda and Zarqawi's group, Ansar al Islam, 
prior to January, and if so, how would you characterize it?
    Director Tenet. [Deleted.]
    Admiral Jacoby. [Deleted.]

    27. Senator Levin. Director Tenet, there appears to be some 
confusion about some of the relationships between terrorist groups, 
which people characterize in different ways. I am particularly 
interested in your assessment of the relationship between three main 
groups: al Qaeda, the Zarqawi network, and Ansar al-Islam.
    Some people use membership in these groups almost interchangeably, 
while others use more careful language. For example, Secretary Powell, 
when talking about terrorists in Baghdad, mentioned only Zarqawi and 
his network, but appeared to be implying that al Qaeda personnel also 
were being offered safe haven. Secretary Rumsfeld and National Security 
Advisor Rice were more explicit, saying in September 2002 that al Qaeda 
``members,'' ``personnel,'' and ``operatives'' were in Baghdad. In your 
testimony last year, you described Zarqawi as a ``close associate'' of 
al Qaeda, but that you didn't, at that point, have any evidence that 
Zarqawi was under the control of the Iraqi regime. What is Zarqawi's 
relationship with al Qaeda? Is he a member, an associate, an al Qaeda 
planner, or something else?
    Director Tenet. [Deleted.]

    28. Senator Levin. Director Tenet, what is the importance of the 
distinction that you appeared to draw between being an associate and a 
member?
    Director Tenet. [Deleted.]

    29. Senator Levin. Director Tenet, what is the relationship between 
al Qaeda and Ansar al-Islam? Ansar al-Islam's activities in northern 
Iraq were sometimes attributed to al Qaeda. Is that an appropriate 
characterization of that relationship?
    Director Tenet. [Deleted.]

    30. Senator Levin. Director Tenet, what is the distinction between 
al Qaeda's and Ansar al-Islam's activities?
    Director Tenet. [Deleted.]

               nonproliferation/threat reduction programs
    31. Senator Levin. Director Tenet, in a speech last month at the 
National Defense University, President Bush spoke on nonproliferation 
and made recommendations for further work. One of the areas was the 
expansion of the nonproliferation program established by former Senator 
Sam Nunn and Senator Richard Lugar. President Bush said: ``I propose to 
expand our efforts to keep weapons from the Cold War and other 
dangerous materials out of the wrong hands.'' What in your view are the 
primary unaddressed threats that the Nunn-Lugar cooperative threat 
reduction and nonproliferation programs at the Departments of Defense 
and Energy should be expanded to address?
    Director Tenet. [Deleted.]

                 pre-war planning for post-saddam iraq
    32. Senator Levin. Director Tenet, were there pre-war assessments 
of whether there would be a long, costly, bloody occupation with 
significant U.S. casualties after Saddam Hussein was removed from 
power? If so, what were the conclusions and to whom were they sent?
    Director Tenet. [Deleted.]

    33. Senator Levin. Director Tenet, what was the Intelligence 
Community's pre-war assessment about the likelihood that foreign 
terrorists would conduct operations in Iraq during and in the aftermath 
of major combat operations?
    Director Tenet. [Deleted.]

    34. Senator Levin. Director Tenet, in the January 2004 edition of 
The Atlantic Monthly, James Fallows describes a 2-day exercise 
conducted by the National Intelligence Council at the CIA concerning 
post-Saddam Iraq. Please describe the exercise, including its 
objectives and results, and with whom they were shared. He reports that 
the DOD prohibited military officials from participating. Is that 
correct?
    Director Tenet. [Deleted.]

    35. Senator Levin. Director Tenet, in that same article, Mr. 
Fallows writes: ``In late May [2002] the CIA had begun what would 
become a long series of war-game exercises, to think through the best- 
and worst-case scenarios after the overthrow of Saddam Hussein.'' Could 
you describe these exercises, including the objectives and results, and 
with whom they were shared?
    Director Tenet. [Deleted.]

    36. Senator Levin. Director Tenet, Mr. Fallows reports that, 
although there were DOD officials at the first of these May sessions, 
they were told not to continue participating. Were there DOD or 
military officials at the initial sessions, and did they continue to 
participate?
    Director Tenet. [Deleted.]

    37. Senator Levin. Director Tenet, what was the role of the CIA in 
the DOD post-conflict planning effort, if any?
    Director Tenet. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                   north korean missile developments
    38. Senator Akaka. Admiral Jacoby, in your testimony you state that 
North Korea is continuing to develop its Taepo Dong 2 intercontinental 
missile and you also cite press reports suggesting that North Korea is 
preparing to field an intermediate range missile that could reach 
Okinawa or Guam. Have the North Koreans flight tested more than once 
the Taepo Dong and is it your assessment that they are placing more 
emphasis on an intermediate range missile than an intercontinental 
ballistic missile?
    Admiral Jacoby. North Korea has flight tested the Taepo Dong 1 only 
once, in August 1998. Neither the Taepo Dong 2 Intercontinental 
Ballistic Missile/Space Launch Vehicle nor the new Intermediate Range 
Missile have been flight tested. It is unclear at this time if the 
North Koreans are emphasizing one missile over the other.

                      cruise missile developments
    39. Senator Akaka. Admiral Jacoby, I want you to know I share your 
concern about the proliferation of cruise missile developments. I 
chaired a hearing on this subject in June 2002 in the Governmental 
Affairs Committee so it has been a problem I have seen long on the 
horizon. I do not know if you have seen it yet, but the General 
Accounting Office (GAO) recently issued a report to the House 
Government Reform Committee titled, ``Improvements Needed to Better 
Control Technology Exports for Cruise Missiles and Unmanned Aerial 
Vehicles.'' This follows a January GAO report on problems in enforcing 
post-shipment verification of critical United States exports to 
countries of concern, especially China. We keep on identifying a 
problem. We know which countries place the greatest barriers to 
verification but little changes. I hope you share my frustration. How 
do we improve both our pre- and post-shipment controls on critical 
exports?
    Admiral Jacoby. The question would be best addressed by the 
organizations directly involved in pre-license checks (PLCs) and post-
shipment verifications (PSVs)--the Department of State, Department of 
Commerce, and the Defense Technology Security Administration (DTSA). 
Representatives from the two departments are involved in administering 
the PLCs and PSVs and the DTSA generally recommends the controls that 
are implemented as a condition for selling export controlled 
commodities.

                        proliferating countries
    40. Senator Akaka. Admiral Jacoby, you stated that, ``Chinese 
companies remain involved with nuclear and missile programs in Pakistan 
and Iran. In some cases, entities from Russia and China are involved 
without the knowledge of their governments.'' Your statement suggests 
that, in some cases, Russian and Chinese entities are involved with the 
knowledge of their governments. The press have reported that Chinese 
nuclear weapon blueprints have been found in Libya. Is there 
information that the Chinese government continues to be involved in 
Pakistan's nuclear weapons program despite its commitments under the 
Nuclear Nonproliferation Treaty?
    Admiral Jacoby. [Deleted.]

                                  iraq
    41. Senator Akaka. Admiral Jacoby, in the hearing, I asked you 
about the security of conventional weapons depots in Iraq left over 
from the Iraqi military. I would appreciate it if you could give me a 
classified response to my question concerning whether or not there have 
been any substantial thefts from these sites. If so, what has been 
taken and under what type of security were these sites when they were 
robbed?
    Admiral Jacoby. [Deleted.]

    42. Senator Akaka. Admiral Jacoby, I also asked you about trends in 
violence in Iraq. Could you provide me with a more detailed response, 
including statistics, as to whether or not there has been an increase 
or decrease in the number of attacks in the southern part of Iraq over 
the last 4 months?
    Admiral Jacoby. [Deleted.]

    43. Senator Akaka. Admiral Jacoby, I also asked you about the 
treatment in northern Iraq of the Turkoman minority and you indicated 
that there had been no violence against them. I would like to ask this 
question again in order that you might be able to review their 
situation for the record.
    Admiral Jacoby. [Deleted.]

    44. Senator Akaka. Director Tenet, you mentioned that violence in 
Iraq continues from ``multiple groups'' and that while the daily 
average of attacks against U.S. forces and our allies has declined 
compared to November, the number is similar to that in August. Admiral 
Jacoby notes that Iraqi terrorists ``have adjusted to coalition 
tactics.'' Would you say that there are more groups attacking our 
forces and that they are more lethal or do you think there are fewer 
groups having less impact?
    Director Tenet. As of late June, the overall number of attacks 
against the Coalition has been steady for the past 2 months but is 
higher than any period last year. The number of groups changes on a 
daily basis as additional groups form or as some merge together. Some 
of the groups carrying out these attacks--primarily the Zarqawi 
organization--have focused on high-visibility, high-casualty events 
such as suicide and car-bombings. These limited number, high impact 
attacks give the appearance of increased lethality, while the majority 
of the attacks do not cause casualties or damage coalition equipment or 
facilities.

    45. Senator Akaka. Director Tenet, do you detect any change in the 
intensity or frequency of the attacks?
    Director Tenet. [Deleted].

    46. Senator Akaka. Director Tenet, the Coalition Provisional 
Authority (CPA) was instrumental in forming a number of municipal and 
provincial councils. Are these councils viewed by Iraqis as legitimate 
political leaders? If they are not, how do you think it will affect the 
political transition in Iraq?
    Director Tenet. [Deleted.]

    47. Senator Akaka. Director Tenet, related to the legitimacy of the 
political transition, are secular parties growing in influence in Iraq 
or are Islamic parties becoming more influential?
    Director Tenet. [Deleted.]

    48. Senator Akaka. Director Tenet, you mention that oil production 
is increasing and the need to protect facilities from insurgent 
sabotage. I wonder if you could comment on the attacks on Iraqi 
infrastructure, especially in the South. Are these increasing? If so, 
does the increase indicate less stability in the South?
    Director Tenet. While the insurgents have attacked the oil 
infrastructure sporadically since last summer, attack levels over the 
last couple of months are higher than last year and appear more focused 
on the key components of the infrastructure. This sharper focus, 
however, is not the result of a less stable Shia-dominated south. 
Rather, insurgent groups are operating more effectively from areas they 
have been in before.

                     islamic insurgents in thailand
    49. Senator Akaka. Director Tenet, there seems to be an increase in 
conflict along the Thai-Malaysian border by Islamic insurgents. How 
serious are these attacks? Do you believe they are coming from 
terrorist groups linked to al Qaeda?
    Director Tenet. [Deleted.]

                    islamic insurgents in indonesia
    50. Senator Akaka. Director Tenet, there are going to presidential 
elections in Indonesia later this year. The Indonesian government has 
been cooperating in the war on terrorism but Indonesia is a society 
with a tradition of Islamic fundamentalism. Do you see an increase in 
the number of Islamic terrorist groups operating in Indonesia and do 
you believe that the government will find it easier or harder to 
cooperate with the United States, during this election year, in the war 
on terrorism?
    Director Tenet. [Deleted.]

                         situation in pakistan
    51. Senator Akaka. Director Tenet, I asked you how serious the 
Pakistani government is about ending Khan's activities. You indicated 
that you could respond in classified session to my questions concerning 
whether or not the government has imposed any penalties on him. For 
example, does he still own his million dollar homes? Also, have we been 
given access to his interrogation reports including his confession?
    Director Tenet. [Deleted].

                           other wmd networks
    52. Senator Akaka. Director Tenet, could you describe your efforts 
to roll up other networks of WMD private entrepreneurs such as that run 
by Q.C. Chen, whose businesses the United States has sanctioned in the 
past?
    Director Tenet. [Deleted].

                    intelligence assessments of iraq
    53. Senator Akaka. Director Tenet, I also asked you in open session 
whether or not the NIE on Iraq produced in October 2002 was 
substantially different in its conclusions than the Intelligence 
Community document produced in 2000. You indicated that the CIA could 
provide a detailed comparison of changes in assessments going back 10 
years. I appreciate the offer but do not require that information at 
this time. However, I would appreciate a detailed response to my 
question as to whether or not conclusions by the Intelligence Community 
in 2000 were substantially different from the NIE in October 2002 and, 
if so, how?
    Director Tenet. [Deleted.]

    54. Senator Akaka. Director Tenet and Admiral Jacoby, last 
September I asked Secretary Wolfowitz if our pre-war intelligence 
assessments failed to predict the possibility of a guerrilla war in the 
post-war environment. In his response he focused on the potential 
disasters of refugees, starvation, the use of WMD, epidemics, and 
destruction of the oil infrastructure that were averted or anticipated 
in our pre-war planning but did not mention the intensity of attacks 
from various groups. Do you think we adequately anticipated the level 
and intensity of guerrilla attacks against Coalition Forces in the 
post-war situation?
    Director Tenet. [Deleted.]
    Admiral Jacoby. [Deleted.]
                     searching for osama bin laden
    55. Senator Akaka. Director Tenet, you indicated to me in open 
session that you could provide a better response classified to my 
question as to whether or not you are satisfied with the Pakistani 
counterterrorism strategy in this latest effort to get Osama bin Laden 
and, if not, what causes you concern?
    Director Tenet. [Deleted].

    [Whereupon, at 12:39 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
